App. 1
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 18-1545
DAVID SETH WORMAN; ANTHONY LINDEN;
JASON WILLIAM SAWYER; PAUL NELSON
CHAMBERLAIN; GUN OWNERS’ ACTION
LEAGUE, INC.; ON TARGET TRAINING, INC.;
OVERWATCH OUTPOST,
Plaintiffs, Appellants,
v.
MAURA T. HEALEY, in her official capacity as
Attorney General of the Commonwealth of
Massachusetts; DANIEL BENNETT, in his official
capacity as the Secretary of the Executive Office of
Public Safety and Security; KERRY GILPIN, in her
official capacity as Superintendent of the
Massachusetts State Police,
Defendants, Appellees.
-----------------------------------------------------------------------

APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF MASSACHUSETTS
[Hon. William G. Young, U.S. District Judge]
-----------------------------------------------------------------------

App. 2
Before
Barron, Circuit Judge,
Souter,* Associate Justice,
and Selya, Circuit Judge.
-----------------------------------------------------------------------

John Parker Sweeney, with whom James Michael
Campbell, Richard Paul Campbell, Campbell Campbell Edwards & Conroy PC, T. Sky Woodward, James
W. Porter, III, Marc A. Nardone, and Bradley Arant
Boult Cummings LLP, were on brief, for appellants.
Ilya Shapiro, Trevor Burrus, Matthew Larosiere,
Joseph G.S. Greenlee, and David B. Kopel on brief for
Professors of Second Amendment Law, Cato Institute,
Second Amendment Foundation, Citizens Committee
for the Right to Keep and Bear Arms, Jews for the
Preservation of Firearms Ownership, Millennial Policy
Center, and Independence Institute, amici curiae.
Dan M. Peterson, Dan M. Peterson PLLC, C. D.
Michel, Sean A. Brady, Anna M. Barvir, and Michel &
Associates, P.C., on brief for Western States Sheriffs’
Association, Law Enforcement Legal Defense Fund,
Law Enforcement Action Network, International Association of Law Enforcement Firearms Instructors,
CRPA Foundation, International Law Enforcement
Educators and Trainers Association, and Law Enforcement Alliance of America, amici curiae.

* Hon. David H. Souter, Associate Justice (Ret.) of the Supreme Court of the United States, sitting by designation.

App. 3
David H. Thompson, Peter A. Patterson, John D.
Ohlendorf, and Cooper & Kirk, PLLC, on brief for National Rifle Association of America, Inc., amicus curiae.
Julia E. Kobick, Assistant Attorney General, with
whom Maura Healey, Attorney General, William W.
Porter and Elizabeth Kaplan, Assistant Attorneys
General, and Gary Klein, Special Assistant Attorney
General, were on brief, for appellees.
Jonathan K. Baum, Mark T. Ciani, Katten Muchin
Rosenman LLP, J. Adams Skaggs, and Hannah
Shearer on brief for Giffords Law Center to Prevent
Gun Violence, amicus curiae.
Mariel Goetz, Kimberly A. Mottley, Laura Stafford, and Proskauer Rose LLP, on brief for Brady Center to Prevent Gun Violence, amicus curiae.
Edward Notis-McConarty, M. Patrick Moore, Jr.,
Vanessa A. Arslanian, and Hemenway & Barnes LLP
on brief for Massachusetts Chiefs of Police Association
and Massachusetts Major City Chiefs of Police Association, amici curiae.
Gurbir S. Grewal, Attorney General of New Jersey,
Andrew J. Bruck, Executive Assistant Attorney General, Jeremy M. Feigenbaum and Glenn Moramarco,
Assistant Attorneys General, Melissa Medoway, Deputy Attorney General, Xavier Becerra, Attorney General of California, George Jepsen, Attorney General of
Connecticut, Matthew P. Denn, Attorney General of
Delaware, Russell A. Suzuki, Attorney General of Hawai’i, Tom Miller, Attorney General of Iowa, Brian E.

App. 4
Frosh, Attorney General of Maryland, Ellen F. Rosenblum, Attorney General of Oregon, Josh Shapiro, Attorney General of Pennsylvania, Peter F. Kilmartin,
Attorney General of Rhode Island, Mark R. Herring,
Attorney General of Virginia, Thomas J. Donovan, Jr.,
Attorney General of Vermont, Robert W. Ferguson, Attorney General of Washington, Karl A. Racine, Attorney General for the District of Columbia, on brief for
states of New Jersey, California, Connecticut, Delaware, Hawai’i, Iowa, Maryland, Oregon, Pennsylvania,
Rhode Island, Vermont, Virginia, Washington, and the
District of Columbia, amici curiae.
Eric Tirschwell, William J. Taylor, Jr., Mark Anthony Frassetto, Deepak Gupta, Jonathan E. Taylor,
and Gupta Wessler PLLC, on brief for Everytown for
Gun Safety, amicus curiae.
Albert W. Wallis, Elizabeth A. Ritvo, Tristan G. Axelrod, Brown Rudnick LLP, Kenneth A. Sweder, and
Sweder & Ross LLP, on brief for Jewish Alliance for
Law and Social Action, Greater Boston Interfaith Organization, Episcopal Diocese of Massachusetts, Episcopal Diocese of Western Massachusetts, Islamic
Society of Boston, Massachusetts Council of Churches,
Union for Reform Judaism, Central Conference of
American Rabbis, Women of Reform Judaism, and Men
of Reform Judaism, amici curiae.
Ben T. Clements and Clements & Pineault, LLP,
on brief for Stop Handgun Violence, MA Coalition to
Prevent Gun Violence, and Massachusetts General

App. 5
Hospital Gun Violence Prevention Coalition, amici curiae.
James Murray, pro se, on brief for James Murray,
amicus curiae.
-----------------------------------------------------------------------

April 26, 2019
-----------------------------------------------------------------------

SELYA, Circuit Judge. This high-profile case involves a constitutional challenge to a Massachusetts
law proscribing the sale, transfer, and possession of
certain semiautomatic assault weapons and largecapacity magazines (LCMs). See Mass. Gen. Laws ch.
140, §§ 121, 131M (the Act). The plaintiffs assert that
they have an unfettered Second Amendment right to
possess the proscribed assault weapons and LCMs in
their homes for self-defense.1 The district court
granted summary judgment in favor of the defendants
(a phalanx of state officials). See Worman v. Healey, 293
F. Supp. 3d 251, 271 (D. Mass. 2018). Although our reasoning differs in certain respects from that of the court
below, we affirm.
We assume, without deciding, that the proscribed
weapons have some degree of protection under the Second Amendment. We further assume, again without
deciding, that the Act implicates the core Second
1

Throughout this opinion, we use the terms “proscribed assault weapons and LCMs” and “proscribed weapons” interchangeably to describe the semiautomatic assault weapons and LCMs
targeted by the Act.

App. 6
Amendment right of self-defense in the home by lawabiding, responsible individuals. We hold, however,
that the Act’s burden on that core right is minimal and,
thus, the Act need only withstand intermediate scrutiny – which it does.
I.

BACKGROUND

We start by rehearsing the background and travel
of the case. The Massachusetts legislature modeled the
Act on the 1994 federal Public Safety and Recreational
Firearms Use Protection Act (the federal regulation),
Pub. L. No. 103-322, §§ 110101-06, 108 Stat. 1796,
1996-2010 (1994), which is no longer in effect. The federal regulation prohibited the manufacture, transfer,
and possession of “semiautomatic assault weapons”
and the transfer and possession of “large capacity ammunition feeding devices.” Id. §§ 110102-03, 108 Stat.
at 1996-2000. For purposes of the federal regulation,
the term “semiautomatic assault weapon” was defined
to include nineteen specific models, as well as any semiautomatic rifle, pistol, or shotgun with two or more
combat-style features or the ability to accept a detachable magazine. Id. § 110102(b), 108 Stat. at 1997-98.
The term “large capacity ammunition feeding device”
encompassed any magazine or other feeding device
that could accept more than ten rounds of ammunition.
Id. § 110103(b), 108 Stat. at 1999. The federal regulation specifically exempted, inter alia, assault weapons
that were lawfully possessed on the date of its enactment (September 13, 1994), semiautomatic rifles that
could not hold more than five rounds of ammunition or

App. 7
accept a detachable magazine holding more than five
rounds of ammunition, and a specific list of “long guns
most commonly used in hunting and recreational
sports.” H.R. Rep. No. 103-489, at 20 (1994); see Pub. L.
No. 103-322, § 110102(a), 108 Stat. at 1996-97. In explicating the purpose of the federal regulation, Congress stated that semiautomatic assault weapons have
“a capability for lethality – more wounds, more serious,
in more victims – far beyond that of other firearms in
general, including other semiautomatic guns.” H.R.
Rep. No. 103-489, at 19-20.
Four years after Congress enacted the federal regulation, the Massachusetts legislature passed a counterpart statute, which made it a crime to sell, transfer,
or possess semiautomatic assault weapons as defined
by the federal regulation, copies or duplicates of those
weapons, and LCMs capable of holding more than ten
rounds of ammunition. See Mass. Gen. Laws ch. 140,
§§ 121, 131M. The Act contained the same exceptions
as the federal regulation, including free passes for
weapons lawfully owned on September 13, 1994, and
for sundry automatic rifles commonly used for hunting
and sport. See id.
Congress allowed the federal regulation to expire
in 2004, but the Massachusetts legislature struck out
in a different direction and made the Massachusetts
assault weapons regulation permanent that year. In
signing the bill into law, then-Governor Romney declared that semiautomatic assault weapons and LCMs
“are not made for recreation or self-defense. They are

App. 8
instruments of destruction with the sole purpose of
hunting down and killing people.”
We fast-forward to 2016 when the Massachusetts
Attorney General, Maura Healey, issued a public enforcement notice designed to “provide[ ] guidance on
the identification of weapons that are ‘copies’ or ‘duplicates’ of the enumerated Assault weapons that are
banned under Massachusetts law.” Approximately six
months later, the plaintiffs – a diverse group consisting of Massachusetts firearm owners, prospective firearm owners, firearm dealers, and a firearm advocacy
association – brought suit in the federal district court,
alleging constitutional violations and seeking declaratory and injunctive relief. They named an array of defendants including (as relevant here) various state
officials in their representative capacities; claimed
that the Act, as interpreted and enforced by those officials, abridged both the Second Amendment and the
Due Process Clause; and prayed for declaratory and injunctive relief.
After some procedural skirmishing, not relevant
here, the parties cross-moved for summary judgment.
The district court heard arguments of counsel and reserved decision. The court subsequently handed down
a rescript in which it rejected the plaintiffs’ challenges
and explained why it was granting the defendants’
summary judgment motion. See Worman, 293 F. Supp.
3d at 258-71. This timely appeal ensued. In it, the
plaintiffs challenge only the district court’s rejection of
their Second Amendment claims.

App. 9
II.

ANALYSIS

We review the grant of a motion for summary
judgment de novo, taking the facts and all reasonable
inferences therefrom to the behoof of the non-moving
parties (here, the plaintiffs). See Hightower v. City of
Boston, 693 F.3d 61, 70 (1st Cir. 2012); Houlton Citizens’ Coal. v. Town of Houlton, 175 F.3d 178, 184 (1st
Cir. 1999). “We will affirm only if the record reveals
‘that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.’ ” Avery v. Hughes, 661 F.3d 690, 693 (1st Cir. 2011)
(quoting Fed. R. Civ. P. 56(a)). This standard applies
unabated to appeals – like this one – arising out of a
district court’s disposition of cross-motions for summary judgment. See Blackie v. Maine, 75 F.3d 716, 72021 (1st Cir. 1996). In applying the standard here, we
have the benefit not only of able briefing by the parties
but also of a myriad of thoughtful amicus briefs (for
which we are grateful).
A.

The Legal Framework.

The Second Amendment states that “[a] well regulated Militia, being necessary to the security of a free
State, the right of the people to keep and bear Arms,
shall not be infringed.” U.S. Const. amend. II. In a seminal decision, the Supreme Court held that the Second
Amendment protects an individual’s right to keep and
bear arms (unconnected to service in the militia). See
District of Columbia v. Heller, 554 U.S. 570, 592 (2008).
Two years later, the Court made pellucid that the

App. 10
Second Amendment applies to the states through the
Fourteenth Amendment. See McDonald v. City of Chicago, 561 U.S. 742, 750 (2010).
The law challenged in Heller constituted an “absolute prohibition of handguns held and used for selfdefense in the home,” which (the Court ruled) transgressed the Second Amendment.2 554 U.S. at 635-36.
Although the Court did not have occasion to examine
“the full scope of the Second Amendment” right, it cautioned that the right “is not unlimited.” Id. at 626. In
furtherance of this cautionary language, the Court admonished that “nothing in our opinion should be taken
to cast doubt on longstanding prohibitions on the possession of firearms by felons and the mentally ill, or
laws forbidding the carrying of firearms in sensitive
places such as schools and government buildings, or
laws imposing conditions and qualifications on the
commercial sale of arms.” Id. at 626-27. The Court
added that the Second Amendment does not confer “a
right to keep and carry any weapon whatsoever in any

2

Although the present plaintiffs attempt to characterize the
Act as an “absolute prohibition” on an entire class of firearms,
that characterization is inapt. The Act applies only to a set of enumerated semiautomatic assault weapons, to semiautomatic assault weapons with particular features, and to magazines of a
specific capacity. Seen in this light, the plaintiffs’ “absolute prohibition” argument is circular: essentially, it amounts to a suggestion that whatever group of weapons a regulation prohibits may
be deemed a “class.” By this logic – which we squarely reject –
virtually any regulation could be considered an “absolute prohibition” of a class of weapons.

App. 11
manner whatsoever and for whatever purpose.” Id. at
626.
We glean from the teachings of Heller that four
data points determine the level of protection, if any,
that the Second Amendment provides. The first data
point involves the person who is asserting the right;
the second data point involves the purpose for which
the right is being asserted; the third data point involves the place where the right is being asserted; and
the fourth data point involves the type of weapon. Heller’s most meaningful message touches all four data
points. Refined to bare essence, its message is that the
Second Amendment “elevates above all other interests
the right of law-abiding, responsible citizens to use
arms in defense of hearth and home.” Id. at 635.
As applied here, this message checks off the first
three data points. It is undisputed that the individual
plaintiffs are not prohibited persons but, rather, lawabiding, responsible citizens. Similarly, it is undisputed that they seek to use the proscribed assault
weapons and LCMs for self-defense. And, finally, it is
undisputed that they seek to effectuate this usage in
their homes. We are, therefore, left to focus on the
fourth data point: the arms proscribed and the extent
(if at all) that those arms are protected by the Second
Amendment.
In conducting this inquiry, we do not write on an
entirely pristine page. Our recent decision in Gould v.
Morgan mapped out a two-step approach for analyzing Second Amendment challenges. See 907 F.3d 659,

App. 12
668-69 (1st Cir. 2018), petition for cert. filed, ___
U.S.L.W. ___ (U.S. April 1, 2019) (No. 18-1272). Under
this approach, we first ask whether the challenged law
burdens conduct that is protected by the Second
Amendment. See id. This inquiry is “backward-looking” and “seeks to determine whether the regulated
conduct ‘was understood to be within the scope of the
right at the time of ratification.’ ” Id. at 669 (quoting
United States v. Chester, 628 F.3d 673, 680 (4th Cir.
2010)). If that step is successfully negotiated so we can
say that the challenged law “burdens conduct falling
within the scope of the Second Amendment, [we] then
must determine what level of scrutiny is appropriate
and must proceed to decide whether the challenged
law survives that level of scrutiny.” Id. We follow this
approach in determining whether the Act withstands
the plaintiffs’ Second Amendment onslaught.
B. The Scope of the Second Amendment Right.
This brings us to the question of whether the conduct restricted by the Act falls under the protective
carapace of the Second Amendment. To answer this
question, we must determine whether possession of
the proscribed assault weapons and LCMs in the home
for self-defense is safeguarded by the Second Amendment.3
3

One of the amici advances the clever argument that LCMs,
like other magazines, are not “arms” at all because they are not
themselves “[w]eapons of offense, or armour of defence.” Heller,
554 U.S. at 581 (alteration in original) (quoting 1 Dictionary of
the English Language 106 (4th ed.) (reprinted 1978)). The

App. 13
Our first task is to consider whether the proscribed weapons are the type of arms “understood to be
within the scope of the [Second Amendment] right at
the time of ratification.” Id. (quoting Chester, 628 F.3d
at 680). Heller is the beacon by which we must steer.
There, the Court explained that “[t]he traditional militia was formed from a pool of men bringing arms ‘in
common use at the time’ for lawful purposes like
self-defense.” 554 U.S. at 624 (quoting United States v.
Miller, 307 U.S. 174, 179 (1939)).4 The Court’s earlier
decision in Miller (which held that a short-barreled
shotgun was not protected by the Second Amendment)
furnishes further context. See 307 U.S. at 175-83.
There, the Court surveyed state laws regulating militias at the time of the founding and explained that
defendants, though, have not proffered such an argument. We ordinarily refuse to entertain arguments advanced by amici but not
by the parties, see, e.g., In re Sony BMG Music Entm’t, 564 F.3d
1, 3 (1st Cir. 2009); Lane v. First Nat’l Bank of Bos., 871 F.2d 166,
175 (1st Cir. 1989), and we see no reason to depart from that prudential principle here. We note, moreover, that the parties do not
argue that the Second Amendment analysis differs with respect
to LCMs as opposed to semiautomatic assault weapons, and so we
consider both objects of the Act together.
4
Here, however, there is a wrinkle. Because the plaintiffs’
challenge is directed at a state statute, Gould points to 1868
(when the Fourteenth Amendment was ratified) as the date for
any necessary historical inquiry. See 907 F.3d at 669. Heller, in
contrast, does not deal with a state law and thus locates the
benchmark at 1791 (the date of ratification of the Constitution
itself ). Since no party here has argued that this distinction is either material or sufficient to render Heller’s analysis inoperative,
we need not parse this distinction as “our conclusion with respect
to the historical record would be the same regardless of which ratification date was used.” Id. at 669 n.3.

App. 14
many states, including Massachusetts, had specified
the types of weapons that citizens were required to
bring to militia service. See id. at 180-82. The Court
concluded that although “[m]ost if not all of the States
have adopted provisions touching the right to keep and
bear arms,” id. at 182, none has suggested that a shortbarreled shotgun was the type of weapon that “could
contribute to the common defense,” id. at 178. With this
historical background in place, the Heller Court determined that the Second Amendment “extends only to
certain types of weapons.” 554 U.S. at 623. One corollary of this determination is that an “important limitation on the right to keep and carry arms” is that “the
sorts of weapons protected were those ‘in common use
at the time.’ ” Id. at 627 (quoting Miller, 307 U.S. at
179). The Court added that such a “limitation is fairly
supported by the historical tradition of prohibiting the
carrying of ‘dangerous and unusual weapons.’ ” Id. (citing 4 William Blackstone, Commentaries on the Laws
of England 148-49 (1769)); see id. at 623 (referencing
“the prohibition on terrorizing people with dangerous
or unusual weapons”).
That the proscribed weapons were not in existence, let alone in common use, at the time of ratification, does not end the matter. Heller left no doubt that
“the Second Amendment extends, prima facie, to all instruments that constitute bearable arms, even those
that were not in existence at the time of the founding.”
Id. at 582. The Court reaffirmed this principle some
eight years later, when it reversed a decision of the
Massachusetts Supreme Judicial Court (SJC), which

App. 15
had held that stun guns were not protected by the Second Amendment. See Caetano v. Massachusetts, 136
S. Ct. 1027, 1027-28 (2016) (per curiam). Pertinently,
the Caetano Court debunked the notion that stun guns
were unprotected because they “were not in common
use at the time of the Second Amendment’s enactment,” id. at 1027 (quoting Commonwealth v. Caetano,
26 N.E.3d 688, 693 (Mass. 2015)), finding that notion
“inconsistent with Heller’s clear statement that the
Second Amendment ‘extends . . . to . . . arms that were
not in existence at the time of the founding,’ ” id. at
1028 (alteration in original) (quoting Heller, 554 U.S.
at 582); see id. (rejecting conclusion “that stun guns are
‘unusual’ because they are ‘a thoroughly modern invention’ ” (quoting Caetano, 26 N.E.3d at 693-94)).
Relatedly, the Heller Court acknowledged that
“if weapons that are most useful in military service
– M-16 rifles and the like – may be banned,” it might
be argued that “the Second Amendment right is completely detached from the prefatory clause.” 554 U.S. at
627. After all, militias today “require sophisticated
arms that are highly unusual in society at large.” Id.
But the Court pointed out that “the conception of the
militia at the time of the Second Amendment’s ratification was the body of all citizens capable of military
service, who would bring the sorts of lawful weapons
that they possessed at home to militia duty.” Id. Thus,
“the fact that modern developments have limited the
degree of fit between the prefatory clause and the protected right cannot change [judicial] interpretation of
the right.” Id. at 627-28.

App. 16
Viewed against this backdrop, the relevant question is neither whether the proscribed weapons were
commonly used at the time of ratification nor whether
they are among the types of weapons used by today’s
militias. Instead, the question is whether the proscribed weapons are in common use for lawful purposes like self-defense.
As to this question, Heller provides only meager
guidance. Heller made plain that handguns, which the
Court described as “the most popular weapon chosen
by Americans for self-defense in the home,” are protected. Id. at 629. Conversely, “the Second Amendment
does not protect those weapons not typically possessed
by law-abiding citizens for lawful purposes, such as
short-barreled shotguns.” Id. at 625. But as to the middle ground – and particularly, as to how to plot the dividing line between common and uncommon use – the
Court was silent.5
The parties strive mightily to fill this void. On the
one hand, the plaintiffs have shown that, as of 2013,
nearly 5,000,000 people owned at least one semiautomatic assault weapon. They also have shown that
5

We agree with the Seventh Circuit that measuring “common use” by the sheer number of weapons lawfully owned is somewhat illogical. See Friedman v. City of Highland Park, 784 F.3d
406, 409 (7th Cir. 2015) (“Machine guns aren’t commonly owned
for lawful purposes today because they are illegal; semi-automatic
weapons with large-capacity magazines are owned more commonly because, until recently (in some jurisdictions), they have
been legal. Yet it would be absurd to say that the reason why a
particular weapon can be banned is that there is a statute banning it, so that it isn’t commonly owned.”).

App. 17
between 1990 and 2015, Americans owned approximately 115,000,000 LCMs. On the other hand, the defendants have shown that only three percent of guns
in the United States are assault weapons and only one
percent of Americans own such a weapon. In all events,
the record evidence is sparse as to actual use of any of
the proscribed weapons or LCMs for self-defense in the
home.
The district court avoided this question entirely. It
abjured the “in common use” test, concluding that “Heller . . . presents us with a dispositive and relatively
easy inquiry: Are the banned assault weapons and
large-capacity magazines ‘like’ ‘M-16 rifles,’ i.e., ‘weapons that are most useful in military service,’ and thus
outside the ambit of the Second Amendment?”
Worman, 293 F. Supp. 3d at 264 (quoting Kolbe v. Hogan, 849 F.3d 114, 136 (4th Cir.) (en banc), cert. denied,
138 S. Ct. 469 (2017)). The court went on to find that
the proscribed weapons fit within this taxonomy, noting by way of example that one of the proscribed weapons (the Colt AR-15) is virtually identical to the M-16
(save for the fact that the AR-15 does not allow for fully
automatic fire). See id. at 264-66. The plaintiffs argue
that this approach is doubly flawed: they calumnize
both the district court’s conclusion that “weapons that
are most useful in military service” are excepted from
Second Amendment coverage and its determination
that the proscribed weapons are “like” “M-16 rifles.”
Mindful that “[d]iscretion is often the better part
of valor,” United States v. Gonzalez, 736 F.3d 40, 40
(1st Cir. 2013), we are reluctant to plunge into this

App. 18
factbound morass. In the end, “courts should not rush
to decide unsettled issues when the exigencies of a particular case do not require such definitive measures.”
Privitera v. Curran (In re Curran), 855 F.3d 19, 22 (1st
Cir. 2017). For present purposes, we simply assume, albeit without deciding, that the Act burdens conduct
that falls somewhere within the compass of the Second
Amendment.
C.

The Level of Scrutiny.

The next phase of our inquiry “requires us to
evaluate the [Act] under an appropriate level of scrutiny.” Gould, 907 F.3d at 670. The appropriate level of
scrutiny “turn[s] on how closely a particular law or policy approaches the core of the Second Amendment
right and how heavily it burdens that right.” Id. at 67071. We previously established “that the core Second
Amendment right is limited to self-defense in the
home” on the part of “responsible, law-abiding individuals.” Id. at 671. Given this understanding, we concluded that the law challenged in Gould (which
concerned public carriage of firearms) fell outside the
core of the Second Amendment right. See id. at 672. In
contrast to the plaintiffs in Gould, the present plaintiffs contend that the Act affects their ability to defend
themselves in their homes. Assuming (favorably to the
plaintiffs) that the Act implicates the core of the Second Amendment right, we must train the lens of our
inquiry on “how heavily it burdens that right.” Id. at
671.

App. 19
As is true in many Second Amendment inquiries,
our starting point is Heller. There, the Court unequivocally rebuffed the argument “that it is permissible to
ban the possession of handguns so long as the possession of other firearms (i.e., long guns) is allowed.” 554
U.S. at 629. The Court’s rationale was based on the
premise that “the American people have considered the
handgun to be the quintessential self-defense weapon.”
Id. In fashioning this rationale, the Court repeatedly
emphasized the unique popularity of the handgun as a
means of self-defense. See id. at 628 (calling handguns
a “class of ‘arms’ . . . overwhelmingly chosen by American society for [self-defense]”); id. at 628-29 (identifying the handgun as “the most preferred firearm in the
nation to ‘keep’ and use for protection of one’s home
and family”); id. at 629 (declaring that “handguns are
the most popular weapon chosen by Americans for selfdefense in the home”). Building on this foundation, the
Court made clear that banning this quintessential selfdefense weapon would heavily burden the core right of
self-defense in the home. See id. at 629; see also id. at
632 (describing eighteenth-century gunpowder storage
laws and noting that such laws did “not remotely burden the right of self-defense as much as an absolute
ban on handguns”).
This same logic leads us to conclude that the Act’s
restriction on semiautomatic assault weapons and
LCMs does not heavily burden the core right of selfdefense in the home. As an initial matter, the Act does
not ban all semiautomatic weapons and magazines.
Instead, it proscribes only a set of specifically

App. 20
enumerated semiautomatic assault weapons, magazines of a particular capacity, and semiautomatic assault weapons that have certain combat-style features.
Furthermore, the record shows that semiautomatic assault weapons do not share the features that make
handguns well-suited to self-defense in the home. Cf.
id. at 629 (explaining that “a citizen may prefer a handgun for home defense” because, inter alia, “[i]t is easier
to store in a location that is readily accessible in an
emergency; it cannot easily be redirected or wrestled
away by an attacker; it is easier to use for those without the upper-body strength to lift and aim a long gun;
it can be pointed at a burglar with one hand while the
other hand dials the police”). Equally as important is
what the record does not show: it offers no indication
that the proscribed weapons have commonly been used
for home self-defense purposes. In fact, when asked directly, not one of the plaintiffs or their six experts could
identify even a single example of the use of an assault
weapon for home self-defense, nor could they identify
even a single example of a self-defense episode in
which ten or more shots were fired. Viewed as a whole,
the record suggests that wielding the proscribed weapons for self-defense within the home is tantamount to
using a sledgehammer to crack open the shell of a peanut. Thus, we conclude that the Act does not heavily
burden the core Second Amendment right of selfdefense within the home.
This conclusion fits seamlessly with our decision
in Hightower. Although that opinion did not directly
address what restrictions may be deemed to heavily

App. 21
burden the core Second Amendment right, we stated
that the fact that the plaintiff sought a license that “allowed carrying of large capacity weapons weaken[ed]
the Second Amendment claim, as [Heller] was concerned with weapons of the type characteristically
used to protect the home.” Hightower, 693 F.3d at 71
(holding that revocation of license to carry concealed,
large-capacity firearm based on false statements in renewal application did not violate Second Amendment).
So, too, our conclusion is reinforced by the fact that –
unlike the use of handguns – the use of semiautomatic
assault weapons, even in the home, does not “implicate[ ] the safety only of those who live or visit there.”
Gould, 907 F.3d at 672. Rather, the use of semiautomatic assault weapons implicates the safety of the
public at large. After all, such weapons can fire through
walls, risking the lives of those in nearby apartments
or on the street. Cf. Kolbe, 849 F.3d at 127 (observing
that “rounds from assault weapons have the ability to
easily penetrate most materials used in standard
home construction, car doors, and similar materials”).
We have yet to consider what level of scrutiny applies to a law that implicates the core of the Second
Amendment right, but does not “heavily . . . burden[ ]
that right.” Gould, 907 F.3d at 671. Heller does state
that a handgun ban would “fail constitutional muster”
under “any of the standards of scrutiny that [the Court
has] applied to enumerated constitutional rights.” 554
U.S. at 628-29. But we do not read Heller to suggest
that a regulation of arms that only modestly burdens
the core Second Amendment right must be subject to

App. 22
the strictest form of constitutional review. See Gould,
907 F.3d at 673 (“The Heller Court . . . implie[d]
that there is a role for some level of scrutiny less rigorous than strict scrutiny.”); see also Ezell v. City of Chicago, 651 F.3d 684, 708 (7th Cir. 2011) (“[A] severe
burden on the core Second Amendment right of armed
self-defense will require an extremely strong publicinterest justification and a close fit between the government’s means and its end. . . . [L]aws that merely
regulate rather than restrict, and modest burdens on
the right may be more easily justified.”).
In our view, intermediate scrutiny is appropriate
as long as a challenged regulation either fails to implicate the core Second Amendment right or fails to impose a substantial burden on that right. See Fyock v.
Sunnyvale, 779 F.3d 991, 998-99 (9th Cir. 2015). It follows that intermediate scrutiny is the appropriate
level of scrutiny for evaluating a law – like the Act –
that arguably implicates the core Second Amendment
right to self-defense in the home but places only a modest burden on that right. This holding aligns us with a
number of our sister circuits, which have applied intermediate scrutiny to laws restricting semiautomatic assault weapons and LCMs. See, e.g., Ass’n of N.J. Rifle
& Pistol Clubs v. Att’y Gen. N.J., 910 F.3d 106, 117 (3d
Cir. 2018) (applying intermediate scrutiny because
“[t]he Act here does not severely burden the core Second Amendment right to self-defense in the home”);
Kolbe, 849 F.3d at 134 (applying intermediate scrutiny
because challenged law did “not seriously impact a person’s ability to defend himself in the home” (internal

App. 23
quotation marks omitted)); N.Y. State Rifle & Pistol
Ass’n v. Cuomo, 804 F.3d 242, 260 (2d Cir. 2015) (applying intermediate scrutiny because “[t]he burden imposed by the challenged legislation is real, but . . . not
‘severe’ ”); Heller v. District of Columbia (Heller II), 670
F.3d 1244, 1262 (D.C. Cir. 2011) (applying intermediate
scrutiny because challenged prohibition did not “substantially affect” individuals’ right of self-defense).6
Consequently, we proceed to apply intermediate scrutiny to determine whether the Act passes constitutional muster.
D.

Applying Intermediate Scrutiny.

To survive intermediate scrutiny, a statute “must
be substantially related to an important governmental
objective.” Gould, 907 F.3d at 672 (quoting Clark v.
Jeter, 486 U.S. 456, 461 (1988)). To achieve this substantial relationship, there must be a “reasonable fit”
between the restrictions imposed by the law and the
government’s valid objectives, “such that the law does
6

After we heard oral argument in this case, the Illinois Supreme Court held that a law prohibiting the carrying of tasers
and stun guns was a “categorical ban” and, thus, was “facially unconstitutional under the [S]econd [A]mendment.” Illinois v. Webb,
___ N.E. 3d ___, ___ (Ill. 2019) [2019 WL 1291586 at *5]. The
plaintiffs notified us of this decision pursuant to Federal Rule of
Appellate Procedure 28(j), asserting that it “provides further support for [their] argument that a categorical ban on bearable arms
that are commonly kept for lawful purposes is per se unconstitutional.” We reject the plaintiffs’ premise that the Act is a categorical ban, see supra note 2, and disagree with the Illinois Supreme
Court’s conclusion that any law that restricts a certain type of
arms is per se unconstitutional.

App. 24
not burden more conduct than is reasonably necessary.” Id. at 674 (quoting Drake v. Filko, 724 F.3d 426,
436 (3d Cir. 2013)).
The law that the plaintiffs challenge here – the Act
– restricts the sale, transfer, and possession of certain
semiautomatic assault weapons and LCMs. See Mass.
Gen. Laws ch. 140, §§ 121, 131M. It does not ban the
sale, transfer, or possession of all semiautomatic weapons, nor does it impose any restrictions on magazines
that are designed to hold ten rounds or fewer. The Act’s
manifest purpose is to “help keep the streets and
neighborhoods of Massachusetts safe” by “mak[ing] it
harder for criminals to get their hands on these dangerous guns.”
We have said before, and today reaffirm, that “few
interests are more central to a state government than
protecting the safety and well-being of its citizens.”
Gould, 907 F.3d at 673. Since Massachusetts indubitably “has compelling governmental interests in both
public safety and crime prevention,” id., the only question that remains is whether the Act is substantially
related to those interests. The answer to this question
depends on whether the fit between those interests
and the Act is reasonable. See id. at 674.
In our view, the Act survives under intermediate
scrutiny. This view comports with the unanimous
weight of circuit-court authority analyzing Second
Amendment challenges to similar laws. See, e.g., Ass’n
of N.J. Rifle & Pistol Clubs, 910 F.3d at 122; Kolbe, 849

App. 25
F.3d at 139; N.Y. State Rifle & Pistol Ass’n, 804 F.3d at
261; Heller II, 670 F.3d at 1262.
The record contains ample evidence of the unique
dangers posed by the proscribed weapons. Semiautomatic assault weapons permit a shooter to fire multiple rounds very quickly, allowing him to hit more
victims in a shorter period of time. LCMs exacerbate
this danger, allowing the shooter to fire more bullets
without stopping to reload. Cf. Heller II, 670 F.3d at
1264 (noting that “the 2 or 3 second pause during
which a criminal reloads his firearm can be of critical
benefit to law enforcement” (internal quotation marks
omitted)). It is, therefore, not surprising that AR-15s
equipped with LCMs have been the weapons of choice
in many of the deadliest mass shootings in recent history, including horrific events in Pittsburgh (2018),
Parkland (2018), Las Vegas (2017), Sutherland Springs
(2017), Orlando (2016), Newtown (2012), and Aurora
(2012).
The record also contains the affidavit of a seasoned
trauma surgeon, who has treated victims of several
mass shootings. This affidavit confirms what common
sense suggests: semiautomatic assault weapons cause
wounds that “tend to be higher in complexity with
higher complication rates than those injuries from
non-assault weapons. They tend to cause far greater
damage to the muscles, bones, soft tissue, and vital organs.” Cf. Panagiotis K. Stefanopoulos, et al., Gunshot
Wounds: A Review of Ballistics Related to Penetrating
Trauma, 3 J. Acute Disease 178, 181-82 (2014). A number of articles, written by physicians who have cared

App. 26
for assault-weapon victims, substantiate the extreme
damage that such weapons are prone to cause. See, e.g.,
Gina Kolata & C.J. Chivers, Wounds from MilitaryStyle Rifles? ‘A Ghastly Thing to See’, N.Y. Times (Mar.
4, 2018), https://www.nytimes.com/2018/03/04/health/
parkland-shooting-victims-ar15.html (“The tissue destruction is almost unimaginable. Bones are exploded,
soft tissue is absolutely destroyed. The injuries to the
chest or abdomen – it’s like a bomb went off.”); Tim
Craig et al., As the Wounded Kept Coming, Hospitals
Dealt with Injuries Rarely Seen in U.S., Wash. Post
(Oct. 3, 2017), https://www.washingtonpost.com/national/
health-science/as-the-wounded-kept-coming-hospitalsdealt-with-injuries-rarely-seen-in-the-us/2017/10/03/
06210b86-a883-11e7-b3aa-c0e2e1d41e38_story.html?
utm_term=.5a659eec267b (“If a 9mm bullet strikes
someone in the liver . . . that person might suffer a
wound perhaps an inch wide, . . . [b]ut if you’re struck
in the liver with an AR-15, it would be like dropping a
watermelon onto the cement. It just is disintegrated.”
(internal quotation marks omitted)).
The defendants proffered evidence that the majority of individuals who have perpetrated mass shootings obtain their semiautomatic assault weapons
legally. See, e.g., Larry Buchanan et al., How They Got
Their Guns, N.Y. Times (updated Feb. 16, 2018),
https://www.nytimes.com/interactive/2015/10/03/us/
how-mass-shooters-got-their-guns.html; Mayors Against
Illegal Guns, Analysis of Recent Mass Shootings
(2013). This evidence lends support to the legislature’s
conclusion that a law proscribing semiautomatic

App. 27
assault weapons and LCMs – like the Act – will help
curtail outbreaks of mass violence.
The plaintiffs do not dispute the extensive evidence regarding the lethality of the proscribed weapons and the frequency of their use in mass shootings.
Instead, they argue that “[e]ven assuming the [Act]
may curb criminal misuse of the Banned Firearms and
Magazines,” the Act fails intermediate scrutiny because it “make[s] no exception for law-abiding, responsible citizens to keep these arms for lawful purposes
like self-defense in the home.” According to the plaintiffs, the forbidden assault weapons and LCMs are
“ideal” for domestic self-defense for many of the same
reasons that such weapons are ideal for mass shootings – they are easier to hold and shoot, require less
user accuracy, and allow a shooter to fire many times
without reloading. Thus, the plaintiffs assert, any regulation prohibiting law-abiding, responsible citizens
from possessing such weapons sweeps too broadly.
This assertion is too facile by half, and we reject it.
Although we acknowledge that “[i]n dealing with a
complex societal problem like gun violence, there will
almost always be room for reasonable minds to differ
about the optimal solution,” Gould, 907 F.3d at 676, the
plaintiffs give unduly short shrift to “the legislature’s
prerogative . . . to weigh the evidence, choose among
conflicting inferences, and make the necessary policy
judgments,” id. The role of a reviewing court is limited
to ensuring “that, in formulating its judgments, [the
legislature] has drawn reasonable inferences based
on substantial evidence,” id. (alteration in original)

App. 28
(quoting Turner Broad. Sys., Inc. v. FCC, 512 U.S. 622,
666 (1994) (opinion of Kennedy, J.)), and that “the fit
between the asserted governmental interests and the
means chosen to advance them is close enough to pass
intermediate scrutiny,” id. at 674.
Here, the Massachusetts legislature’s conclusion
that the Commonwealth’s legitimate interests are best
served by proscribing semiautomatic assault weapons
and LCMs rests on substantial (although not incontrovertible) evidence regarding the inordinate dangers associated with the proscribed weapons. What is more,
it strains credulity to argue that the fit between the
Act and the asserted governmental interest is unreasonable. As we have said, the Act does not outlaw all
semiautomatic firearms and magazines. Nor does it
circumscribe in any way the fundamental right of lawabiding, responsible citizens to possess handguns in
their homes for self-defense. Accordingly, we hold that
although the Act may well “touch[ ] the right to keep
and bear arms,” Miller, 307 U.S. at 182, it does not impermissibly intrude upon that right because it withstands intermediate scrutiny.
III. CONCLUSION
This case concerns an issue of paramount importance. In the wake of increasingly frequent acts of
mass violence committed with semiautomatic assault
weapons and LCMs, the interests of state and local
governments in regulating the possession and use of
such weapons are entitled to great weight. Even so, we

App. 29
recognize that such interests must be balanced against
the time-honored right of individuals to bear arms in
self-defense – a right that is protected in varying degrees by the Second Amendment.
Holding this delicate balance steady and true is
difficult but necessary work. Here, we find that even if
the Act implicates the core of the Second Amendment
right, it (at most) minimally burdens that right. Consequently, we are obliged to cede some degree of deference to the decision of the Massachusetts legislature
about how best to regulate the possession and use of
the proscribed weapons.
In this instance, that decision rests on a web of
compelling governmental interests, and the fit between those interests and the restrictions imposed by
the Act is both close and reasonable. It follows that the
Act withstands intermediate scrutiny – and no more is
exigible to blunt the plaintiffs’ Second Amendment
challenge.
We need go no further. For the reasons elucidated
above, the judgment of the district court is
Affirmed.

App. 30
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
)
)
)
)
)
)
)
)
)
)
)
Maura HEALEY, in her official ) CIVIL ACTION
capacity as Attorney General ) NO. 1:17-10107-WGY
of the Commonwealth of
)
Massachusetts; Daniel Bennett, )
in his official capacity as the )
Secretary of the Executive
)
Office of Public Safety and
)
Security; and Colonel Kerry
)
Gilpin, in her official capacity )
as Superintendent of the
)
Massachusetts State Police,
)
Defendants.
)
DAVID SETH WORMAN,
ANTHONY LINDEN, JASON
WILLIAM SAWYER, PAUL
NELSON CHAMBERLAIN,
GUN OWNERS’ ACTION
LEAGUE, INC., ON TARGET
TRAINING, INC., and
OVERWATCH OUTPOST,
Plaintiffs,
v.

YOUNG D.J.

April 5, 2018

MEMORANDUM AND ORDER
SECOND AMENDMENT, U.S CONSTITUTION
A well regulated Militia, being necessary
to the security of a free State, the right

App. 31
of the people to keep and bear Arms,
shall not be infringed.
I.

THE CONTROLLING LAW

For most of our history, mainstream scholarship
considered the Second Amendment as nothing more
than a guarantee that the several states can maintain
“well regulated” militias. See, e.g., Lawrence H. Tribe,
American Constitutional Law 226 n.6 (1978); Peter
Buck Feller & Karl L. Gotting, The Second Amendment: A Second Look, 61 Nw. U. L. Rev. 46, 62 (1966);
John Levin, The Right to Bear Arms: The Development
of the American Experience, 48 Chi.-Kent L. Rev. 148,
159 (1971).
Then, in 1999, a United States District Judge held
that, in fact, the Second Amendment conferred upon
our citizens an individual right to bear arms. See United
States v. Emerson, 46 F. Supp. 2d 598, 602 (N.D. Tex.
1999) (Cummings, J.), rev’d and remanded on other
grounds, 270 F.3d 203 (5th Cir. 2001). This determination was upheld. See United States v. Emerson, 270
F.3d 203, 264 (5th Cir. 2001).
Eventually, the issue found its way to the Supreme
Court. In District of Columbia v. Heller, 554 U.S. 570
(2008), the Supreme Court struck down a District of
Columbia provision that made it illegal to possess
handguns in the home, holding that the core right
guaranteed by the Second Amendment is “the right of
law-abiding, responsible citizens to use arms in defense of hearth and home.” Id. at 635. Justice Scalia
wrote for the five-member majority and his opinion is

App. 32
a tour de force example of his “original meaning” jurisprudence.1 The Second Amendment, he explained, is
comprised of a prefatory clause, “[a] well regulated
Militia, being necessary to the security of a free State,
. . . ” and an operative clause, “ . . . the right of the people to keep and bear Arms, shall not be infringed.”
Speaking for the Supreme Court, he went on to offer
extensive historical grounding for this interpretation.
Id. at 579-600.
Well aware that he was writing more than two
centuries after the words the Supreme Court was interpreting had been adopted as part of our Constitution, Justice Scalia carefully defined the words “bear”
and “arms,” giving them the meaning those words bore
at the time of the Second Amendment’s adoption. Id. at
581-92.
Speaking for the Supreme Court and focusing on
the word “arms,” he clarified that “the right secured by
the Second Amendment is not unlimited.” Id. at 626. It
is “not a right to keep and carry any weapon whatsoever in any manner whatsoever and for whatever purpose.” Id. For example, it is constitutional to prohibit
“the possession of firearms by felons and the mentally
ill.” Id. “[L]aws forbidding the carrying of firearms in
sensitive places such as schools and government buildings, or laws imposing conditions and qualifications on
1

Indeed, Brandon J. Murrill, the Legislative Attorney for the
Congressional Research Service, cites Heller as the paradigmatic
example of original meaning jurisprudence. See Brandon J. Murrill, Modes of Constitutional Interpretation, Cong. Res. Service 8
(Mar. 15, 2018), https://fas.org/sgp/crs/misc/R45129.pdf.

App. 33
the commercial sale of arms” are also presumptively
proper under the Second Amendment. Id. at 626-27 &
n.26. Another important limitation articulated by the
Supreme Court is that the weapons protected under
the Second Amendment “were those ‘in common use at
the time.’ ” Id. at 627 (quoting United States v. Miller,
307 U.S. 174, 179 (1939)). More specifically, Justice
Scalia explained that “weapons that are most useful
in military service – M-16 rifles and the like” are not
protected under the Second Amendment and “may be
banned.” Id.
Justice Scalia well recognized that interpreting
the Second Amendment such that military style weapons fell beyond its sweep could lead to arguments that
“the Second Amendment right is completely detached
from the prefatory clause.” Id. He explained, however,
that the Supreme Court’s interpretation did not belie
the prefatory clause because the consonance of the two
clauses must be assessed “at the time of the Second
Amendment’s ratification,” when “the conception of
the militia . . . was the body of all citizens capable of
military service, who would bring the sorts of lawful
weapons that they possessed at home to militia duty.”
Id. “Indeed, it may be true that no amount of small
arms could be useful against modern-day bombers and
tanks.” Id. Yet the Supreme Court ruled that “the fact
that modern developments have limited the degree
of fit between the prefatory clause and the protected
right” could not “change [its] interpretation of the
right.” Id. at 627-28.

App. 34
When looking at the prohibition against possession of handguns in the home in Heller, the Supreme
Court ruled it unconstitutional because the ban extended “to the home, where the need for self, family,
and property is most acute.” Id. at 628. The ban also
troubled the Supreme Court because “[t]he handgun
ban amount[ed] to a prohibition of an entire class of
‘arms’ that is overwhelmingly chosen by American society for that lawful purpose.” Id. Accordingly, “[u]nder
any of the standards of scrutiny that [the Supreme
Court has] applied to enumerated constitutional rights,
banning from the home ‘the most preferred firearm in
the nation to “keep” and use for protection of one’s
home and family,’ would fail constitutional muster.” Id.
at 628-29 (quoting Parker v. District of Columbia, 478
F.3d 370, 400 (D.C. Cir. 2007)).
Following Heller, the Supreme Court decided two
other landmark Second Amendment cases. In McDonald v. City of Chicago, 561 U.S. 742 (2010), the Supreme
Court extended the reach of the Second Amendment
and stated that “the Second Amendment right is fully
applicable to the States” via the Due Process Clause of
the Fourteenth Amendment. Id. at 744. In Caetano v.
Massachusetts, 136 S. Ct. 1027 (2016) (per curiam), the
Supreme Court reaffirmed its holding in Heller, reiterating that the Second Amendment “extends . . . to . . .
arms . . . that were not in existence at the time of the
founding” and does not protect only “those weapons
useful in warfare.” Id. at 1028 (quoting Heller, 554 U.S.
at 582, 624).

App. 35
Since Heller, circuit courts have wrestled with the
proper standard of review to apply to Second Amendment claims. Most circuit courts apply a two-part approach. See, e.g., Kolbe v. Hogan, 849 F.3d 114, 138-47
(4th Cir. 2017) (en banc); New York State Rifle and Pistol Ass’n, Inc. v. Cuomo, 804 F.3d 242, 254 (2d Cir.
2015); GeorgiaCarry.org, Inc. v. U.S. Army Corps of
Eng’rs, 788 F.3d 1318, 1322 (11th Cir. 2015); Jackson v.
City and Cty. of San Francisco, 746 F.3d 953, 962-63
(9th Cir. 2014); United States v. Chovan, 735 F.3d 1127,
1136 (9th Cir. 2013); Drake v. Filko, 724 F.3d 426, 429
(3d Cir. 2013); Woollard v. Gallagher, 712 F.3d 865, 87475 (4th Cir. 2013); National Rifle Ass’n of Am., Inc. v.
Bureau of Alcohol, Tobacco, Firearms, & Explosives,
700 F.3d 185, 194 (5th Cir. 2012); United States v.
Greeno, 679 F.3d 510, 518 (6th Cir. 2012); Heller v. District of Columbia, 670 F.3d 1244, 1252 (D.C. Cir. 2011);
Ezell v. City of Chicago, 651 F.3d 684, 701-04 (7th Cir.
2011); United States v. Chester, 628 F.3d 673, 680 (4th
Cir. 2010); United States v. Reese, 627 F.3d 792, 800-01
(10th Cir. 2010); United States v. Marzzarella, 614 F.3d
85, 89 (3d Cir. 2010).
Under the two-part approach, courts first consider
whether the law “imposes a burden on conduct that
falls within the scope” of the Second Amendment. Powell v. Tompkins, 783 F.3d 332, 347 n.9 (1st Cir. 2015);
see Kolbe, 849 F.3d at 133. If the answer is no, the analysis ends. If the answer is yes, the next step is to “determine the appropriate form of judicial scrutiny to
apply (typically, some form of either intermediate scrutiny or strict scrutiny)” to test the constitutionality of

App. 36
the law. Powell, 783 F.3d at 347 n.9. Under strict scrutiny, “the government must prove that the challenged
law is ‘narrowly tailored to achieve a compelling governmental interest.’ ” Kolbe, 849 F.3d at 133 (quoting
Abrams v. Johnson, 521 U.S. 74, 82 (1997)). Under intermediate scrutiny, the government must “show that
the challenged law ‘is reasonably adapted to a substantial governmental interest’ ” Id. (quoting United States
v. Masciandaro, 638 F.3d 458, 471 (4th Cir. 2011)).
II.

THE CASE AT BAR

In 1998, four years after the passage of the federal
statute banning assault weapons, Massachusetts enacted “An Act Relative to Gun Control in the Commonwealth.” 1998 Mass. Acts ch. 180, §§ 1-80 (codified in
Mass. Gen. Laws ch. 140 et seq.) (the “Act”). Among
other restrictions, the Act proscribes the transfer or
possession of assault weapons and large capacity magazines (“LCMs”). Mass. Gen. Laws Ann. ch. 140, § 131M
(2018). Though the Act largely was styled after the federal assault weapons ban and initially echoed the federal ban’s 2004 expiration date, the Massachusetts
Legislature declined to let the Act expire and instead
made it permanent in that year.
On January 23, 2017, a group comprised of Massachusetts firearm owners, prospective firearm owners,
firearm dealers, and a firearm advocacy association
(collectively, the “Plaintiffs”) filed suit against Charles
Baker, the Governor of the Commonwealth of Massachusetts; Maura Healey, the Attorney General of the

App. 37
Commonwealth of Massachusetts (the “Attorney General”); Daniel Bennett, the Secretary of the Executive
Office of Public Safety and Security; Colonel Richard
McKeon, the Superintendent of the Massachusetts
State Police; and the Massachusetts State Police (collectively, the “Defendants”).2
The Plaintiffs filed this action against the Defendants alleging violations of their constitutional rights
and seeking declaratory and injunctive relief. Compl.
Decl. & Inj. Relief (“Compl.”), ECF No. 1. Specifically,
the Plaintiffs claim that the Act infringes their Second
Amendment rights and violates their rights to due process afforded to them through the Fourteenth Amendment. Id. ¶¶ 72-107.
On December 15, 2017, both parties cross-moved
for summary judgment on all counts. Pls.’ Mot. Summ.
J. (“Pls.’ Mot.”), ECF No. 57; Pls.’ Mem. Supp. Mot.
Summ. J. (“Pls.’ Mem.”), ECF No. 58; Pls.’ Statement of
Undisputed Material Facts (“Pls.’ Statement of Facts”),
ECF No. 59; Defs.’ Mot. Summ. J. (“Defs.’ Mot.”), ECF
No. 61; Mem. Supp. Defs.’ Mot. Summ. J. (“Defs.’
Mem.”), ECF No. 62; Defs.’ Statement Material Facts
(“Defs.’ Statement of Facts”), ECF No. 63. The Plaintiffs also moved to strike certain witness declarations
and expert opinions proffered by the Defendants. See
2

The parties have since stipulated to the dismissal of the defendants Charles Baker and the Massachusetts State Police. Stip.
Dismissal, ECF No. 39. Per Rule 25(d) of the Federal Rules of
Civil Procedure, Colonel Kerry Gilpin, who is the current Superintendent of the Massachusetts State Police, has been automatically substituted for Colonel Richard McKeon.

App. 38
Pls.’ Mot. Strike Undisclosed Witness Decls., ECF No.
68; Pls.’ Mot. Strike Ops. Defs.’ Experts, ECF No. 75.
On January 22, 2017, the Court allowed in part the
motion to strike the witness declarations, ruling that
the Defendants cannot rely on them in pressing their
motion for summary judgment, but denied the motion
as to all other purposes. See Elec. Order, ECF No. 85.
The Court denied the motion to strike the challenged
expert opinions “insofar as [they] are proffered in opposition to the Plaintiffs’ motion for summary judgment,”
expressing no opinion on whether the challenged affidavits may be considered in support of the Defendants’
motion for summary judgment. Elec. Order, ECF No.
84.
On February 9, 2018, this Court heard oral argument on the cross-motions for summary judgment and
took the matter under advisement. See ECF No. 89.
Under Rule 56 of the Federal Rules of Civil Procedure, summary judgment is appropriate when “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). For a movant
to prevail, it “bears the initial responsibility” of demonstrating “the absence of a genuine issue of material
fact.” Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).
The burden then “shifts to the nonmoving party, who
must, with respect to each issue on which she would
bear the burden of proof at trial, demonstrate that a
trier of fact could reasonably resolve that issue in her
favor.” Borges ex rel. S.M.B.W. v. Serrano-Isern, 605
F.3d 1, 5 (1st Cir. 2010). “An issue is ‘genuine’ if the

App. 39
evidence of record permits a rational factfinder to resolve it in favor of either party.” Id. at 4.
In evaluating a motion for summary judgment, the
Court must consider “all of the record materials on file,
including the pleadings, depositions, and affidavits,”
but it is not permitted to “evaluate the credibility of
witnesses nor weigh the evidence.” Ahmed v. Johnson,
752 F.3d 490, 495 (1st Cir. 2014). All inferences, however, are to be drawn in favor of the nonmoving party.
See Reeves v. Sanderson Plumbing Prods., Inc., 530
U.S. 133, 150 (2000).
III. THE UNDISPUTED FACTS3
A. The Development of the AR-15 Rifle
In 1957, after the United States Army had adopted
the M14, a select fire full-auto military rifle, it “began
searching for a .22 (centerfire) caliber lightweight select fire rifle” to best meet the needs of the military.
Pls.’ Statement of Facts, Ex. 13 at A-15, ECF No. 59-12.
“Since the mid-1950’s Armalite [a gun manufacturer]
had been developing gas-operated rifles that differed
substantially from traditional wood stock designs in
the use of modern materials and ergonomics.” Id. The
Armalite Rifle (“AR”)-10 was developed in 1956 for a
7.62×51 mm cartridge. Id. A smaller version designed
for the military, with its specifications in mind, was developed and named the AR-15. The AR-15 was a scaled
3

In light of the ultimate disposition, this Court relies only on
legislative materials that are undisputed and the Plaintiffs’ own
recitation of facts. All inferences are drawn in the Plaintiffs’ favor.

App. 40
down version of the AR-10, with a .223 Remington
(5.56×45mm) cartridge. Id. In 1964, the Army adopted
the AR-15 and renamed it the M16. Id. Colt manufactured the M16 and also created a semi-automatic version of the weapon and named it the AR-15. Id.
B. The Federal Ban and the Act
In 1994, Congress enacted the Public Safety and
Recreational Firearms Use Protection Act to decrease
the spread of assault weapons similar to military weapons. Pub. L. No. 103-322, §§ 110101-06, 108 Stat. 1796,
1996-2010 (1994). While in effect from 1994 to 2004,
the federal statute banned the manufacture, transfer
and possession of nineteen models of semiautomatic
weapons, and copies or duplicates of those firearms.
§§ 110102-06, 108 Stat. at 1996-2010. It also banned
any semiautomatic rifle, pistol, or shot gun that had
two or more combat-style features, and rifles and pistols that had the ability to accept a detachable magazine, as well as LCMs that could hold more than ten
rounds of ammunition. Id. The ban exempted assault
weapons that were possessed lawfully on September
13, 1994, the date of its enactment, as well as hundreds
of rifles and shotguns commonly used for hunting and
target practice. Id.
Four years later, Massachusetts enacted the Act,
which tracked the language of the federal ban and
adopted the same definition of “assault weapon.” Mass.
Gen. Laws ch. 140, § 121. The Act makes it a crime to
sell or possess a number of assault weapons, including

App. 41
Colt AR-15s, and copies and duplicates of those weapons. Id. § 131M. It also makes it a crime to sell or possess a fixed or detachable large capacity magazine that
is capable of holding more than ten rounds of ammunition. Id.; see id. § 121. The Act makes an exception
for weapons otherwise lawfully owned on September
13, 1994. Id. § 131M.
On July 20, 2016, the Attorney General issued an
“Enforcement Notice” to the public to “provide a framework to gun sellers and others for understanding the
definition of ‘Assault weapon’ contained in [the Act].”
Pls.’ Statement of Facts, Ex. 25 (“Enforcement Notice”)
at 1. The Enforcement Notice explained that a weapon
is a “copy” or “duplicate” of an Enumerated Weapon if
(i) the weapon’s “internal functional components are
substantially similar in construction and configuration
to those of an Enumerated Weapon,” or (ii) the weapon
“has a receiver that is the same as or interchangeable
with the receiver of an Enumerated Weapon.” Id. at 34.
The Enforcement Notice declared that with respect to individuals, its guidance “will not be applied
to possession, ownership or transfer of an Assault
weapon obtained prior to July 20, 2016.” Id. at 4. Proceeding to address firearms dealers, it stated that its
guidance “will not be applied to future possession, ownership or transfer of Assault weapons by dealers, provided that the dealer has written evidence that the
weapons were transferred to the dealer in the Commonwealth prior to July 20, 2016, and provided further
that a transfer made after July 20, 2016, if any, is made

App. 42
to persons or businesses in states where such weapons
are legal.” Id.
IV. APPLYING THE LAW TO THE FACTS
This Court begins with a description of the Plaintiffs’ claims, which provides helpful context for its analysis. The Plaintiffs make three challenges to the Act.
In Count One, they bring a Second Amendment challenge to the Act. Arguing that the Act “prohibits an
entire class of firearms . . . commonly kept by lawabiding, responsible citizens for lawful purposes,”
Compl. ¶ 74, the Plaintiffs allege that this prohibition
“extend[s] into the home[ ],” where Second Amendment
protections are “at their zenith,” id. ¶ 76, and that the
Act thus unconstitutionally infringes on their Second
Amendment right to bear arms, id. ¶ 77.
Count Two alleges that the Notice of Enforcement
unforeseeably and “retroactively criminalizes the
transfers of tens of thousands of Massachusetts Compliant Firearms,” id. ¶ 4, “retroactively expos[ing] . . .
Plaintiffs[ ] to criminal penalty” and violating their
right to due process, id. ¶ 70. The Plaintiffs acknowledge the Enforcement Notice’s limitation on retroactive application to individuals, but they maintain that
it “provides no exception to its application to dealers
for transfers made before July 20, 2016.” Id. ¶ 64. Consequently, they assert, the Enforcement Notice’s novel
interpretation of the Act constitutes an unconstitutional retroactive enlargement of the Act’s scope, similar to “an Ex Post Facto law passed by a legislature or

App. 43
a retroactive decision issued by a state supreme court.”
Id. ¶ 96.
Lastly, in Count Three, the Plaintiffs challenge the
Act as unconstitutionally vague, thereby violating
their right to due process of law. Specifically, they allege that the phrase “copies or duplicates” is nowhere
defined in the Act or in any Massachusetts law, and the
Enforcement Notice’s “unprecedented” definition of
that phrase provides insufficient guidance as to what
constitutes a “copy or duplicate.” Id. ¶¶ 99-104. The
term’s resulting vagueness, the Plaintiffs allege, “chills
exercise of Second Amendment rights” and fails to
warn ordinary citizens of the conduct the Act prohibits.
Id. ¶¶ 106-07.
A. Ripeness
Though the Defendants have not raised the issue
of ripeness, this Court sees fit to do so. Ripeness “may
be considered on a court’s own motion.” National Park
Hosp. Ass’n v. Department of Interior, 538 U.S. 803, 808
(2003). Because ripeness implicates “the question of
whether this court has jurisdiction to hear the case,”
Roman Catholic Bishop of Springfield v. City of Springfield, 724 F.3d 78, 89 (1st Cir. 2013), the Court addresses it first.
1. Legal Standard
“[T]he doctrine of ripeness has roots in both the
Article III case or controversy requirement and in

App. 44
prudential considerations.” Id. (quoting Mangual v.
Rotger-Sabat, 317 F.3d 45, 59 (1st Cir. 2003)). It “seeks
to prevent the adjudication of claims relating to ‘contingent future events that may not occur as anticipated, or indeed may not occur at all.’ ” Reddy v. Foster,
845 F.3d 493, 500 (1st Cir. 2017) (quoting Texas v.
United States, 523 U.S. 296, 300 (1998)). “The requirement of ripeness is ‘particularly relevant in the context
of actions for preenforcement review of statutes,’ because it ‘focuses on the timing of the action.’ ” Gun
Owners’ Action League, Inc. v. Swift, 284 F.3d 198, 205
(1st Cir. 2002) (quoting Navegar, Inc. v. United States,
103 F.3d 994, 998 (D.C. Cir. 1997)). In determining
whether an issue is ripe, the Court ought consider
“both the fitness of the issue[ ] for judicial decision and
the hardship to the parties of withholding court consideration.” Abbott Labs. v. Gardner, 387 U.S. 136, 149
(1967), abrogated on other grounds by Califano v.
Sanders, 430 U.S. 99 (1977). Typically, “both factors
must be present.” Doe v. Bush, 323 F.3d 133, 138 (1st
Cir. 2003).
The fitness determination “typically involves subsidiary queries concerning finality, definiteness, and
the extent to which resolution of the challenge depends
upon facts that may not yet be sufficiently developed.”
Gun Owners’ Action League, 284 F.3d at 206 (quoting
Rhode Island Ass’n of Realtors, Inc., v. Whitehouse, 199
F.3d 26, 33 (1st Cir. 1999)). “The critical question concerning fitness for review is whether the claim involves
uncertain and contingent events that may not occur as
anticipated or may not occur at all.” McInnis-Misenor

App. 45
v. Maine Med. Ctr., 319 F.3d 63, 70 (1st Cir. 2003) (quoting Ernst & Young v. Depositors Econ. Prot. Corp., 45
F.3d 530, 536 (1st Cir. 1995)). Cases that are “largely
hypothetical . . . are seldom fit for federal judicial review.” Ernst & Young, 45 F.3d at 538.
The hardship inquiry asks “whether the challenged action creates a direct and immediate dilemma
for the parties.” Gun Owners’ Action League, 284 F.3d
at 206 (quoting Rhode Island Ass’n of Realtors, 199
F.3d at 33). To demonstrate that this hardship exists, a
party must show that it is put “between a rock and a
hard place” without pre-enforcement review, forced either to “forego possibly lawful activity because of her
well-founded fear of prosecution” or intentionally to
commit a violation, “thereby subjecting herself to criminal prosecution and punishment.” Navegar, 103 F.3d
at 998 (citing Babbitt v. United Farm Workers Nat.
Union, 442 U.S. 289, 298-99 (1979)). “The greater the
hardship, the more likely a court will be to find ripeness.” McInnis-Misenor, 319 F.3d at 70.
2. Analysis
Whereas Counts One and Three challenge the
constitutionality of the Act itself, Compl. ¶¶ 72-77,
97-107, Count Two alleges that the Enforcement
Notice is unconstitutional, Compl. ¶ 96. It further alleges that the Plaintiffs’ due process rights are violated
from retroactive application of the Enforcement
Notice, rather than through the possibility of prospective enforcement (Counts One and Three). These two

App. 46
distinctions underpin the conclusion that unlike Counts
One and Three, Count Two is not ripe for adjudication.
Several factors weigh against the fitness of Count
Two for judicial resolution. To start, the Enforcement
Notice lacks the binding effect and force of law and
does not constitute a “final” agency action. The First
Circuit has explained that “[a]n agency action . . . is not
‘final’ or ripe for review if it makes no change in the
status quo itself, but rather requires ‘further administrative action other than the possible imposition of
sanctions,’ before rights, obligations or duties arise.”
Roosevelt Campobello Int’l Park Comm’n v. EPA, 684
F.2d 1034, 1040 (1st Cir. 1982) (quoting Northeast Airlines, Inc. v. C.A.B., 345 F.2d 662, 664 (1st Cir. 1965)).
An action that “merely explains how the agency will
enforce a statute or regulation” is not generally subject
to pre-enforcement judicial review, National Min. Ass’n
v. McCarthy, 758 F.3d 243, 252 (D.C. Cir. 2014); the
agency must have “rendered its last word on the matter,” Omnipoint Holdings, Inc. v. City of Cranston, 586
F.3d 38, 46 (1st Cir. 2009) (quoting Harrison v. PPG
Indus., Inc., 446 U.S. 578, 586 (1980)).
Here, the agency action is, as the Defendants describe, “a prosecutor’s advisory to the public of her
interpretation of a criminal law committed to her enforcement.”4 Defs.’ Mem. 14. The mere existence of the
4

That the agency in question here is a prosecuting authority
weighs against fitness more so than it might in the context of most
other administrative agencies, because “the decision to prosecute
is particularly ill-suited to judicial review.” Wayte v. United States,
470 U.S. 598, 607 (1985). Rather than issue the Enforcement

App. 47
Enforcement Notice, which was not directed at any
particular individual or entity and contemplates that
it may be “alter[ed] or amend[ed],” Enforcement Notice
at 4, does not bring about a change in rights or obligations. Rather, it is the decision to initiate enforcement
actions under this guidance that would constitute the
Attorney General’s “last word on the matter” and give
rise to any real effect on the Plaintiffs’ rights and obligations.5 See Roosevelt Campobello Int’l Park Comm’n,
684 F.2d at 1039-40 (holding that agency actions were
not “sufficiently ‘final’ to call for judicial review” where
they did not confer rights until another agency action,
which had been proposed but not executed, took place);
Kemler v. Poston, 108 F. Supp. 2d 529, 542 (E.D. Va.
Notice, the Attorney General could have decided simply to initiate
a prosecution under her interpretation of the Act. Absent a showing of discriminatory or arbitrary enforcement, that exercise of
prosecutorial discretion would be “shielded from intense judicial
review” in both federal and Massachusetts courts. United States
v. Bernal-Rojas, 933 F.2d 97, 99 (1st Cir. 1991); see Commonwealth v. Latimore, 423 Mass. 129, 136 (1996). Thus, reviewing a
manifestation of that discretion here might well upset the traditional principle that “[i]n our criminal justice system, the Government retains ‘broad discretion’ as to whom to prosecute.” Wayte,
470 U.S. at 607 (quoting United States v. Goodwin, 457 U.S. 368,
380 n.11 (1982)); see Commonwealth v. Taylor, 428 Mass. 623,
629 (1999) (“[O]ur decisions uniformly uphold a prosecutor’s wide
discretion in deciding whether to prosecute a particular defendant.”).
5
This Court notes, however, that another Judge of this Court,
addressing a similar challenge, has recently disagreed, ruling
that the Enforcement Notice itself has the effect of a regulation
and is reviewable. See Pullman Arms Inc. v. Healey, No. 16-CV40136-TSH, 2018 WL 1319001, at *2 (D. Mass. Mar. 14, 2018)
(Hillman, J.).

App. 48
2000) (concluding that challenge to state ethics committee’s advisory opinion was not fit for review where
the opinion could have “[n]o concrete effect” until enforced by the appropriate state commission or court);
cf. Northeast Airlines, 345 F.2d at 664 (explaining that
judicial review is appropriate where agency “determination is not a mere advisory or interpretive opinion”),
To conclude otherwise would be to exalt form over substance and discourage a desirable practice: If any comment on a law’s interpretation by the Attorney General
could be considered to have binding effect just because
citizens may accord it considerable weight, the Attorney General would forever remain silent, providing citizens with less notice and creating a higher risk that
their rights to due process may someday be violated.
Further, the actual threat of an enforcement action to activate those rights is minimal. In contrast
to Counts One and Three, which anticipate the possibility of enforcement for prospective transactions,
Count Two’s alleged deprivation of due process rests on
the notion that the Enforcement Notice “retroactively
criminalizes” prior conduct. Compl. ¶ 4. Yet the Attorney General declared in the Enforcement Notice itself
that her interpretation of the Act would not be enforced retroactively against individuals. Enforcement
Notice at 4. While her language concerning dealers is
arguably more ambiguous, it implies that the same
principle applies to dealers, and the Attorney General’s
office has since confirmed that it does. See Defs.’ Mem.
14; Dec. Supp. Defs.’ Mot. Summ. J., Ex. 1 at 162:5-10,
163:17-23, ECF No. 65-1. Thus, the Plaintiffs’ claim of

App. 49
lack of due process due to retroactive enforcement
of the Enforcement Notice is “largely hypothetical,”
weighing against a determination that the issue is fit
for review.6 Ernst & Young, 45 F.3d at 538; see McInnisMisenor, 319 F.3d at 72 (“[T]hat the future event may
never come to pass augurs against a finding of fitness.”).
Even if the Attorney General were to decide to enforce the Act under the Enforcement Notice’s interpretation with respect to transactions occurring prior to
July 20, 2016, she may exercise her discretion to revise
her understanding as laid out in the Enforcement Notice, or to bring prosecutions under a different theory
of liability. Review at this point thus may deprive her
“of the opportunity to refine, revise or clarify the particular rule or other matter at issue” or “of the opportunity to resolve the underlying controversy on other
grounds.” Roosevelt Campobello Int’l Park Comm’n,
684 F.2d at 1040. Alternatively, a court may choose not
6

The Plaintiffs allege that in addition to the threat of state
prosecution, because federal law criminalizes the sale of firearms
in any state prohibiting the purchase or possession of such a firearm, the Enforcement Notice also causes them to face a credible
threat of federal prosecution for these previous transactions.
Compl. ¶ 92. While there has been no similar disavowal by federal
prosecutors, the Plaintiffs have not pointed to the initiation of any
such prosecutions and have failed to demonstrate beyond a hypothetical possibility that federal prosecutors will now bind themselves to the Enforcement Notice’s guidance, yet reject its limits
on retroactive enforcement. Further, as explained infra, this
threat – like the threat of state prosecution – does not create a
sufficiently “direct and immediate dilemma” to demonstrate hardship. Gun Owners’ Action League, 284 F.3d at 206 (quoting Rhode
Island Ass’n of Realtors, 199 F.3d at 33).

App. 50
to give effect to the Enforcement Notice’s interpretation. See Matamoros v. Starbucks Corp., 699 F.3d 129,
135 (1st Cir. 2012) (explaining that while the Massachusetts Attorney General’s interpretation of a law
that she is charged with enforcing is “entitled to ‘substantial deference’ ” by a court interpreting that law, it
also must be “reasonable” (quoting DiFiore v. American
Airlines, Inc., 454 Mass. 486, 910 N.E.2d 889, 897 n.11
(2009))). Consequently, allowing adjudication of Count
Two at this time would “be setting in motion a constitutional adjudication that not only could have a thunderous impact on important state interests but that
might well prove to be completely unnecessary.” Ernst
& Young, 45 F.3d at 538.
Nor have the Plaintiffs demonstrated sufficient
hardship7 with respect to Count Two. Courts have consistently pointed to the government’s express intent to
prosecute or express disavowal of that intent as a major factor in the determination of whether a credible
threat of prosecution exists. See Poe v. Ullman, 367 U.S.
497, 507 (1961) (plurality opinion) (“If the prosecutor
expressly agrees not to prosecute, a suit against him
for declaratory and injunctive relief is not such an adversary case as will be reviewed here.”); SOB, Inc. v.
County of Benton, 317 F.3d 856, 865-66, (8th Cir. 2003)
(determining fear of prosecution to be unrealistic where
alleged fear was based on unreasonable interpretation
of ordinance and county attorney had publicly declared
7

Even where a fitness showing is minimal, the Court considers whether the hardship is so great so as to compensate for lack
of fitness. See McInnis-Misenor, 319 F.3d at 73.

App. 51
that ordinance did not prohibit activity in question); cf.
Babbitt, 442 U.S. at 302 (concluding that reasonable
fear of prosecution was shown where statute’s criminal
prohibition was clear and the state had not “disavowed
any intention” of invoking it against the plaintiffs);
Presbytery of N.J. of Orthodox Presbyterian Church v.
Florio, 40 F.3d 1454, 1468 (3d Cir. 1994) (observing
that state’s pointed refusal to forswear future prosecution “indicates . . . a real threat of prosecution”). As discussed supra, the Attorney General expressly disavowed
her intention to enforce the Enforcement Notice’s interpretation as to transactions that took place before the Enforcement Notice was issued.8 That fact,

8

By contrast, the Attorney General has not made any such
promise with respect to prospective transactions prohibited by
the statute. With respect to Counts One and Three, then, the
Plaintiffs face the immediate dilemma of buying a prohibited firearm and risking prosecution, or forgoing such a transaction, resulting in a potential deprivation of rights. See, e.g., New York
State Rifle & Pistol Ass’n, Inc. v. Cuomo, 990 F. Supp. 2d 349,
358-59 (W.D.N.Y. 2013) (holding credible threat to exist where
plaintiffs testified that but for the statute, they would acquire
weapons rendered illegal by the statute), rev’d in part on other
grounds, 804 F.3d 242; Ezell v. City of Chicago, 651 F.3d 684, 695
(7th Cir. 2011) (“The very ‘existence of a statute implies a threat
to prosecute, so pre-enforcement challenges are proper. . . .’ ”
quoting Bauer v. Shepard, 620 F.3d 704, 708 (7th Cir. 2010)); Peoples Rights Org., Inc. v. City of Columbus, 152 F.3d 522, 529 (6th
Cir. 1998) (explaining that case is ripe where plaintiffs “face a
clear Hobson’s choice” between risking prosecution or depriving
themselves of use of weapons, and the government “clearly
state[d]” its intent to prosecute); cf. Gun Owners’ Action League,
284 F.3d at 207 (concluding that there was no hardship where the
statute’s licensing scheme “provide[d] a process for resolving uncertainty about the scope of the regulation,” but observing that

App. 52
together with the Plaintiffs’ failure to provide this
Court with any other reason to believe that they face
imminent prosecution for these past transactions, weighs
heavily against concluding that there is a credible
threat of prosecution. See Fortuna Enterprises, L.P. v.
City of Los Angeles, 673 F. Supp. 2d 1000, 1015 (CD.
Cal. 2008) (dismissing as not ripe claim seeking declaration that ordinance cannot be applied retroactively,
where there was “no reason to believe that the Ordinance will be applied retroactively”).
Further, the Plaintiffs do not face the same kind of
dilemma with respect to this retroactivity claim as
they do with respect to their other claims, because they
cannot retroactively forgo lawful activity. Whereas the
threat of prosecution for future transactions may pressure them not to engage in those future transactions,
the threat of prosecution for past transactions has no
reasonable bearing on their future activity. The Plaintiffs thus suffer from no coercive effect of the remote
threat of prosecution for these past transactions. See
Lake Carriers’ Ass’n v. MacMullan, 406 U.S. 498, 507
(1972) (noting the Poe plurality’s observation that “a
justiciable controversy does not exist where ‘compliance with (challenged) statutes is uncoerced by the
risk of their enforcement’ ” (quoting Poe, 367 U.S. at
508)); Marine Equip. Mgmt. Co. v. United States, 4 F.3d
643, 647 (8th Cir. 1993) (“To present an actual controversy . . . the threat of enforcement must have some
sort of immediate coercive consequences.”). The Plaintiffs
the argument for hardship “might have some force if the Act
banned [the weapons] outright instead of licensing them”).

App. 53
may fear prosecution for these past transactions, but
given that this fear is unreasonable and does not produce a coercive effect, there is little “hardship to the
parties of withholding court consideration,” Abbott
Labs., 387 U.S. at 149.
Because the potential deprivation of due process
asserted in Count Two depends entirely on “uncertain
and contingent events that may not occur as anticipated, or indeed may not occur at all,” W.R. Grace & Co.
v. Environmental Protection Agency, 959 F.2d 360, 364
(1st Cir. 1992) (quoting Lincoln House, Inc. v. Dupre,
903 F.2d 845, 847 (1st Cir. 1990)), and the Plaintiffs do
not face a “direct and immediate dilemma” with respect to Count Two, Count Two is not ripe for adjudication. The Court therefore DISMISSES that claim for
lack of subject matter jurisdiction.
B. The Scope of the Second Amendment
In Count One, the Plaintiffs allege that the Act infringes their Second Amendment rights. They claim
that this Court ought grant summary judgment in
their favor because the assault weapons and LCMs
banned by the Act are within the scope of the Second
Amendment right to bear arms. This Court disagrees.
Assault weapons and LCMs – the types banned by the
Act – are not within the scope of the personal right to
“bear Arms” under the Second Amendment.
The Act in this case makes it a crime to possess
assault weapons or LCMs after September 13, 1994.

App. 54
Mass. Gen. Laws ch. 140, § 131M. Assault weapons include:
(i) Avtomat Kalashnikov (AK) (all models);
(ii) Action Arms Israeli Military Industries
UZI and Galil; (iii) Beretta Ar70 (SC-70);
(iv) Colt AR-15; (v) Fabrique National FN/FAL,
FN/LAR and FNC; (vi) SWD M-10, M-ll, M11/9 and M-12; (vi) Steyr AUG; (vii) INTRATEC
TEC-9, TEC-DC9 and TEC-22; and (viii) revolving cylinder shotguns, such as, or similar
to, the Street Sweeper and Striker 12.
Id. § 121.
As noted supra, the Supreme Court explained in
Caetano that “Heller rejected the proposition ‘that only
those weapons useful in warfare are protected.’ ” Caetano, 136 S. Ct. at 1028 (quoting Heller, 554 U.S. at
624). Heller did not make such a rejection, however, in
order to conclude that all weapons useful in warfare
are protected. On the contrary, Heller rejected that
premise because it would lead to the “startling” conclusion that “the National Firearms Act’s restrictions on
machineguns . . . might be unconstitutional, machine
guns being useful in warfare in 1939.” Heller, 554 U.S.
at 624. Thus, as Heller concluded, it cannot be that
“only those weapons useful in warfare are protected,”
because some of those weapons are not protected. Id.
Weapons that are most useful in military service, as
Justice Scalia later observed, fall outside the scope of
the Second Amendment and may be banned. Id. at 627.

App. 55
Consequently, “Heller . . . presents us with a dispositive and relatively easy inquiry: Are the banned
assault weapons and large-capacity magazines ‘like’
‘M-16 rifles,’ i.e., ‘weapons that are most useful in military service,’ and thus outside the ambit of the Second
Amendment?” Kolbe, 849 F.3d at 136 (quoting Heller,
554 U.S. at 627). The undisputed facts in this record
convincingly demonstrate that the AR-15 and LCMs
banned by the Act are “weapons that are most useful
in military service.”9 As matter of law, these weapons
and LCMs thus fall outside the scope of the Second
Amendment and may be banned.
The Plaintiffs argue that the AR-15 is the civilian
version of the M16 because it cannot fire in fully automatic mode like the M16 and therefore cannot be considered a military weapon. As the Plaintiffs also point
out in their undisputed facts, however, “[i]mprovements in firearms technology tend to be adopted for
both military and civilian use” and so “[f ]irearms designers and manufacturers have historically marketed
new developments for both military and civilian uses.”
Pls.’ Statement of Facts Ex. 13, ¶ 9. As a result, the AR15 design is versatile and adaptable “for military, law
enforcement, civilian self-defense, hunting, target
shooting, and other sporting purposes.” Pls.’ Statement
of Facts, Ex. 11 at A-9 (emphasis added); see Ex. 13 at

9

While the Act defines an array of weapons banned by the
Act, both parties focus their analysis on the AR-15 and whether a
ban of it is unconstitutional. This Court will do the same.

App. 56
A-18. The AR-15 design is almost identical to the M16,
except for the mode of firing.
By 1956, Armalite had designed the AR-10, a lightweight select fire rifle for the United States Army. Ex.
13 at A-15. “In response to the military specifications,
a similar scaled down AR-15 select fire rifle for the .223
Remington (5.56×45mm) cartridge was developed.” Id.
The Air Force adopted the AR-15 in 1962. Id. The Army
followed soon after in 1964, renaming it the M16. Id.
Colt, the manufacturer of the Army’s M16, reused the
name “AR-15” for its semiautomatic version of the rifle.
Id. The AR-15 became well known among civilians following the Vietnam War when veterans brought the
“AR pattern rifles” home with them for civilian use. Id.
at A-16. “Soldiers who become familiar with a particular type of handgun or rifle in the service tend to seek
out similar type[s of ] firearms for personal use after
leaving the military.” Id.
AR-15s are “weapons that are based on designs of
weapons that were first manufactured for military purposes” and “ha[ve] most of the features[,] other than
[the automatic mode], of the military weapon.” Pls.’
Statement of Facts, Ex. 17 at 153:20-154:4. Some characteristics of a military weapon include: (1) the “ability
to accept a large detachable magazine,” (2) “folding/
telescoping stocks,” advantageous for military purposes, (3) pistol grips designed to allow the shooter to
fire and hold the weapon, or “aid in one-handed firing

App. 57
of the weapon in a combat situation,”10 (4) flash suppressors, (5) bipods, (6) grenade launchers, (7) night
sights, (8) the ability for selective fire, and (9) the ability to accept a centerfire cartridge case of 2.25 inches
or less. Pls.’ Statement of Facts, Ex. 28 at 6-8. Like
the M16, the AR-15 is “available with a telescoping/
adjustable stock,” a “vertical pistol grip” that allows
for the weapon to be “fired with one hand,” and “utilize[s] magazines with a standard capacity of 20 or 30
rounds.” Pls.’ Statement of Facts ¶ 42. The AR-15 is
also lightweight, a characteristic important for the military. See Pls.’ Statement of Facts Ex. 12, at A-10; Ex.
8, ¶¶ 7-8. Other similarities between the M16 and the
AR-15 include “the ammunition,” “[t]he way in which it
is fired and the availability of sighting mechanisms, . . .
[t]he penetrating capacity, . . . [and] [t]he velocity of the
ammunition as it leaves the weapon.” Pls.’ Statement
of Facts, Ex. 17 at 154:17-23.
The design of the AR-15 is common and well
known in the military. “[O]ver 25 million American veterans . . . have been taught how to properly use an AR15 type rifle through their military training.” Pls.’
Statement of Facts, Ex. 11 at ¶ 8. The AR-15 offers
“similar ergonomics and operating controls” as the
M16s used in military service. Pls.’ Statement of Facts,
Ex. 11 at A-9.
10

“[T]he vast majority of sporting firearms employ a more
traditional pistol grip built into the wrist of the stock of the firearm since one-handed shooting is not usually employed in hunting or competitive target competitions.” Pls.’ Statement of Facts,
Ex. 28 at 6.

App. 58
LCMs are also “indicative of military firearms”
and fall outside the scope of the Second Amendment.
Pls.’ Statement of Facts, Ex. 28 at 6. “That a firearm is
designed and sold with a large capacity magazine, e.g.,
20 or 30 rounds, is a factor to be considered in determining whether a firearm is a semiautomatic assault
rifle.” Id.
“Simply put, AR-15-type rifles are ‘like’ M16 rifles,” and fall outside the scope of the Second Amendment. Kolbe, 849 F.3d at 136. The features of a military
style rifle are “designed and intended to be particularly
suitable for combat rather than sporting applications.”
Pls.’ Statement of Facts, Ex. 28 at 12. The AR-15 and
the M16 were designed and manufactured simultaneously for the military and share very similar features
and functions. Therefore, because the undisputed facts
convincingly demonstrate that AR-15s and LCMs are
most useful in military service, they are beyond the
scope of the Second Amendment. But see New York
State Rifle & Pistol Ass’n, Inc. v. Cuomo, 804 F.3d 242,
257 (2nd Cir. 2015) (proceeding “on the assumption”
that laws banning the AR-15 are subject to scrutiny
under the Second Amendment); Friedman v. City of
Highland Park, 784 F.3d 406, 416 (7th Cir. 2015) (concluding that because AR-15s are “commonly used and
are not unusual . . . they are covered by the Second
Amendment”); Fyock v. Sunnyvale, 779 F.3d 991, 998
(9th Cir. 2015) (holding that “a regulation restricting
possession of certain types of magazines burdens conduct falling within the scope of the Second Amendment”). The Defendants are entitled to summary

App. 59
judgment on Count One – the Act is constitutional on
Second Amendment grounds.
But wait, argue the Plaintiffs, the AR-15 is an extraordinarily popular firearm. Indeed, the data they
proffer as to its popularity appears unchallenged by
the Defendants. Pls.’ Mem. at 6-7, 10; Pls.’ Statement
of Facts ¶¶ 30-32, 35-37; Defs.’ Statement of Facts
¶ 61; see Ali Watkins, John Ismay, & Thomas GibbonsNeffmarch, Once Banned, Now Loved and Loathed:
How the AR-15 Became ‘America’s Rifle’, N.Y. Times
(Mar. 3, 2018), https://nyti.ms/2CWFS9m. They thus
argue that the Act must fall as unconstitutional as it
“amounts to a prohibition of an entire class of ‘arms’
that is overwhelmingly chosen by American society for
[a] lawful purpose.” Heller, 554 U.S. at 628.
Yet the AR-15’s present day popularity is not constitutionally material. See Kolbe, 849 F.3d at 141-42.
But see Friedman, 784 F.3d at 416. This is because the
words of our Constitution are not mutable. They mean
the same today as they did 227 years ago when the
Second Amendment was adopted. The test is not the
AR-15’s present day popularity but whether it is a
weapon “most useful in military service.” Heller, 554
U.S. at 627. Indeed as Justice Scalia was most fond of
reminding his audiences:
Our attitude today is that if something
ought to be so, why then the Constitution, that
embodiment of all that is good and true and
beautiful, requires it. And we fight out these
battles about what ought to be . . . not in the
democratic forum but in the law courts. The

App. 60
major issues that shape our society are to be
decided for the whole nation by a committee
of nine lawyers. . . . There is a certain irony in
the fact that the society which takes all these
issues out of the democratic process, and require them to be decided as constitutional absolutes, prides itself upon (of all things) its
toleration. It is willing to tolerate anything,
apparently, except disagreement and divergence and hence the need for continuing democratic debate and democratic decision-making,
on an ever-increasing list of social issues.
Antonin Scalia, Interpreting the Constitution, in Scalia
Speaks: Reflections on Law, Faith, and Life Well Lived
188, 199 (Christopher J. Scalia & Edward Whelan eds.,
2017).
I urge you not to embrace the living Constitution – for a number of reasons. The most
important one is that only the traditional view
that the meaning of the Constitution does not
change places any real constraints upon the
decisions of future members of Congress or future judges. Since I accept that view, I am
hand-cuffed. Show me what the original understanding was, and you got me. . . . There is
no other criterion that is not infinitely manipulable. Unless you conduct a national opinion
poll, the “evolving standards of decency . . . of
a maturing society” tend to be whatever you
(or I) care passionately about. . . . To leave
that visceral call to the unelected Supreme
Court is to frustrate democratic self-government;
and to leave it to the current Congress is to
make the Constitution superfluous. We do not

App. 61
need a Constitution to change according to the
desires of current society; all we need is a legislature and a ballot box. The whole function
of a Constitution is to prevent future majorities from doing certain things, and if you turn
over the identification of those things to the
future majorities themselves, you have accomplished nothing.
Antonin Scalia, Congressional Power, in Scalia Speaks,
supra, 213, 221-22.
C. Vagueness
The Plaintiffs next challenge the phrase “copies
or duplicates” within the Act’s definition of “assault
weapon” as rendering the Act unconstitutionally vague,
violating their right to fair notice and denying them
due process of law. Compl. ¶¶ 97-107. The Court first
considers the propriety of such a claim.
“[F]acial challenges are typically disfavored because they ‘often rest on speculation,’ which lead to the
risk of premature interpretation of statutes and regulations.” Draper v. Healey, 98 F. Supp. 3d 77, 82 (D.
Mass. 2015) (Gorton, J.) (quoting Washington State
Grange v. Washington State Republican Party, 552 U.S.
442, 450 (2008)). Even more unfortunate for the Plaintiffs here, however, are the Supreme Court’s suggestions that facial vagueness challenges to statutes not
implicating First Amendment rights are never appropriate. See Maynard v. Cartwright, 486 U.S. 356, 361
(1988) (“Vagueness challenges to statutes not threatening First Amendment interests are examined in

App. 62
light of the facts of the case at hand; the statute is
judged on an as-applied basis.”); United States v. Mazurie, 419 U.S. 544, 550 (1975) (observing that vagueness challenges that “do not involve First Amendment
freedoms must be examined in the light of the facts of
the case at hand”).
The First Circuit has similarly recognized that
even “where an enactment is alleged to be ‘impermissibly vague in all of its applications,’ . . . it is clear that
such an allegation must first be considered in light of
the facts of the case – i.e., on an as-applied basis.” Love
v. Butler, 952 F.2d 10, 13 (1st Cir. 1991) (quoting Village
of Hoffman Estates v. The Flipside, Hoffman Estates,
Inc., 455 U.S. 489, 495 (1982)); Draper v. Healey, 827
F.3d 1, 3 (1st Cir. 2016) (“We now turn to the dealers’
claim that the load indicator requirement is vague in
violation of due process, a constitutional claim eligible
only for as-applied, not facial, review.”). In Love, the
First Circuit noted that “a facial challenge was inappropriate” where the petitioner, who was convicted under the challenged statute, conceded that the statute
was not vague as applied to him but “instead insist[ed]
only that it is facially vague.” Love, 952 F.2d at 13.
At the same time, it appears that the First Circuit
has tended not to dismiss these challenges out of hand,
instead opting to base its ruling on an as-applied analysis. See, e.g., id. (noting that facial challenge was “inappropriate” yet needed not be addressed because the
statute was not unconstitutionally vague as applied);
Draper, 827 F.3d at 3 (addressing only the plaintiffs’
as-applied challenge). In both of these cases, however,

App. 63
there was reason to conduct an as-applied analysis: in
Love, the petitioner had been convicted under the statute, and in Draper, the plaintiffs challenged the regulation on both a facial and as-applied basis. Here, the
Plaintiffs do not claim that the Act is unconstitutionally vague as applied, and because this is a preenforcement challenge, such a claim would indeed be
inappropriate.11
Two courts faced with circumstances more similar
to these, where the plaintiffs have not made any asapplied challenge, have, however, addressed a facial
vagueness challenge on the merits. In Kolbe v. Hogan,
the en banc Fourth Circuit addressed a challenge to
Maryland’s assault weapons ban on the basis of unconstitutional vagueness (among other grounds). Kolbe,
849 F.3d at 148. The plaintiffs in that case brought only
a facial challenge to the statute, and the district court
had noted that whether such a challenge was available
was unclear. See Kolbe v. O’Malley, 42 F. Supp. 3d 768,
799 n.40 (D. Md. 2014) (Blake, J.), aff ’d en banc sub
nom. Kolbe v. Hogan, 849 F.3d 114 (4th Cir. 2017). The
district court concluded that it need not decide whether
such a challenge was appropriate because in any event
the statute was not unconstitutionally vague, and both
the Fourth Circuit panel and the Fourth Circuit en
banc seemed to endorse that approach, analyzing the
claim on the merits and affirming the district court’s
11

Though Draper was also a pre-enforcement action, the
plaintiffs in that case had received letters from the Attorney General responding to their specific inquiries regarding violations of
the regulation at issue. Draper, 98 F. Supp. 3d at 79-80.

App. 64
holding that the statute in question was not unconstitutionally vague.12 See id. at 148-149.
The Second Circuit also allowed a facial challenge
to laws banning assault weapons in New York State
Rifle & Pistol Ass’n, Inc. v. Cuomo. It noted that “[b]ecause plaintiffs pursue this ‘pre-enforcement’ appeal
before they have been charged with any violation of
law, it constitutes a ‘facial,’ rather than ‘as-applied,’
challenge,” but it nevertheless went on to address the
challenge on the merits, ultimately concluding that the
laws were not unconstitutionally vague. New York
State Rifle & Pistol Ass’n, 804 F.3d at 265.
Though neither precedent is binding on this Court,
the approach taken by Judge Blake in the District of
Maryland commends itself to this Court. Accordingly,
the Court declines to determine whether this facial
vagueness claim is allowable because, even if it is, the
claim fails on its merits.
“The prohibition of vagueness in criminal statutes
‘is a well-recognized requirement . . . ’ and a statute
that flouts it ‘violates the first essential of due process.’ ” Johnson v. United States, 135 S. Ct. 2551, 255657 (2015) (quoting Connally v. General Constr. Co., 269
12

The Fourth Circuit panel did note, however, that the statute had not been enforced against the plaintiffs, and that the
plaintiffs had not claimed that they were “forced to forego their
Second Amendment rights because they were uncertain whether
weapons they wished to acquire were prohibited.” Kolbe v. Hogan,
813 F.3d 160, 190 (4th Cir. 2016). Despite this implication that
the challenge may not have been proper, the panel continued on
to the merits of the vagueness inquiry.

App. 65
U.S. 385, 391 (1926)). For a long time, it appeared to be
settled that to succeed in a facial challenge to a statute,
“the challenger must establish that no set of circumstances exists under which the Act would be valid.”
United States v. Salerno, 481 U.S. 739, 745 (1987). Recently, however, in Johnson, the Supreme Court clarified that a vague law is not constitutional “merely
because there is some conduct that clearly falls within
the provision’s grasp.” Johnson, 135 S. Ct. at 2561.
Nonetheless, the “threshold for declaring a law void for
vagueness is high.” Id. at 2576. A statute will be held
unconstitutionally vague “only if it wholly ‘fails to provide a person of ordinary intelligence fair notice of
what is prohibited, or is so standardless that it authorizes or encourages seriously discriminatory enforcement.’ ” Id. (quoting United States v. Williams, 553 U.S.
285, 304 (2008)).
As the Defendants point out, another session of
this Court has already rejected a vagueness challenge
to the Act’s definition of “assault weapon” (within
which the phrase “copies or duplicates” is found).13 See
Defs.’ Mem. 18-19; Decl. Supp. Defs.’ Mot. Summ. J.,
Exs. 19-20. In an order granting the defendants’ motion to dismiss, Judge O’Toole concluded that “it is patently apparent that the definitions, even if they might
13

In a footnote, the Defendants note that because one of the
Plaintiffs here was a plaintiff in that prior case, the vagueness
claim as asserted by that plaintiff is “plainly barred by claim and
issue preclusion.” Defs.’ Mem. 19 n.52. Because the Defendants
have not pursued this as a formal defense, however, and because
in any event the Court rules that the phrase is not impermissibly
vague, the Court need not address this assertion.

App. 66
be unclear at the margins, are not impermissibly vague
in all applications, especially in light of the amendments to the Act which addressed some of the potential uncertainty.” Mem. & Order, Gun Owner’s Action
League, Inc. v. Cellucci, No. 98-12125-GAO, slip op. at
2 (D. Mass. Sept. 28, 2000) (O’Toole, J.). Though Judge
O’Toole’s assessment employed the higher pre-Johnson
standard, this Court agrees with his reasoning and
concludes that the phrase “copies or duplicates” is not
impermissibly vague even by the lower Johnson standard.
Though the Act does not define “copies or duplicates,” the phrase’s plain meaning provides a person of
ordinary intelligence fair notice as to what is prohibited under the Act. The commonly understood meaning
of “copy,” as described by the Merriam-Webster dictionary, is “an imitation, transcript, or reproduction of an
original work.” Copy, Merriam-Webster, https://www.
merriam-webster.com/dictionary/copy (last updated
Mar. 21, 2018). A “duplicate” is “either of two things exactly alike and usually produced at the same time or
by the same process.” Duplicate, Merriam-Webster, https://
www.merriam-webster.com/dictionary/duplicate (last updated Mar. 17, 2018). The combined term “copies and
duplicates,” in the context of the list of enumerated
firearms, thus plainly refers to exact replicas of the
enumerated firearms as well as firearms that may not
be identical to the enumerated firearms but are nevertheless “imitations.” While citizens may need to apply
their own interpretation of this language “at the margins,” this obligation does not render the language

App. 67
impermissibly vague because “ ‘[f ]air’ notice is understood as notice short of semantic certainty.” Draper,
827 F.3d at 4.
Further, both the Second and Fourth Circuits have
rejected vagueness challenges to similar or identical
language. In New York State Rifle & Pistol Ass’n, the
Second Circuit held the phrase “copies or duplicates”
within the context of an assault weapons ban not to
be unconstitutionally vague because the statute “provided not only an itemized list of prohibited models but
also [a] military-style features test,” therefore providing citizens with another reference point for what may
constitute a “copy or duplicate.” New York State Rifle
& Pistol Ass’n, 804 F.3d at 267. The Fourth Circuit upheld a statute’s ban on “copies” of enumerated assault
weapons in Maryland’s assault weapons ban, relying
heavily on the fact that notices issued by the Maryland
Attorney General and the Maryland State Police “explain how to determine whether a particular firearm is
a copy of an identified assault weapon.” Kolbe, 849 F.3d
at 149. The Sixth Circuit sustained a vagueness challenge to an ordinance banning certain firearms, but
emphasized that the ordinance “outlaws assault weapons only by outlawing certain brand names without including within the prohibition similar assault weapons
of the same type, function or capability,” “permits the
sale and possession of weapons which are virtually
identical to those listed if they are produced by a manufacturer that is not listed,” and defines “assault weapon”
by naming various individual models and then adding
“other models . . . that have slight modifications or

App. 68
enhancements of firearms listed.” Springfield Armory,
Inc. v. City of Columbus, 29 F.3d 250, 252 (6th Cir.
1994). In reasoning that the statute could easily be corrected, the Sixth Circuit noted that “[o]ther gun control
laws which seek to outlaw assault weapons provide a
general definition of the type of weapon banned.” Id. at
253.
Though the Second, Fourth, and Sixth Circuits do
not set controlling precedent for this Court, this Court
is persuaded by their analyses, all of which bolster the
conclusion that the phrase “copies or duplicates” is sufficiently clear. Here, the Act lists certain individual
models that qualify as “assault weapons” but also incorporates the now-expired federal ban’s general definition of “semiautomatic assault weapon.” See Mass.
Gen. Laws ch. 140, § 121; 18 U.S.C. § 921(a)(30) (1994)
repealed by Pub. L. No. 103-322, § 110105(2), 108 Stat.
1796, 2000 (1994). This general definition contains
both a list of enumerated weapons and several features-style tests that citizens may use as a second data
point if they are uncertain as to what constitutes a
“copy or duplicate.” See 18 U.S.C. § 921(a)(30). The Attorney General also issued a notice to the public (the
Enforcement Notice) providing further guidance on
how to determine whether a firearm is a “copy or duplicate” and thus prohibited. All of these characteristics conform with those of the statutes upheld in New
York State Rifle & Pistol Ass’n and Kolbe, and with the
characteristics that the Sixth Circuit indicated would
have saved the ordinance in Springfield Armory.

App. 69
The Plaintiffs argue that the Act is nevertheless
vague because the Enforcement Notice does not articulate every test that may be applied to determine
whether a weapon is a copy or duplicate, and because
the two tests it does set forth are not sufficiently clear
to permit citizens to determine which weapons are prohibited. Pls.’ Mem. at 18. While the Enforcement Notice states that a manufacturer’s advertising of a
weapon is “relevant” to whether that weapon is a “copy
or duplicate,” the Plaintiffs contend that it “provides no
explanation as to how to apply such a standard.” Id.
They further claim that because the Enforcement Notice provides that a firearm meeting either test remains a “copy or duplicate” even if it is altered to look
like it does not meet the test, unknowing citizens could
be subject to criminal liability. Id.
These arguments, which center on the Enforcement Notice, have no merit. As the Defendants note,
the First Circuit “has already rejected an attempt to
invoke a prosecutor’s interpretation of a criminal statute in support of a facial attack on that statute.” Mem.
Opp’n Pls.’ Mot. Summ. J. 19, ECF No. 72. In McGuire
v. Reilly, 386 F.3d 45 (1st Cir. 2004), the First Circuit
addressed an argument that an interpretation of law
issued by the Massachusetts Attorney General (then
Thomas Reilly) “set up a new ground for facial unconstitutionality.” Id. at 58. The First Circuit roundly rejected this argument, explaining that while a federal
court evaluating a challenge to state law must “consider any limiting construction that a state court or enforcement agency has proffered,” this rule is intended

App. 70
to help “save a statute that would otherwise be facially
unconstitutional.” Id. (first quoting Ward v. Rock Against
Racism, 491 U.S. 781, 796 (1989)). The court concluded
that “[l]ogically, there is no way . . . that an authority’s
non-binding and non-authoritative interpretation of a
facially valid statute can make it more facially constitutionally vulnerable than it would be otherwise.” Id.
(footnote omitted). Though this statement is dicta, its
reasoning is persuasive. Here too, the Act is facially
valid, and the Enforcement Notice’s interpretation –
even if it were construed as expanding the Act’s scope
– cannot render it unconstitutionally vague. See McCullen v. Coakley, 571 F.3d 167, 183 (1st Cir. 2009) (“It
is difficult to understand . . . how or why a challenger
can mount a facial attack on a statute that is itself not
vague simply because an enforcement official has offered an interpretation of the statute that may pose
problems down the road. As a matter of logic, we do not
believe that an official’s interpretation can render clear
statutory language vague so as to make the statute
vulnerable to a facial (as opposed to an as-applied) attack.” (citations omitted)), overruled on other grounds,
134 S. Ct. 2518 (2014); Cutting v. City of Portland,
Maine, 802 F.3d 79, 84 (1st Cir. 2015).
Finally, the Plaintiffs argue that the phrase “copies or duplicates” is unconstitutionally vague because
it allows for the possibility of “arbitrary and subjective
enforcement.” Pls.’ Mem. 19. The Plaintiffs provide no
further detail or evidence as to how the Act has been
or can be enforced on a discriminatory basis. Courts
consistently reject pre-enforcement, facial vagueness

App. 71
challenges where “no evidence has been, or could be,
introduced to indicate whether the ordinance has been
enforced in a discriminatory manner.” Village of Hoffman Estates, 455 U.S. at 503 (1982); see also Gonzales
v. Carhart, 550 U.S. 124, 150 (2007) (rejecting preenforcement challenge based on claim of arbitrary
or discriminatory enforcement, noting that the arguments “are somewhat speculative”); Richmond Boro
Gun Club, Inc. v. City of New York, 97 F.3d 681, 686
(2d Cir. 1996) (declining to entertain “premature” preenforcement vagueness challenge based on “speculative threat of arbitrary enforcement,” in part because
the government “may choose to limit enforcement . . .
to weapons clearly proscribed by the law”); cf. New
York State Rifle & Pistol Ass’n, 804 F.3d at 266
(“Should such [an unfair] prosecution ever occur, the
defendant could bring an ‘as applied’ vagueness challenge. . . . That improbable scenario cannot, however,
adequately support the facial challenge plaintiffs attempt to bring here.”). The Plaintiffs offer no reason to
believe that the threat of arbitrary enforcement is not
purely speculative. As a result, the Court remains convinced that the phrase “copies or duplicates” as used in
the Act is not impermissibly vague.
V.

CONCLUSION

For the foregoing reasons, the Court DISMISSES
Count Two of the Plaintiffs’ complaint and GRANTS
summary judgment for the Defendants on Counts One
and Three. The Plaintiffs’ motion for summary judgment on those counts is DENIED.

App. 72
SO ORDERED.
The AR-15 and its analogs, along with large capacity magazines, are simply not weapons within the original meaning of the individual constitutional right to
“bear Arms.”
Both their general acceptance and their regulation, if any, are policy matters not for courts, but left to
the people directly through their elected representatives. In the absence of federal legislation, Massachusetts is free to ban these weapons and large capacity
magazines. Other states are equally free to leave them
unregulated and available to their law-abiding citizens. These policy matters are simply not of constitutional moment. Americans are not afraid of bumptious,
raucous, and robust debate about these matters. We
call it democracy.
Justice Scalia would be proud.
/s/ William G. Young
WILLIAM G. YOUNG
DISTRICT JUDGE

App. 73
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
David Seth Worman et al
CIVIL ACTION

Plaintiff

NO. 17cv10107-WGY

Maura Healey et al
Defendant

JUDGMENT
YOUNG, D. J.
In accordance with the Court’s MEMORANDUM
AND ORDER entered on April 5, 2018, it is hereby
ORDERED:
Judgment for the DEFENDANTS.
By the Court,
April 6, 2018
Date

/s/Matthew A. Paine
Deputy Clerk

App. 74
STATUTES INVOLVED
Massachusetts General Law Chapter 140
§ 121 Firearms sales; definitions; antique
firearms; application of law; exceptions
As used in sections 122 to 131Y, inclusive, the following
words shall, unless the context clearly requires otherwise, have the following meanings: –
“Ammunition”, cartridges or cartridge cases, primers
(igniter), bullets or propellant powder designed for use
in any firearm, rifle or shotgun. The term “ammunition” shall also mean tear gas cartridges.
“Assault weapon”, shall have the same meaning as a
semiautomatic assault weapon as defined in the federal Public Safety and Recreational Firearms Use Protection Act, 18 U.S.C. section 921(a)(30) as appearing
in such section on September 13, 1994, and shall include, but not be limited to, any of the weapons, or copies or duplicates of the weapons, of any caliber, known
as: (i) Avtomat Kalashnikov (AK) (all models); (ii) Action Arms Israeli Military Industries UZI and Galil;
(iii) Beretta Ar70 (SC-70); (iv) Colt AR-15; (v) Fabrique
National FN/FAL, FN/LAR and FNC; (vi) SWD M-10,
M-11, M-11/9 and M-12; (vi) Steyr AUG; (vii) INTRATEC TEC-9, TEC-DC9 and TEC-22; and (viii) revolving cylinder shotguns, such as, or similar to, the
Street Sweeper and Striker 12; provided, however, that
the term assault weapon shall not include: (i) any of
the weapons, or replicas or duplicates of such weapons,
specified in appendix A to 18 U.S.C. section 922 as appearing in such appendix on September 13, 1994, as

App. 75
such weapons were manufactured on October 1, 1993;
(ii) any weapon that is operated by manual bolt, pump,
lever or slide action; (iii) any weapon that has been
rendered permanently inoperable or otherwise rendered permanently unable to be designated a semiautomatic assault weapon; (iv) any weapon that was
manufactured prior to the year 1899; (v) any weapon
that is an antique or relic, theatrical prop or other
weapon that is not capable of firing a projectile and
which is not intended for use as a functional weapon
and cannot be readily modified through a combination
of available parts into an operable assault weapon; (vi)
any semiautomatic rifle that cannot accept a detachable magazine that holds more than five rounds of ammunition; or (vii) any semiautomatic shotgun that
cannot hold more than five rounds of ammunition in a
fixed or detachable magazine.
<[ Definition of “Bump stock” in first paragraph applicable as provided by 2017, 110,
Sec. 53.]>
“Bump stock”, any device for a weapon that increases
the rate of fire achievable with such weapon by using
energy from the recoil of the weapon to generate a reciprocating action that facilitates repeated activation
of the trigger.
“Conviction”, a finding or verdict of guilt or a plea of
guilty, whether or not final sentence is imposed.
“Court”, as used in sections 131R to 131Y, inclusive, the
division of the district court department or the Boston
municipal court department of the trial court having

App. 76
jurisdiction in the city or town in which the respondent
resides.
“Deceptive weapon device”, any device that is intended
to convey the presence of a rifle, shotgun or firearm
that is used in the commission of a violent crime, as
defined in this section, and which presents an objective
threat of immediate death or serious bodily harm to a
person of reasonable and average sensibility.
“Extreme risk protection order”, an order by the court
ordering the immediate suspension and surrender of
any license to carry firearms or firearm identification
card which the respondent may hold and ordering the
respondent to surrender all firearms, rifles, shotguns,
machine guns, weapons or ammunition which the respondent then controls, owns or possesses; provided,
however, that an extreme risk protection order shall be
in effect for up to 1 year from the date of issuance and
may be renewed upon petition.
“Family or household member”, a person who: (i) is or
was married to the respondent; (ii) is or was residing
with the respondent in the same household; (iii) is or
was related by blood or marriage to the respondent; (iv)
has or is having a child in common with the respondent, regardless of whether they have ever married or
lived together; (v) is or has been in a substantive dating relationship with the respondent; or (vi) is or has
been engaged to the respondent.
“Firearm”, a stun gun or a pistol, revolver or other
weapon of any description, loaded or unloaded, from
which a shot or bullet can be discharged and of which

App. 77
the length of the barrel or barrels is less than 16 inches
or 18 inches in the case of a shotgun as originally manufactured; provided, however, that the term firearm
shall not include any weapon that is: (i) constructed in
a shape that does not resemble a handgun, shortbarreled rifle or short-barreled shotgun including, but
not limited to, covert weapons that resemble keychains, pens, cigarette-lighters or cigarette-packages;
or (ii) not detectable as a weapon or potential weapon
by x-ray machines commonly used at airports or walkthrough metal detectors.
“Gunsmith”, any person who engages in the business
of repairing, altering, cleaning, polishing, engraving,
blueing or performing any mechanical operation on
any firearm, rifle, shotgun or machine gun.
“Imitation firearm”, any weapon which is designed,
manufactured or altered in such a way as to render it
incapable of discharging a shot or bullet.
“Large capacity feeding device”, (i) a fixed or detachable magazine, box, drum, feed strip or similar device
capable of accepting, or that can be readily converted
to accept, more than ten rounds of ammunition or more
than five shotgun shells; or (ii) a large capacity ammunition feeding device as defined in the federal Public
Safety and Recreational Firearms Use Protection Act,
18 U.S.C. section 921(a)(31) as appearing in such section on September 13, 1994. The term “large capacity
feeding device” shall not include an attached tubular
device designed to accept, and capable of operating
only with, .22 caliber ammunition.

App. 78
“Large capacity weapon”, any firearm, rifle or shotgun:
(i) that is semiautomatic with a fixed large capacity
feeding device; (ii) that is semiautomatic and capable
of accepting, or readily modifiable to accept, any detachable large capacity feeding device; (iii) that employs a rotating cylinder capable of accepting more
than ten rounds of ammunition in a rifle or firearm and
more than five shotgun shells in the case of a shotgun
or firearm; or (iv) that is an assault weapon. The term
“large capacity weapon” shall be a secondary designation and shall apply to a weapon in addition to its primary designation as a firearm, rifle or shotgun and
shall not include: (i) any weapon that was manufactured in or prior to the year 1899; (ii) any weapon that
operates by manual bolt, pump, lever or slide action;
(iii) any weapon that is a single-shot weapon; (iv) any
weapon that has been modified so as to render it permanently inoperable or otherwise rendered permanently unable to be designated a large capacity
weapon; or (v) any weapon that is an antique or relic,
theatrical prop or other weapon that is not capable of
firing a projectile and which is not intended for use as
a functional weapon and cannot be readily modified
through a combination of available parts into an operable large capacity weapon.
“Length of barrel” or “barrel length”, that portion of a
firearm, rifle, shotgun or machine gun through which
a shot or bullet is driven, guided or stabilized and shall
include the chamber.

App. 79
“Licensing authority”, the chief of police or the board
or officer having control of the police in a city or town,
or persons authorized by them.
<[ Definition of “Machine gun” in first paragraph applicable as provided by 2017, 110,
Sec. 53.]>
“Machine gun”, a weapon of any description, by whatever name known, loaded or unloaded, from which a
number of shots or bullets may be rapidly or automatically discharged by one continuous activation of the
trigger, including a submachine gun; provided, however, that “machine gun” shall include bump stocks and
trigger cranks.
“Petition”, a request filed with the court by a petitioner
for the issuance or renewal of an extreme risk protection order.
“Petitioner”, the family or household member, or the licensing authority of the municipality where the respondent resides, filing a petition.
“Purchase” and “sale” shall include exchange; the word
“purchaser” shall include exchanger; and the verbs
“sell” and “purchase”, in their different forms and
tenses, shall include the verb exchange in its appropriate form and tense.
“Respondent”, the person identified as the respondent
in a petition against whom an extreme risk protection
order is sought.

App. 80
“Rifle”, a weapon having a rifled bore with a barrel
length equal to or greater than 16 inches and capable
of discharging a shot or bullet for each pull of the trigger.
“Sawed-off shotgun”, any weapon made from a shotgun, whether by alteration, modification or otherwise,
if such weapon as modified has one or more barrels less
than 18 inches in length or as modified has an overall
length of less than 26 inches.
“Semiautomatic”, capable of utilizing a portion of the
energy of a firing cartridge to extract the fired cartridge case and chamber the next round, and requiring
a separate pull of the trigger to fire each cartridge.
“Shotgun”, a weapon having a smooth bore with a barrel length equal to or greater than 18 inches with an
overall length equal to or greater than 26 inches, and
capable of discharging a shot or bullet for each pull of
the trigger.
“Stun gun”, a portable device or weapon, regardless of
whether it passes an electrical shock by means of a
dart or projectile via a wire lead, from which an electrical current, impulse, wave or beam that is designed
to incapacitate temporarily, injure or kill may be directed.
“Substantive dating relationship”, a relationship as determined by the court after consideration of the following factors: (i) the length of time of the relationship; (ii)
the type of relationship; (iii) the frequency of interaction between the parties; and (iv) if the relationship

App. 81
has been terminated by either person, the length of
time elapsed since the termination of the relationship.
<[ Definition of “Trigger crank” in first paragraph applicable as provided by 2017, 110,
Sec. 53.]>
“Trigger crank”, any device to be attached to a weapon
that repeatedly activates the trigger of the weapon
through the use of a lever or other part that is turned
in a circular motion; provided, however, that “trigger
crank” shall not include any weapon initially designed
and manufactured to fire through the use of a crank or
lever.
“Violent crime”, shall mean any crime punishable by
imprisonment for a term exceeding one year, or any act
of juvenile delinquency involving the use or possession
of a deadly weapon that would be punishable by imprisonment for such term if committed by an adult,
that: (i) has as an element the use, attempted use or
threatened use of physical force or a deadly weapon
against the person of another; (ii) is burglary, extortion,
arson or kidnapping; (iii) involves the use of explosives;
or otherwise involves conduct that presents a serious
risk of physical injury to another.
“Weapon”, any rifle, shotgun or firearm.
Where the local licensing authority has the power to
issue licenses or cards under this chapter, but no such
licensing authority exists, any resident or applicant
may apply for such license or firearm identification

App. 82
card directly to the colonel of state police and said colonel shall for this purpose be the licensing authority.
The provisions of sections 122 to 129D, inclusive, and
sections 131, 131A, 131B and 131E shall not apply to:
(A) any firearm, rifle or shotgun manufactured in or prior to the year 1899;
(B) any replica of any firearm, rifle or shotgun described in clause (A) if such replica: (i)
is not designed or redesigned for using rimfire
or conventional centerfire fixed ammunition;
or (ii) uses rimfire or conventional centerfire
fixed ammunition which is no longer manufactured in the United States and which is not
readily available in the ordinary channels of
commercial trade; and
(C) manufacturers or wholesalers of firearms, rifles, shotguns or machine guns.
Massachusetts General Law Chapter 140
§ 131M Assault weapon or large capacity
feeding device not lawfully possessed on
September 13, 1994; sale, transfer or
possession; punishment
No person shall sell, offer for sale, transfer or possess
an assault weapon or a large capacity feeding device
that was not otherwise lawfully possessed on September 13, 1994. Whoever not being licensed under the
provisions of section 122 violates the provisions of this
section shall be punished, for a first offense, by a fine
of not less than $1,000 nor more than $10,000 or by

App. 83
imprisonment for not less than one year nor more than
ten years, or by both such fine and imprisonment, and
for a second offense, by a fine of not less than $5,000
nor more than $15,000 or by imprisonment for not less
than five years nor more than 15 years, or by both such
fine and imprisonment.
The provisions of this section shall not apply to: (i) the
possession by a law enforcement officer; or (ii) the possession by an individual who is retired from service
with a law enforcement agency and is not otherwise
prohibited from receiving such a weapon or feeding device from such agency upon retirement.

App. 84
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
DAVID SETH WORMAN, )
)
et al.,
)
Plaintiffs,
) Case No.:
v.
) 1-17-CV-10107-WGY
MAURA HEALEY, et al., )
)
Defendants.
)
PLAINTIFFS’ STATEMENT OF UNDISPUTED
MATERIAL FACTS IN SUPPORT OF THEIR
MOTION FOR SUMMARY JUDGMENT
Plaintiffs David Seth Worman, Anthony Linden,
Jason William Sawyer, Paul Nelson Chamberlain, Gun
Owners’ Action League, Inc., On Target Training, Inc.,
and Overwatch Outpost (collectively, “Plaintiffs”), by
and through their undersigned counsel, and pursuant
to Federal Rule of Civil Procedure 56 and Local Rule
56.1, hereby submit this Statement of Undisputed
Facts in Support of Their Motion for Summary Judgment.
A. Massachusetts’ 1998 Ban of “Assault
Weapons” and “Large Capacity Feeding
Devices” and the Attorney General’s 2016
Notice of Enforcement.
1. Massachusetts’ statutory ban prohibiting
firearms, G. L. C. 140, §§ 121–131P, replicates the
now-repealed federal prohibition against “assault

App. 85
weapons” and “large capacity feeding devices.” See
Public Safety and Recreational Firearms Use Protection Act, 18 U.S.C. § 921(a)(30) (1994) (the “Federal
Ban”).
2. Massachusetts law defines the term “assault
weapon” to have the same meaning as the term “semiautomatic assault weapon” as defined in the Federal
Ban, and prohibits by name some of the most popular
rifles and firearms in the country, including:
(i)

Avtomat Kalashnikov (AK) (all models);

(ii)

Action Arms Israeli Military Industries
UZI and Galil;

(iii) Beretta Ar70 (SC-70);
(iv) Colt AR-15;
(v)

Fabrique National FN/FAL, FN/LAR,
and FNC;

(vi) SWD M-10, M-11, M-11/9, and M-12;
(vii) Steyr AUG;
(viii) INTATEC TEC-9, TEC-10, TEC-DC9,
and TEC-22; and
(ix) revolving cylinder shotguns, such as, or
similar to, the Street Sweeper and
Striker 12.
(the “Enumerated Banned Firearms”), as well as their
“copies or duplicates” that have two or more specified
features (collectively, the “Banned Firearms”). G. L. C.
140 § 121; see also Klein Dep., Ex. 17 at 31:17–21.

App. 86
3. The phrase “copies or duplicates” is not defined in the Challenged Laws, nor is it defined elsewhere in Massachusetts law. See G. L. C. 140 § 121. The
phrase also was included in the Federal Ban but was
not defined under federal law either. See 18 U.S.C.
§ 921(a)(30) (1994).
4. As the Federal Ban was debated, however,
Senator Joseph Biden of Delaware made clear that the
term “copy” did not refer to any similarity of the firearm’s operating system but to selling a named banned
rifle under another name: “To avoid the so-called copycat problem – where manufacturers simply rename
guns to avoid State assault weapon legislation – the
amendment makes clear that replicas and duplicates
of the listed firearms are covered as well.” 139 Cong.
Rec. S15459, Ex. 22. “Senator Biden stated further that
‘to make clear that this ban applies only to military
style assault weapons, this ban would apply only to
semiautomatic rifles and pistols that can attach detachable magazines that have at least two of the following characteristics: A grenade launcher; a flash
suppressor; a bayonet mount; a folding stock; or a pistol grip.’ ” Id. This “features test” thus qualified what
was prohibited either as an Enumerated Banned Firearm or as a copy or duplicate of an Enumerated
Banned Firearm.
5. A “large capacity feeding device” is defined by
Massachusetts law as “a fixed or detachable magazine
. . . capable of accepting, or that can be readily converted to accept, more than ten rounds of ammunition. . . .” G. L. C. 140 § 121 (the “Banned Magazines”).

App. 87
6. The Massachusetts law prohibits possession
and transfer of the Banned Firearms and Magazines,
and imposes severe penalties for any violation:
No person shall sell, offer for sale, transfer or
possess an assault weapon or large capacity
feeding device that was not otherwise lawfully
possessed on September 13, 1994. Whoever
not being licensed under the provisions of section 122 violates the provisions of this section
shall be punished, for a first offense, by a fine
of not less than $1,000 nor more than $10,000,
or by imprisonment for not less than one year
nor more than ten years, or by both such fine
and imprisonment, and for a second offense,
by a fine of not less than $5,000 nor more than
$15,000 or by imprisonment for not less than
five years nor more than 15 years, or by both
such fine and imprisonment.
G. L. C. 140 § 131M. Collectively, Massachusetts General Laws, chapter 140, sections 121 and 131M, shall
be referred to herein as the “Challenged Laws.” The
Challenged Laws do not ban the sale, transfer, or possession of Banned Firearms and Magazines lawfully
possessed prior to September 13, 1994. See G. L. C. 140
§ 131M.
7. After the enactment of the Challenged Laws,
and for a period of 18 years, Defendants approved the
transfer of tens of thousands of firearms as compliant
under Massachusetts law (“Massachusetts Compliant
Firearms”). See Press Release, AG Healey Announces
Enforcement of Ban on Copycat Assault Weapons (July
20, 2016), available at http://www.mass.gov/ago/news-

App. 88
and-updates/press-releases/2016/2016-07-20-assaultweapons-enforcement.html, Ex. 23 at p. 1. (“Despite
the law, an estimated 10,000 [Banned Firearms] were
sold in Massachusetts last year alone.”); see also Deposition of Alan Zani, Commander, Massachusetts State
Police Crime Gun Unit, Ex. 20 at 11:10–14, 11:16–19
(defining the term “Massachusetts Compliant Firearm” as a “firearm that was compliant to the Massachusetts General Laws prior to July 20, 2016”), 11:21–
24, 12:1–2, 4 (confirming transfers of Massachusetts
Compliant Firearms “were considered lawful”).
8. Nearly twenty years after the enactment of
the Challenged Laws, Defendant Attorney General
Maura Healey issued the Notice of Enforcement, which
became effective as of July 20, 2016. See Notice of Enforcement, available at http://www.mass.gov/ago/publicsafety/assault-weapons-enforcement-notice.pdf (last
visited Dec. 14, 2017), Ex. 25 at p. 1.
9. The Notice of Enforcement purports to provide
“guidance on the identification of weapons that are
‘copies’ or ‘duplicates’ of the enumerated Assault weapons that are banned under Massachusetts law.” Id. at
p. 1.
10. The Notice of Enforcement expands the firearms prohibition established in the Challenged Laws
to also forbid the ownership and transfer of Massachusetts Compliant Firearms, as well as other popular
firearms commonly kept for lawful purposes. See id. at
p. 1–4. Because nearly all semiautomatic firearms employ a similar operating system, See Declaration of

App. 89
James Supica, Director of the NRA Firearms Museum
and firearms historian, Ex. 13 at p. 1, ¶ 2 Att. A at p.
24, there is a wholesale ban of nearly all semiautomatic firearms in the Commonwealth of Massachusetts.
11. To determine if a firearm is a “copy or duplicate,” the Notice of Enforcement establishes two tests:
a “Similarity Test” and an “Interchangeability Test.”
See Notice of Enforcement, Ex. 25 at pp. 3–4. These
tests provide that a firearm is a copy or duplicate of a
Banned Firearm if
i.

“its internal functional components are substantially similar in construction and configuration to those of an [Enumerated Banned
Firearm]. Under this test, a weapon is a Copy
or Duplicate, for example, if the operating system and firing mechanism of the weapon are
based on or otherwise substantially similar to
one of the [Enumerated Banned Firearm]”; or

ii.

“it has a receiver that is the same as or interchangeable with the receiver of an [Enumerated Banned Firearm.] A receiver will be
treated as the same as or interchangeable
with the receiver on an [Enumerated Banned
Firearm] if it includes or accepts two or more
operating components that are the same as or
interchangeable with those of an [Enumerated Banned Firearm]. Such operating components may include, but are not limited to: 1)
the trigger assembly; 2) the bolt carrier or bolt
carrier group; (3) the charging handle; (4) the

App. 90
extractor or extractor assembly; or (5) the
magazine port.”
See id.
12. The Notice of Enforcement also states that a
firearm that qualifies as “copy or duplicate” under one
of these two tests will remain a “copy or duplicate,”
even if it is altered to no longer meet those tests. Id. at
p. 4.
13. In addition, the Notice of Enforcement provides that a manufacturer’s advertising of a firearm is
“relevant” in determining whether a firearm is a “copy
or duplicate” of an assault weapon. Id.
14. The Notice of Enforcement provides a prospective limitation for “dealers licensed under G. L. C.
140, § 122”:
The Guidance will not be applied to future
possession, ownership or transfer of Assault
weapons by dealers, provided that the dealer
has written evidence that the weapons were
transferred to the dealer in the Commonwealth prior to July 20, 2016, and provided
further that a transfer made after July 20,
2016, if any, is made to persons or businesses
in states where such weapons are legal.
Id.
15. The Notice of Enforcement provides no exception to its application to dealers for transfers made
before July 20, 2016. See id.

App. 91
16. For “individual gun owners,” by contrast, the
Notice of Enforcement provides both retroactive and
prospective limitation: “The Guidance will not be applied to possession, ownership, or transfer of an Assault weapon obtained prior to July 20, 2016.” Id.
17. The Notice of Enforcement explicitly states
that “[t]he [Attorney General’s Office] reserves the
right to alter or amend this guidance,” leaving open the
scope of the Challenged Laws as well as the resulting
criminal liability. Id.
18. Neither the Challenged Laws nor the Notice
of Enforcement provides a safe harbor or exception for
the transfer and possession of Banned Firearms and
Magazines by responsible, law-abiding citizens for selfdefense. See id.
B. The Plaintiffs.
19. David Seth Worman, a licensed orthopedic
surgeon, is a responsible, law-abiding citizen and resident of Massachusetts. See Worman Decl., Ex. 1 at p. 1,
¶ 2. After the enactment of the Challenged Laws but
before the issuance of the Notice of Enforcement, Dr.
Worman purchased firearms which may be classified
as a “copy or duplicate” of an “assault weapon” under
the tests set forth in the Notice of Enforcement. Id. at
p. 1, ¶ 3. As such, his weapons may now be prohibited.
Id. Dr. Worman also owns several pistols that are designed for, and come standard with, detachable magazines that hold in excess of ten rounds, and he lawfully
owns multiple detachable magazines which hold in

App. 92
excess of ten rounds. Id. He primarily owns these firearms and magazines for defense of his home and family, and he also keeps them for recreational target
shooting and as collector’s items. Id. at pp. 1–2, ¶ 4. Dr.
Worman is a responsible firearms owner, having taken
numerous safety and training courses, including training focused on self-defense, and he secures his firearms
in a locked safe in his home. Id. at p. 2, ¶ 6. Dr. Worman
would like to purchase additional semiautomatic firearms with standard detachable magazines holding in
excess of ten rounds, if the law permitted him to do so.
Id. at p. 2, ¶ 5. He cannot, however, currently determine if the firearms he wishes to purchase are “copies
or duplicates” of an “assault weapon.” Id. He cannot
make this determination because of the vague and confusing manner in which “copies or duplicates” is defined in the Notice of Enforcement, and because of the
uncertainty of how Defendants will interpret the
phrase “copies or duplicates.” Id. at p. 2, ¶¶ 5,7. Because the Office of the Attorney General “reserves the
right to amend th[e] guidance” in the Notice of Enforcement, Dr. Worman lives in fear that his possession of
firearms will become criminalized. Id. at p. 2, ¶ 7. He
believes that the Challenged Laws and Notice of Enforcement violate his civil rights. Id.
20. Jason William Sawyer served five years of active duty and an additional three years of inactive reserves in the Marine Corps. See Sawyer Decl., Ex. 3 at
p. 1, ¶ 2. He achieved the rank of Corporal (E-4) during
his service. Id. He now works in the software industry
as an engineer and is a responsible, law-abiding citizen

App. 93
and resident of Massachusetts. Id. at p. 2, ¶¶ 6–7.
While serving, Mr. Sawyer was issued an M-16A2 and
an M9 service pistol and received extensive training
with various firearms. Id. at p. 1, ¶ 2. Since leaving the
military, Mr. Sawyer has taken numerous firearms
courses, has become a certified NRA instructor and a
certified Massachusetts State Police instructor, and is
well-versed on how to safely and properly own and use
firearms. Id. at pp. 1–2, ¶¶ 2,7. He keeps his firearms
in a locked safe in his home. Id. at p. 2, ¶ 7. Mr. Sawyer,
a nationally ranked competitive shooter, uses AR-15
platform rifles in competitive shooting events – firearms which may be banned as “copies or duplicates”
under the tests set forth in the Notice of Enforcement.
Id. at pp. 1–2, ¶ 4. Mr. Sawyer also possesses these firearms for self-defense and defense of his home. Id. at p.
2, ¶ 5. Mr. Sawyer purchased these firearms after the
enactment of the Challenged Laws but before Defendant Healey issued the Notice of Enforcement. Id. at pp.
12, ¶ 4. He also owns several pistols that are designed
for, and come standard with, detachable magazines
which hold in excess of ten rounds and lawfully owns
several detachable magazines which hold in excess of
ten rounds. Id. at p. 2, ¶ 4. Mr. Sawyer would like to
purchase certain additional firearms that may be classified as “copies or duplicates” of Enumerated Banned
Firearms but cannot do so because of the uncertainty
of how Defendants will interpret the phrase “copies or
duplicates.” Id.
21. Anthony Linden has polyarthritis, a type of
arthritis that involves five or more joints

App. 94
simultaneously. See Linden Decl., Ex. 2 at p. 1, ¶ 4. As
a result of this disease, it is difficult for him to operate
certain firearms quickly and effectively. Id. AR-15 platform rifles and full-capacity magazines allow him to
fully utilize his firearms at the practice range and
while hunting, and they ensure his ability to defend
himself in his home, if necessary. Id. Accordingly, Mr.
Linden owns an AR-15 platform firearm that he built
himself. Id. at p. 1, ¶ 3. He purchased the parts for this
firearm and assembled it after the enactment of the
Challenged Laws but before Defendant Healey issued
the Notice of Enforcement. Id. This firearm was designed for detachable magazines which hold in excess
of ten rounds, and he in fact lawfully owns several detachable magazines which hold in excess of ten rounds.
Id. Mr. Linden plans to purchase additional full-sized
semiautomatic firearms with standard detachable
magazines holding in excess of ten rounds in the future, if he is permitted to do so by law. Id. at p. 1, ¶ 5.
Mr. Linden is a responsible, law-abiding citizen and
resident of Massachusetts and has taken numerous
safety and training courses; he also secures his firearms in locked safes in his home. Id. at pp. 1–2, ¶¶ 2,
7.
22. Paul Chamberlain, also a responsible, lawabiding citizen and resident of Massachusetts, does not
currently own any Banned Firearms. See Chamberlain
Decl., Ex. 4 at ¶¶ 2, 5. He does, however, lawfully own
several detachable magazines which hold in excess of
ten rounds, which he keeps, along with his firearms, in
a safe in his home. Id. at ¶ 5. Mr. Chamberlain wishes

App. 95
to purchase firearms that are banned under the Challenged Laws and Notice of Enforcement for selfdefense in his home, and would do so, but for the
prohibition. Id. Even though Mr. Chamberlain has experience interpreting complex regulations due to his
career as a safety manager, Mr. Chamberlain cannot
determine whether the firearms he wishes to purchase
are prohibited by the Notice of Enforcement. Id. at
¶¶ 3–4. He believes the Notice of Enforcement is vague
and is uncertain how Defendants will interpret “copies
or duplicates.” Id. at ¶ 4.
23. Gun Owners’ Action League, Inc. (“GOAL”) is
a non-profit corporation dedicated to promoting safe
and responsible firearms ownership, marksmanship
competition, and hunter safety throughout Massachusetts. See Wallace Decl., Ex. 5 at p. 1, ¶ 3. For over 40
years, GOAL has helped protect and preserve Massachusetts citizens’ Second Amendment rights. Id. It is
the leading advocate in Massachusetts for its more
than 15,000 members, which include current and future gun owners, hunters, conservationists, as well as
firearm and marksmanship clubs. Id. GOAL possesses
a number of firearms-related licenses, including a federal firearms license and a Massachusetts License to
Sell Ammunition. Id. at p. 1, ¶ 5. To aid in its firearms
safety classes, GOAL keeps firearms, which may now
be classified as a “copy or duplicate” of an “assault
weapon” under the tests set forth in the Notice of Enforcement. Id. at p. 1, ¶ 4. GOAL also owns pistols that
are designed for, and come standard with, detachable
magazines which hold in excess of ten rounds, and in

App. 96
fact lawfully possesses multiple magazines holding in
excess of ten rounds. Id. As a licensed dealer, GOAL
lawfully owns and, after the enactment of the Challenged Laws but before the Notice of Enforcement was
issued, sold firearms which may be classified as a “copy
or duplicate” of an “assault weapon” under the tests set
forth in the Notice of Enforcement. Id. at pp. 1–2, ¶ 5.
GOAL and its membership are harmed by the combination of the Notice of Enforcement and the Challenged Laws because they cannot acquire the most
popular semiautomatic rifles and standard capacity
magazines sold today. Id. at p. 2, ¶ 6. Additionally, the
Notice of Enforcement asserts that what had been accepted, lawful behavior was in fact illegal. Id.
24. On Target Training, Inc. (“On Target”) is a
family-owned retail gun store and training facility. See
O’Leary Decl., Ex. 6 at p. 1, ¶ 3. On Target is a federal
firearms licensed dealer, and is also licensed in Massachusetts to perform services as a gunsmith; to sell, rent
or lease firearms, rifles, shotguns, or machine guns;
and to sell ammunition. Id. Until the effective date of
the Notice of Enforcement, On Target sold firearms
that may now be banned under the tests set forth in
the Notice of Enforcement. Id. at pp. 1–2, ¶ 4. Before
Attorney General Healey issued the Notice of Enforcement, On Target was never informed that its transfers
were or may have been illegal. Id. At no time was any
action taken against it by any law enforcement agency
to halt or prevent these transactions; Defendants instead approved them. Id. On Target relied upon this
approval and believed it was engaging in legal activity.

App. 97
Id. On Target believes that these prior transactions
made before the issuance of the Notice of Enforcement
have been retroactively deemed illegal by Defendants,
particularly given the fact that the Notice of Enforcement provides no guarantee that such transactions are
in fact legal and Attorney General Healey’s remarks
make clear that she believes “these weapons are illegal.” Id. at p. 2, ¶ 6; see also Remarks of Attorney General Maura Healey, available at http://www.mass.gov/
ago/public-safety/remarks-from-assault-weapons-pressconference.pdf (July 20, 2016), Ex. 24 at p. 3. If these
transactions are construed as illegal, On Target could
be in violation of federal law and lose its federal firearms license and other firearm-related licenses. See
O’Leary Decl., Ex. 6 at p. 2, ¶ 6. On Target is also being
harmed because, as a result of the Notice of Enforcement, it is losing money. Id. at p. 2, ¶ 5. Rifle sales have
almost completely ceased, sales of pre-1994 large capacity magazines are down about 50%, and ammunition sales are also down significantly. Id. On Target
suffers ongoing economic harm because it can no
longer sell the firearms and magazines banned under
the Notice of Enforcement. Id. On Target also suffers
harm because of the vagueness of the Notice of Enforcement, which prevents it from knowing which firearms it can and cannot lawfully sell. Id. If not for the
credible threat of prosecution under the Challenged
Laws and Notice of Enforcement, On Target would continue to sell these firearms and magazines. Id. at pp.
1–2, ¶ 4.

App. 98
25. Overwatch Outpost (“Overwatch”) is a federal firearms licensed dealer, and is also licensed in
Massachusetts to perform services as a gunsmith; to
sell, rent, or lease firearms, rifles, shotguns, or machine
guns; and to sell ammunition. See Ricko Decl., Ex. 7 at
p. 1, ¶ 3. Approximately 70% of Overwatch’s revenue
comes from firearms sales. Id. Until the effective date
of the Notice of Enforcement, Overwatch sold certain
firearms that may now be banned under the Notice of
Enforcement. Id. at pp. 1–2, ¶¶ 3, 4. Prior to the Notice
of Enforcement, no law enforcement agency informed
Overwatch that its transfers were or may be illegal. Id.
Instead, Defendants approved them. Id. Overwatch
Outpost relied upon this approval and believed it was
engaging in legal activity. Id. at pp. 1–2, ¶¶ 3, 4. Overwatch fears that the hundreds if not thousands of
presumptively-legal and then-accepted transactions
have now been declared retroactively to be in violation
of Massachusetts law at the time these transactions
occurred. Id. If these transactions are construed as illegal, Overwatch could be in violation of federal law
and lose its federal firearms license and other firearmrelated licenses. Id. at p. 2, ¶ 4. Overwatch continues
to suffer economic harm because it cannot sell these
firearms and magazines, and also because of the
vagueness of the Notice of Enforcement, which prevents Overwatch from what knowing which firearms it
can and cannot lawfully sell. Id. at p. 2, ¶ 5. Overwatch
would continue to sell these firearms and magazines,
if not for the credible threat of prosecution under the
Challenged Laws and Enforcement Notice. Id.

App. 99

C. The Banned Firearms and Magazines
Are Commonly Possessed.
26. The Challenged Laws and Notice of Enforcement target firearms that are semiautomatic, meaning
that they fire only once with each pull of the trigger, no
matter how long the trigger is held. See Supica Decl.
Ex. 13, at p. 4, ¶¶ 10–11; see also Deposition of Gary
Klein, representative witness for the Office of the Attorney General, Ex. 17 at 31:17-21.
27. The Banned Firearms and Magazines are
commonly possessed. See Declaration of James Curcuruto, Director of Marketing and Research at the National Shooting Sports Foundation, Ex. 9 at pp. 2–4,
¶¶ 5–10.
28. Firearms with a capacity of more than 10
rounds have been owned by civilians for centuries. See
Supica Decl., Ex. 13 at p. 2, ¶ 6. Throughout the 17th
and 18th centuries, many commercially available firearms had a capacity of more than 10 rounds, including
the Kalthoff repeater which had up to a 30 shot capacity and the Belton repeating flintlock which had a 16
or 20 shot capacity. Id. The Founders were familiar
with multiple shot repeating firearms at the time the
Second Amendment was drafted. Id. Semiautomatic
firearms with detachable magazines have been used by
the civilian population for over a century, and there is
no evidence demonstrating a historic prohibition on
their ownership. Id. at p. 3, ¶ 8.

App. 100
29. The Banned Firearms include some of the
most popular and commonly owned firearms today:
AR- and AK-platform rifles. See Curcuruto Decl., Ex. 9
at p. 2, ¶ 6.
30. Between 1990 and 2015, approximately 13.7
million rifles based on these platforms were manufactured or imported into the United States. See id. at pp.
2–4, ¶¶ 6–9. Because AR- and AK-platform rifles have
been sold to civilians in the U.S. since the late 1950s,
even more of these rifles were manufactured in or imported to the U.S. before 1990. See id. at pp. 2–3, 116.
31. Modern Sporting Rifles (a term used in the
industry to describe modern semiautomatic rifles such
as the AR-15, see Declaration of Buford Boone, former
Director of the FBI Ballistics Laboratory, Ex. 8 at p. 1,
¶ 2 Att. A, p. 5; Curcuruto Decl., Ex. 9 at p. 1, ¶ 2 Att.
A, p. 3; see also Supica Decl., Ex. 13 at p. 1 ¶ 2 Att. A at
p. 21) are growing in popularity. See Curcuruto Decl.,
Ex. 9 at p. 3, ¶ 7. As of 2013, more than 4,800,000 people, most of whom are married with some college education and a household income greater than $75,000,
own at least one Modern Sporting Rifle. Id. at p. 3, ¶ 8.
Even more people use these firearms: according to a
2016 report published by the National Shooting Sports
Foundation (NSSF) about Sport Shooting Participation in the United States, approximately 14,000,000
people participated in target shooting with a modern
sporting rifle in 2016, a 57% increase from 2009. Id. at
p. 4, ¶ 9.

App. 101
32. In 2015 alone, more than 1,500,000 Modern
Sporting Rifles were manufactured in or imported into
the United States. Id. at p. 3, ¶ 7. By way of comparison, in 2015, the number of Modern Sporting Rifles
manufactured in or imported to the U.S. was nearly
double the number of the most commonly sold vehicle
in the United States (the Ford F-series pick-up trucks
(including F-150, F-250, F-350, F-450 and F-550), of
which a total of 780,354 were sold). Id.
33. Modern Sporting Rifles – not shotguns, or
traditionally styled rifles – are the most frequentlysold long gun in America. Id. at p. 3, ¶ 8. According to
a 2017 survey of 324 firearm retailers across the
United States, these firearms accounted for 17.9% of
all firearm sales, whereas shotguns and traditionallystyled rifles accounted for only 11.5% and 11.3% of all
firearm sales, respectively. Id.
34. The Banned Firearms include the most popular rifles in the United States. Id. at pp. 3–4, ¶¶ 7–9.
35. Magazines capable of holding more than 10
rounds of ammunition are likewise commonly possessed. Id. at p. 4, ¶ 10. Tens of millions of people across
the country possess magazines capable of holding more
than 10 rounds of ammunition. Id. Between 1990 and
2015, Americans owned approximately 114,700,000 of
these magazines, accounting for approximately 50% of
all magazines owned during this time (approximately
230,000,000). Id.
36. It is reasonable to assume that many more
such magazines were purchased in the United States

App. 102
prior to 1990 and that even more people possess a magazine capable of holding more than 10 rounds of ammunition. Id. This is particularly likely given the fact
that these Banned Magazines are provided as standard equipment for many semiautomatic rifles and pistols sold in the United States. Id.
D. The Banned Firearms and Magazines
Are Possessed for Lawful Purposes and
Are Rarely Used in Crime.
37. The Banned Firearms and Magazines are
owned and used for a variety of lawful purposes, including recreational and competitive target shooting,
home defense, hunting, and collecting. See Curcuruto
Decl., Ex. 9 at p. 2, ¶ 6.
38. Purchasers of the Banned Firearms report
that one of the most important reasons for their purchase of such firearms is self-defense. See id. at p. 3,
¶ 8.
39. The Bureau of Alcohol, Tobacco, and Firearms (“ATF”) confirmed over twenty-five years ago that
the Banned Firearms were useful in self-defense. See
Report and Recommendation of the ATF Working
Group on the Importability of Certain Semiautomatic
Rifles, at 11–12 (July 6, 1989), Ex. 28.
40. There are several reasons why an individual
would choose a Banned Firearm for self-defense. See
Declaration of Gary Roberts, dental surgeon and law

App. 103
enforcement Wound Ballistics Instructor, Ex. 11 at pp.
3–5, ¶¶ 8–14; Boone Decl., Ex. 8 at pp. 3–6, ¶¶ 5–11.
41. First, Banned Firearms based on the AR-15
platform are the most ergonomic, safe, readily available, and effective firearms for civilian defensive shooting. See Roberts Decl., Ex. 11 at p. 3, ¶ 8; see also Boone
Decl., Ex. 8 at pp. 3–5, ¶¶ 5–8. Effective defensive
shooting requires stopping the human aggressor as
quickly as possible, see Boone Decl., Ex. 8 at p. 4, ¶ 6,
and semiautomatic rifles like the Banned Firearms offer superior accuracy, less recoil, greater effective
range, faster reloading, potentially reduced downrange
hazard, better ergonomics, and a larger ammunition
capacity than other types of firearms, such as handguns and shotguns, see Roberts Decl., Ex. 11 at p. 3,
¶ 8.
42. These firearms are also relatively lightweight, are available with a telescoping/adjustable
stock, have a vertical pistol grip, can be fired with one
hand, are chambered for .223/5.56 cartridges that can
be effective while having relatively mild recoil, and utilize magazines with a standard capacity of 20 or 30
rounds. See Boone Decl., Ex. 8 at pp. 4–5, ¶¶ 7–8. These
characteristics make Banned Firearms such as the AR15 and its copies appropriate for close-quarter encounters, and are among the easiest to shoot accurately. Id.
at p. 4, ¶ 7. They are also generally easier to operate
one-handed, in case of injury, compared to other shoulder fired weapons. See Roberts Decl., Ex. 11 at p. 3, ¶ 8.

App. 104
43. The ammunition typically used by the
Banned Firearms, specifically the .223 Remington or
the very similar 5.56mm, is also more effective and reliable at stopping human attackers, and is more humane to those attackers, than typical handgun
ammunition. Id. at p. 4, ¶ 10; see also Boone Decl., Ex.
8 at p. 4, ¶ 6. .223 Remington rounds penetrate human
tissue at the depth in which the FBI determined to be
most desirable – between 12 and 18 inches. See Roberts
Decl., Ex. 11 at p. 4, ¶¶ 9–10; Boone Decl., Ex. 8 at p. 4,
¶ 6. This is important because under-penetration or
over-penetration of human tissue reduces the ammunition’s effectiveness at stopping an attacking individual. See Roberts Decl., Ex. 11 at p. 4, ¶¶ 10–11. In
comparison, effective shotgun ammunition’s penetration range is unnecessarily deep, practically guaranteeing pass-thru shots that pose considerable danger
to others in the area. See Boone Decl., Ex. 8 at p. 6,
¶ 11.
44. Accurate and effective munitions also reduce
the need for multiple shots, decreasing the chance of
shots missing the intended hostile aggressor and striking innocent bystanders. See Roberts Decl., Ex. 11 at p.
4, ¶ 11. In addition, .223 Remington rounds cause
smaller and fewer wounds as compared to ammunition
fired from other less effective firearms, such as handguns or shotguns, reducing the scope of medical care
needed. Id. at pp. 4–5, ¶¶ 12–13.
45. In contrast, handguns are much more difficult to fire accurately than semiautomatic rifles because they are more difficult to steady, absorb less

App. 105
recoil, and are more sensitive to shooter technique. See
Boone Decl., Ex. 8 at p. 5, ¶10; Rossi Decl., Ex. 12 at p.
1, ¶ 2 Att. A at p. 12. These factors combine to make
handguns substantially more difficult to fire accurately, especially under stress. See Declaration of Guy
Rossi, self-defense instructor and former law enforcement agent, Ex. 12 at p. 1, at ¶ 2 Att. A at p. 12.
46. Shotguns also have significantly more recoil
than semiautomatic rifles, and it is more difficult to
fire repeat shots accurately with a shotgun. See Boone
Decl., Ex. 8 at pp. 5–6, ¶ 11. A common misunderstanding is that the “spread” of shotgun pellets make accuracy less critical when using a shotgun. Id. This is not
the case, as the most common defensive shotgun
rounds, for instance a 00 buckshot used in a 2 3/4” 12
gauge shotgun, typically spread beyond the scoring
area of the FBI target, which is based on the size of a
human torso, even when fired from a distance of only
21 feet. Id. This means that the increase in hit probability is accompanied by the likelihood that some projectiles will miss. This only increases the risk to
unintended targets (namely, innocent people). Id.
47. The suitability of the Banned Firearms for
defensive use is highlighted by the fact that they are
the most commonly used and recommended rifles by
law enforcement, including the FBI, who may only discharge their firearms for defensive purposes. See Roberts Decl., Ex. 11 at p. 5, ¶ 14; Boone Decl., Ex. 8 at pp.
5–6, ¶¶ 9, 12; see also Klein Dep., Ex. 17 at 153:14-18
(noting that law enforcement officers “are armed with
AR-15s in most cases”). Across the country, over one

App. 106
million law enforcement personnel have qualified on
the AR-15. See Roberts Decl., Ex. 11 at p. 5, ¶ 14.
48. The Banned Firearms and Magazines, which
Plaintiffs seek to own and use for defensive purposes,
are used by Massachusetts law enforcement officers.
See Klein Dep., Ex. 17 at 53:4-7, 53:8-10, 153:17-18,
173:9-10. As Dr. Gary Roberts explained, “private citizens who wish to own a firearm for self- and home defense should use a semiautomatic rifle – most likely
the same firearm and ammunition chosen by police in
their community.” See Roberts Decl., Ex. 11 at p. 5,
¶ 14. This is because the degree of force required to
stop a violent felon does not change whether confronted by a law enforcement officer or a private citizen. Id. The violent felon’s anatomy, physiology, and
incapacitation potential does not change depending on
the intended victim’s profession. Id.
49. Many semiautomatic firearms, including the
Banned Firearms that the Notice of Enforcement purports to criminalize, are manufactured to accept magazines with standard capacities greater than ten
rounds. See Rossi Decl., Ex. 12 at p. 1, ¶ 2 Att. A, p. 3;
Curcuruto Decl., Ex. 9 at p. 1, ¶ 2 Att. A; id. at pp. 4–5;
¶ 4; Roberts Decl., Ex. 11 at p. 6, ¶ 16; id. at p. 1, ¶ 2
Att. A, p. 4.
50. These magazines are necessary for effective
self-defense, particularly in situations where more
than 10 shots are needed to stop a threat, which is often the case. See Rossi Decl., Ex. 12 at pp. 3–4, ¶ 8; Roberts Decl., Ex. 11 at pp. 3, 5–6, ¶¶ 7, 15; Supica Decl.,

App. 107
Ex. 13 at p. 1, ¶ 2 Att. A, p. 19; Declaration of Gary
Kleck, Professor of Criminology and researcher of firearms bans, Ex. 10 at p. 1, ¶ 2 Att. A, pp. 4–5. Very few,
if any, instances in which the use of a firearm is necessary for self-defense afford the time necessary to reload. See Rossi Decl., Ex. 12 at p. 5, ¶ 10. For instance,
in the well-known Tueller Drill used in police training,
it is emphasized that an attacker who is 21 feet away
can close the entire distance between himself and the
victim in only 1.5 seconds. Id.
51. The most recently released New York Police
Department (NYPD) “Annual Firearms Discharge Report,” which includes data from 2015, states that, in
35% of NYPD Intentional Discharge-Adversarial Conflict cases, officers needed to fire more than 5 shots to
stop the threat, and in 17% of the cases, officers needed
more than 10 shots to end the violent encounter – including one case where 84 shots were required. See
Roberts Decl., Ex. 11 at p. 5–6, ¶ 15; see also Rossi
Decl., Ex. 12 at pp. 3–4, ¶ 8.
52. Because trained law enforcement officers often require more than 10 rounds of ammunition for defensive shooting (i.e., “shooting to stop”), see Roberts
Decl., Ex. 11 at pp. 5–6, ¶ 15; see also Rossi Decl., Ex.
12 at pp. 3–4, ¶ 8; see also Boone Decl., Ex. 8 at pp. 6–
7, ¶ 12, nearly all law enforcement agencies, including
the FBI, issue their officers magazines capable of holding more than 10 rounds of ammunition, with 30 round
magazines being the norm for rifles. See Boone Decl.,
Ex. 8 at pp. 5, 6–7, ¶ 9, 12. Mr. Boone, a retired Supervisory Special Agent of the FBI, firearms instructor,

App. 108
and ballistic laboratory director, is unaware of any law
enforcement agency that issues pistol magazines that
are restricted below standard capacity “to some arbitrary limit like 10.” Id. at pp. 1–3, 7, ¶¶ 3, 12.
53. This is because reloading a semiautomatic
firearm with a detachable magazine – a 12-step process – is time-consuming, even under ideal circumstances. Rossi Decl., Ex. 12 at p. 4, ¶ 9. When
considering factors such as distractions, noise, multiple assailants, lighting conditions, nervousness, and fatigue, the time to reload decelerates. Id. Reloading is
especially time consuming if the victim is handicapped,
disabled, or injured. Id. at pp. 3, 5–6, ¶¶ 7, 12.
54. Reloading a firearm is also physically and
mentally demanding. Id. at p. 5, ¶ 11. It requires two
hands (one to hold the firearm and one to load the magazine), limiting a victim’s ability to escape, fend off an
attacker, call 911, or give physical aid or direction to
others. Id. Reloading a firearm requires focus and
therefore distracts the victim from the assailant and
her surroundings. Id. This distraction increases the
likelihood of a missed shot. Id.
55. Greater magazine capacity reduces the need
to reload in situations requiring more than 10 rounds
of ammunition to stop an attacker. Id. at p. 3, ¶ 7. As a
result, higher capacity magazines allow individuals to
better protect themselves. Id.
56. A limit on a magazine’s capacity may hinder
law-abiding citizens’ ability to defend themselves, others, and their homes. See Roberts Decl., Ex. 11 at pp.

App. 109
5–6, ¶ 15; Kleck Decl., Ex. 10 at pp. 3–4, ¶ 8; Rossi
Decl., Ex. 12 at pp. 3, 6, ¶¶ 7, 13.
57. The prohibition of the Banned Magazines
can be the difference in surviving or not surviving a
self-defense situation. See Roberts Decl., Ex. 11 at pp.
5–6, ¶ 15; see also Rossi Decl., Ex. 12 at pp. 4, 6, ¶¶ 8,
13. Civilians, unlike police officers, likely have no body
armor, no radio, no partner, no cover units, and no duty
belt with extra magazines. See Roberts Decl., Ex. 11 at
pp. 5–6, ¶ 15. Yet, civilians can be targets of opportunity for criminals and are confronted by the same violent felons as are the police. Id. Because highly
trained and experienced police officers require the use
of at least 11 rounds in 17% of their close range encounters to subdue an aggressive assailant, it follows
that an untrained civilian gun owner would need at
least that many rounds. See Rossi Decl., Ex. 12 at pp.
3–4, 6, ¶¶ 8, 13.
58. The desire to have more rounds of ammunition available without reloading is not new; it has
driven firearm design and development for centuries.
See Supica Decl., Ex. 13 p. 1, ¶ 2 Att. A, p. 3. An early
firearm with a capacity of more than 10 rounds was
available around 1580, and throughout the 17th and
18th centuries, many commercially available firearms
had a capacity of more than 10 rounds. Supica Decl.,
Ex. 13 at p. 2, ¶ 6. Commercially available firearms
with a capacity of more than 10 rounds became even
more widespread after the Second Amendment was
ratified. Id. at pp. 2–3, ¶ 7.

App. 110
59. Likewise, semiautomatic firearms with detachable magazines have been available and in wide
use for well over a century. Id. at p. 3, ¶ 8. The magazines most commonly possessed by civilians hold more
than 10 rounds of ammunition. See Roberts Decl., Ex.
11 at p. 6, ¶ 16; Curcuruto Decl., Ex. 9 at p. 4, ¶ 10. By
“limiting magazine capacity to 10 rounds or less,”
Plaintiffs are “denie[d] . . . the benefits of modern technology and force[d] . . . to use defensive tools from a bygone era.” See Roberts Decl., Ex. 11 at p. 7, ¶ 16.
60. The Banned Firearms, being semiautomatic,
are distinct from military weapons, which are fully automatic. See Supica Decl., Ex. 13 at p. 4, ¶ 10; Roberts
Decl., Ex. 11 at P. 1, ¶ 2 An. A, pp. 6–8. The semiautomatic AR-15, for example, is acknowledged even by Defendants to be the “civilian version” of the military’s
M-16 rifle. See Klein Dep., Ex. 17 at 153:24-154:4.1
61. Unlike automatic firearms, semiautomatic
firearms will fire only one round with a single trigger
pull, the same as a single shot, double barrel, bolt action, pump action, lever action, or revolving firearm.
1

For most of American history, civilians owned the same
firearms that were used by the military. Supica Decl., Ex. 13 at
pp. 4–5, ¶ 12. For instance, from the Revolutionary War through
World War I, Americans owned the same muskets, flint-lock rifles, six-shooters, and bolt action rifles that were used or issued
by the military. Id. It was the development of the automatic firearm that changed this, with automatic weapons being largely reserved for the military, and their semiautomatic versions being
used by civilians. Id.; see also Staples v. US., 511 U.S. 600, 602
(1994) (“The AR-15 is the civilian version of the military’s M-16
rifle, and is, unless modified, a semiautomatic weapon.”).

App. 111
See Supica Decl., Ex. 13 at p. 4, ¶¶ 10–11. To fire a subsequent round, the trigger must be released and pulled
again. Id. at p. 4, ¶ 11. Although many semiautomatic
rifles may bear a cosmetic appearance to fully automatic rifles,2 they are dissimilar in their basic modes
of operation. Id. Rather, the Banned Firearms are functionally identical to other, more traditional looking
commercial semiautomatic rifles. Id. Assuming similar
launch velocity and barrel twist rate, a projectile
launched by an AR-15 rifle is no more or less injurious
than if launched by a bolt, pump, lever action, or singleshot rifle. Boone Decl., Ex. 8 at p. 7, ¶ 13. Because
semiautomatic firearms shoot only as quickly as the
operator can pull the trigger, the Banned Firearms
shoot no more quickly than any other semiautomatic
firearm, including those explicitly exempted from the
Challenged Laws. Some common firearms that are not
prohibited by the Challenged Laws fire a greater number of lethal projectiles faster than the Banned Firearms. See Supica Decl., Ex. 13 at p. 1 ¶ 2, Att. A at p.
23.
62. Historical evidence shows that the Challenged Laws will have virtually no effect in combatting
2

Throughout history, advances in the development of individual firearms for military use and those for civilian use have,
for the most part, been the same, causing firearms in the separate
sectors to bear some similarities. See Supica Decl., Ex. 13 at ¶ 9.
For example, improvements in firearm technology tend to be
adopted for both military and civilian use. Id. As a result, soldiers
who become familiar with a particular type of firearm in the service tend to seek out similar type firearms for personal use after
leaving the military. Id.

App. 112
crime in Massachusetts. See Kleck Decl., Ex. 10 at p. 5,
¶ 10. Homicides committed using a rifle of any kind
(much less a Banned Firearm) are extremely rare in
Massachusetts and nationally. See id.
63. FBI Uniform Crime Reporting data indicates
that no murders were committed using a rifle in Massachusetts in 2010, 2011, 2012, and 2014. Id. Only one
murder was committed using a rifle of any kind in
2005, 2007, and 2015, and only two murders were committed using any rifle in 2006, 2008, and 2013. Id. In
some years (2006, for instance) more than twice as
many people were murdered with “hands and feet.” Id.
In sum, a total of eleven individuals were killed with a
rifle of any kind from 2005 through 2015 in Massachusetts. Id.; see also Deposition of David Solet, representative of the Executive Office of Public Safety and
Security, Ex. 18 at 51:9-57:7, Ex. 26 (FBI Uniform
Crime Reporting data on homicides from 2005 to
2015); see also Klein Dep., Ex. 17 at 17:5-8, 49:3-24,
50:1-6, 170:19-21; see also Deposition of Michael Halpin, General Counsel for the Massachusetts State Police, Ex. 16 at 49:14-24, 45:24-47:8, Ex. 27 at 5
(Massachusetts State Police statistical data showing
that, in 2016, Banned Firearms comprised only 1.5% of
total crime guns seized; and in 2015, Banned Firearms
comprised only .75% of total crime guns seized); Zani
Dep., Ex. 20 at 21:17–22:12.
64. Defendants acknowledge that they have no
comprehensive police data or records system that
reflects a link between the Banned Firearms and
Magazines and crime, see Halpin Dep., Ex. 16 at

App. 113
12:20–13:10, nor do they have proof that the Banned
Magazines are used to commit violent crimes in Massachusetts. See Klein Dep., Ex. 17 at 52:7-14. Defendants have not identified any reported incidents where
Banned Firearms and Magazines have been used in
assaults or shootings directed at law enforcement in
Massachusetts. See Klein Dep., Ex. 17 at 86:23-24;
171:20–21.
65. A ban on standard capacity magazines holding more than ten rounds will not reduce the number
of homicides and violent crimes committed in Massachusetts. See Kleck Decl., Ex. 10 at p. 2, ¶ 5 (“My research has found no link between a limit on magazine
capacity and the number of homicides or violent
crimes, and no such link can be found in the literature.”). Nor will such a ban cause any significant reduction in the number of gun-violence victims. Id. at p.
2, ¶ 6.
66. This is because criminals rarely actually discharge their firearm but rather use the gun only to
threaten the victim. Id. When criminals do fire their
weapons, they usually fire very few rounds. Id. at p. 3,
¶ 7. For instance, in a sample of Philadelphia gun homicides, the average number of rounds fired was 2.7 for
attacks committed with semiautomatic pistols, and 2.1
for those with revolvers. Id. Thus, in the vast majority
of instances in which an attacker fires his weapon, the
unavailability of magazines with capacities greater
than ten rounds would be inconsequential to the number of shots fired by the attacker and also to the number of victims. Id.

App. 114
67. As a result, “the Challenged Laws aim to fix
a small (perhaps non-existent problem) by hindering
the self-defense capabilities and endangering the lives
of every law-abiding Massachusetts citizen.” Id. at p. 5,
¶ 10.
E. The Notice of Enforcement Broadens
the Ban to Apply to Prior Transactions
of Firearms That Were Lawful at the
Time They Occurred.
68. Massachusetts law requires Defendants to
inspect records of all firearm transfers each year for
violations of law. G. L. c. 140, § 123.
69. Until the issuance of the Notice of Enforcement, transfers of Massachusetts Compliant Firearms,
which were “compliant to the Massachusetts General
Laws prior to July 20, 2016,” were “considered lawful”
by Defendants. See Zani Dep., Ex. 20 at 11:10–14, 16–
19, 2124, 12:1–4. Before the Notice of Enforcement was
issued, neither Defendants nor any other law enforcement agency took action to halt the transfers of Massachusetts Compliant Firearms. See Zani Dep., Ex. 20
at 13:19–14:6; see also O’Leary Decl., Ex. 6 at pp. 1–2,
¶ 4; Ricko Decl., Ex. 7 at p. 1, ¶ 3. In fact, between 7,000
and 12,000 “copies or duplicates” were sold in Massachusetts in 2015, Klein Dep., Ex. 17 at 62:8–16, without legal repercussions, see Deposition of David
Bolcome, Senior Investigatory for the Office of the
Attorney General, Ex. 14 at 22:9–17. Similar sales
occurred in 2013 and 2014. Id. at 25:7–9, 16–14; 37:14–

App. 115
17; 38:15–16. At the time, the Notice of Enforcement
had not yet been issued. See Klein Dep., Ex. 17 at 72:3–
9.
70. Prior to issuance of the Notice of Enforcement, Plaintiffs were never informed that the purchase or sale of Massachusetts Compliant Firearms
was illegal, and at no time was any action taken
against Plaintiffs by Defendants or any law enforcement agency despite the mandated records inspection.
See O’Leary Decl., Ex. 6 at pp. 1–2, ¶ 4; Ricko Decl., Ex.
7 at pp. 1–2, ¶ 3; Wallace Decl., Ex. 5 at p. 1–2, ¶ 5. Instead, Plaintiffs’ transactions of Massachusetts Compliant Firearms were repeatedly approved. See
O’Leary Decl., Ex. 6 at pp. 1–2, ¶ 4; Ricko Decl., Ex. 7
at pp. 1–2, ¶ 3; Wallace Decl., Ex. 5 at pp. 1–2, 115.
71. Plaintiffs relied upon Defendants’ repeated
confirmation to ensure that the firearms they bought
and sold were compliant with Massachusetts law. See
O’Leary Decl., Ex. 6 at pp. 12, ¶ 4; Ricko Decl., Ex. 7 at
pp. 1–2, ¶ 3; Wallace Decl., Ex. 5 at pp. 1–2, 115. Plaintiffs believed they were engaging in legal transactions.
See O’Leary Decl., Ex. 6 at pp. 1–2, ¶ 4; Ricko Decl., Ex.
7 at pp. 1–2, ¶ 3; Wallace Decl., Ex. 5 at pp. 1–2, 115.
72. Plaintiffs’ prior transactions of Massachusetts Compliant Firearms consummated before the effective date of the Notice of Enforcement were in good
faith compliance with all Massachusetts laws and
were processed with Defendants’ approval at the time
they occurred. Klein Dep., Ex. 17 at 161:16–162:4.

App. 116
73. The Notice of Enforcement provides no exception to its application to dealers for transfers made
before July 20, 2016. See Notice of Enforcement, Ex. 25
at p. 4.
74. As a result, all previous transactions consummated by GOAL, On Target, and Overwatch involving Massachusetts Compliant Firearms now
banned under the Notice of Enforcement could be
found to have been illegal sales of firearms under Massachusetts law, as well as federal law that criminalizes
sales of firearms not in compliance with state law. See
18 U.S.C. § 922(b)(2).
75. The Notice of Enforcement does not declare
that individual owners or licensed dealers who engaged in these transactions were complying with the
law at the time they sold Massachusetts Compliant
Firearms, nor does it declare that dealers are immune
from prosecution or loss of license for selling those firearms. See Notice of Enforcement, Ex. 25 at p.4 (stating
only that “[t]he Guidance will not be applied to future
possession, ownership, or transfer of Assault weapons
by dealers, provided that the dealer has written evidence that the weapons were transferred to the dealer
in the Commonwealth prior to July 20, 2016” and that
“[t]he Guidance will not be applied to possession, ownership or transfer of an Assault weapon obtained prior
to July 20, 2016.”).
76. Plaintiffs fear they will be subject to criminal
prosecution for their possession and transfer of the
Massachusetts Compliant Firearms prior to issuance

App. 117
of the Notice of Enforcement, even though the transactions were legal when they occurred, because of the Notice of Enforcement’s retroactive interpretation of the
Challenged Laws. See Wallace Decl., Ex. 5 at pp. 1–2,
¶¶ 5–6; O’Leary Decl., Ex. 6 at pp. 1–3, ¶¶ 4, 6; see also
Linden Decl., Ex. 2 at p. 2, ¶ 8; Worman Decl., Ex. 1 at
p. 2, ¶ 7; Sawyer Decl., Ex. 3 at pp. 2–3, 118.
F.

The Phrase “Copies or Duplicates” As
Used in the Ban Is Subject to Differing
Interpretations.

77. The phrase “copies or duplicates” in the Challenged Laws is not defined in the law itself, nor is the
phrase defined in the Federal Ban on which the statute
is based or in any other state law or court decision. See
Klein Dep., Ex. 17 at 123:8-11, 131:1–2.
78. Massachusetts law requires Defendants to
inspect records of all firearm transfers for violations.
See G. L. c. 140, § 123. By continuously inspecting firearms records and processing tens of thousands of applications for Massachusetts Compliant Firearms from
1998 up until the issuance of the Notice of Enforcement – a period of 18 years – the scope of the phrase
“copies or duplicates” in the Challenged Laws was interpreted by Defendants through practice and custom
to exclude Massachusetts Compliant Firearms. See Remarks of Attorney Gen. Maura Healey, Assault Weapons Ban Press Conference as Prepared for Delivery
(July 20, 2016), Ex. 24 at p. 3 (stating that over 10,000

App. 118
Massachusetts Compliant Firearms were sold in 2015
alone).
79. The Notice of Enforcement provides two circumstances under which a firearm is a “copy or duplicate” of an Enumerated Banned Firearm. See supra at
¶ 11. Massachusetts has no written protocol for determining whether a weapon is a copy or duplicate, other
than the Attorney General’s Notice of Enforcement.
Solet Dep., Ex. 18 at 73:7–12.
80. No single government official has “primary
responsibility” for determining when a weapon constitutes a copy or duplicate. Id. at 72:10–12. When asked
for the identities of people involved in developing the
Notice of Enforcement, Defendants could not pinpoint
anyone affiliated with the Massachusetts State Police
who was involved in determining whether particular
firearms were copies or duplicates. Halpin Dep., Ex. 16
at 18:16–19:5.
81. The Notice of Enforcement’s proposed guidance on the definition of “copies or duplicates” does not
clarify the statutory phrase. Political Science professor
Robert Spitzer, Defendants’ expert in firearms policy
could not articulate what certain phrases in the guidance mean, nor could he identify whether one of his
own firearms was a “copy or duplicate” under Massachusetts law. See Deposition of Robert Spitzer, Ex. 19
at 122:5–18.; 122:13–125:5 (“[T]hat depends on how
that phrase is interpreted under the law.”). Instead, he
stated that he would contact the Massachusetts State
Police to ask them whether a firearm was banned. Id.

App. 119
at 127:9–128:7. But, the Massachusetts State Police
stated that it does not answer such questions. See Halpin Dep., Ex. 16 at 24:9–25:6.
82. Defendants’ witnesses described procedures
for determining when a firearm qualifies as a copy or
duplicate, ranging from a visual inspection coupled
with extensive training to the examination of admittedly incomplete digital records. Compare Solet Dep.,
Ex. 18 at 76:1–9, Deposition of Michaela Dunne, Director of the Firearms Records Bureau, Ex. 15, 18:11–14
(“Any other firearm that could be considered an assault
weapon under the Federal assault weapons definition
we wouldn’t be able to tell, because we’d have to physically inspect the firearm.”), with Solet Dep., Ex. 18 at
22:19–23:7 (“[T]here’s never been an entry made [in
the state records] that says this is a copy or duplicate,
this is not a copy or duplicate. There’s no tab that you
could click that would say give me all the copies or duplicates[.]”).
83. To make an accurate determination of
whether a firearm is a “copy or duplicate,” a person
would need to inspect a weapon’s inner workings and
various parts, rendering a purely visual assessment incomplete. Bolcome Dep., Ex. 14 at 12:9–11, 49:5–9,
51:17–21; see also Halpin Dep., Ex. 16 at 61:21-62:8,
65:14-15, 65:18-66:3 (explaining that determining
whether a weapon is “substantially similar” to an Enumerated Banned Firearm requires an analysis of “the
internal structure and mechanism of the weapon”).
Thus, a person would also need extensive knowledge of

App. 120
every Enumerated Banned Firearm to make an accurate determination.
84. Most citizens’ only resource for clarification
is the Commonwealth’s website. Klein Dep., Ex. 17 at
118:5–7. If the website cannot provide a clear answer
(which happens “[i]n some cases,” see id. at 178:12–16),
Massachusetts requires the person to rely on the
seller—or even the manufacturer—to determine
whether a particular gun is a copy or duplicate of a
banned firearm. Id. at 147:10–20. (Q: How does the citizen wishing to purchase a semi-automatic rifle determine whether or not the internal functional
components are substantially similar in construction
and configuration to those of an enumerated weapon?
A: We expect in the first instance that the gun seller is
going to help them make that determination and that
the gun seller knows whether the gun, for example, is
effectively an AR-15 for all intents and purposes, but if
there was any doubt, the manufacturer would know.”).
Yet, Defendant Healey has accused the gun industry of
“openly def[ying] Massachusetts laws “for nearly two
decades.” See Press Release, AG Healey Announces Enforcement of Ban on Copycat Assault Weapons (July
20, 2016), Ex. 23 at p. 1. Defendant Healey made clear
in her remarks when issuing the Notice of Enforcement that the reason the Notice of Enforcement was
necessary was because the Defendants do not agree
with the determinations made by firearms sellers and
manufacturers: “[T]he gun industry has taken it upon
itself to interpret our assault weapons ban. . . . My office’s action today will give us the full protection of the

App. 121
state assault weapons ban – and not leave it to gun
manufacturers’ self-appointed interpretation.” See Remarks of Attorney Gen. Maura Healey, Assault Weapons Ban Press Conference as Prepared for Delivery
(July 20, 2016), Ex. 24 at pp. 3–4.
85 The Attorney General will not answer questions on the issue. See Bolcome Dep., Ex. 14 at 40:10–
13 (confirming it is not the position of the Attorney
General to answer questions about whether a Smith
and Wesson MP-15.22 would be considered a “copy or
duplicate” under the Notice of Enforcement).
86. Even Defendants and their witnesses have
difficulty determining how to apply the above-cited
tests. For example, in his deposition testimony, the Attorney General’s Office was unable to say whether a
semiautomatic rifle chambered in a different caliber
would be banned under the similarity test. Id. at
18:21—22. And the Attorney General’s Office was unable to answer whether a weapon would be banned if it
was rendered incapable of semiautomatic fire. Klein
Dep., Ex. 17 at 135:23–136:4. Furthermore, police departments in Massachusetts have no policy or written
guidance for determining substantial similarity. Halpin Dep., Ex. 16 at 67:15–20, 68:9–15. Because not all
officers are “trained on the internal components of the
enumerated banned firearms,” individual officers without training on the Banned Firearms will be called
upon to apply the Notice of Enforcement’s technical
“similarity” test to determine when probable cause for
an arrest exists. See id. at 68:23–69:6, 69:8–11, 69:13–
18.

App. 122
87. The Notice of Enforcement provides that a
manufacturer’s advertising of a particular firearm will
be “relevant” in determining whether it is a “copy or
duplicate.” See Notice of Enforcement, Ex. 25 at 4. But
the Notice of Enforcement does not articulate what
“relevant” means or how relevance will be used to determine if a firearm is a “copy or duplicate.” Id. Most
police officers do not receive training on the marketing
of firearms. Halpin Dep., Ex. 16 at 72:3–7.
88. The Notice of Enforcement also states that a
firearm that qualifies as a “copy or duplicate” will remain a “copy or duplicate,” even if it is altered to no
longer meet these tests. See Notice of Enforcement, Ex.
25 at 4. Plaintiffs cannot even rely on the current configuration of the firearm when trying to determine if a
firearm is a banned “copy or duplicate,” but must also
be aware of the firearm’s historical configuration. See
id. (“If a weapon, as manufactured or originally assembled, is a Copy or Duplicate under one or both of the
applicable tests, it remains a prohibited Assault
weapon even if it is altered by the seller.”).
89. Plaintiffs are uncertain whether their firearms, or firearms they wish to purchase, constitute a
“copy or duplicate” of an “assault weapon,” because of
the lack of clarity in the Challenged Laws and the Notice of Enforcement. See Ricko Decl., Ex. 7 at p. 2, ¶ 5;
Chamberlain Decl., Ex. 4 at p. 1, ¶ 4; O’Leary Decl., Ex.
6 at p. 2, ¶ 5; Worman Decl., Ex. 1 at p. 2, ¶ 5, 7; Sawyer
Decl., Ex. 3 at p. 2, ¶ 4.

App. 123
Dated: December 15, 2017
Respectfully submitted,
/s/ James M. Campbell
James M. Campbell (BBO#541882)
Richard P. Campbell (BBO # 071600)
Campbell Campbell Edwards & Conroy
One Constitution Center
Boston, MA 02129
(617) 241-3000
jmcambpell@campbell-trial-lawyers.com
/s/ John Parker Sweeney
John Parker Sweeney (admitted Pro Hac Vice)
T. Sky Woodward (admitted Pro Hac Vice)
James W. Porter, III (admitted Pro Hac Vice)
Marc A. Nardone (admitted Pro Hac Vice)
Connor M. Blair (admitted Pro Hac Vice)
BRADLEY ARANT BOULT CUMMINGS LLP
1615 L Street N.W., Suite 1350
Washington, D.C. 20036
P (202) 719-8216 F
(202) 719-8316
isweeney@bradley.com
Counsel for Plaintiffs, David Seth Worman,
Anthony Linden, Jason William Sawyer,
Paul Nelson Chamberlain, Gun Owners’
Action League, Inc., On Target Training,
Inc., and Overwatch Outpost
[Table Of Exhibits And Certificate Of Service Omitted]

App. 124
DECLARATION OF DAVID SETH WORMAN
I, David Seth Worman, under penalty of perjury,
declare and state, to the best of my knowledge, information and belief, as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration and am competent to testify to the matters
stated below,
2. I am a licensed physician, specializing in orthopedic surgery. I am a responsible, law abiding citizen, I live in Newton, Massachusetts, and I have been
a citizen of the Commonwealth of Massachusetts since
2003.
3. I lawfully own firearms which may be classified as a “copy or duplicate” of an “assault weapon” under the tests set forth in the July 20, 2016 Notice of
Enforcement, purchased these firearms in Massachusetts after the enactment of G. L. C. 140 § 121 & 131M,
but before Defendant Healey issued the Notice of Enforcement. Before the Notice of Enforcement, I was
never informed that my purchases were or may have
been illegal. Nor did any law enforcement agency attempt to halt these transactions. Instead, these transactions were approved by Defendants. I relied upon
this approval, and I believed I was engaging in legal
activity. I also own several pistols that are designed for,
and come standard with, detachable magazines which
hold in excess of ten rounds. I lawfully own multiple
detachable magazines which hold in excess of ten
rounds.

App. 125
4. I own my firearms primarily for defense of my
home and my family. I fortunately have never had occasion to use any of my firearms in self-defense, but it
is an unfortunate reality that there will be times when
the police or the government simply will not be able to
help me. The firearms that I own that may be classified
as “assault weapons” possess features which make
them ideal for self-defense in the home. I also possess
these firearms for recreational target shooting and as
collector’s items.
5. I desire to purchase additional full-sized semiautomatic firearms with standard detachable magazines holding in excess of ten rounds after July 20,
2016, if allowed to do so by law. However, I cannot do
so because I cannot determine whether these firearms
are “copies and duplicates” as that term is vaguely defined in the Notice of Enforcement. I cannot make this
determination because the Notice of Enforcement is
vague and because of the uncertainty of Defendants’
interpretations of the phrase “copies or duplicates.”
6. I am a responsible firearms owner. I have taken
numerous safety and training courses. Several of these
courses are designed for training in self-defense. Moreover, I keep my firearms stored in a locked safe in my
home.
7. Because the Office of the Attorney General “reserves the right to amend th[e] guidance” in the Notice
of Enforcement, I live in fear that my possession of firearms will become criminalized. I believe that G. L. C.
1140 § 121 & 131M and the July 20, 2016 Notice of

App. 126
Enforcement violate my civil rights. I also believe the
Notice of Enforcement is vague and confusing as to
what is prohibited and what is not.
I solemnly affirm under the penalties of perjury
that the contents of the foregoing paper are true to the
best of my knowledge, information, and belief.
/s/ David Seth Worman
David Seth Worman

12-13-17
Date

DECLARTION OF ANTHONY LINDEN
I, Anthony Linden, under penalty of perjury, declare and state, to the best of my knowledge, information and belief, as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration and am competent to testify to the matters
stated below.
2. I am a responsible, law-abiding citizen of Massachusetts. I live in North Dighton, Massachusetts.
3. I lawfully own a firearm which may be classified as a “copy or duplicate” of an “assault weapon” under the tests set forth in the July 20, 2016 Notice of
Enforcement. It is an AR-15 style firearm that I custom
built myself. I purchased the parts for this firearm and
assembled it after the enactment of G. L. C. 140 § 121
& 131M, but before Defendant Healey issued the Notice of Enforcement. This firearm was designed for

App. 127
detachable magazines which hold in excess of ten
rounds. I lawfully own several detachable magazines
which hold in excess of ten rounds.
4. I have polyarthritis, a type of arthritis that involves five or more joints simultaneously. As a result of
this disease, it is difficult for me to operate quickly and
effectively some types of firearms. Accordingly, I require access to AR-platform rifles and full-capacity
magazines to fully utilize my firearms at the practice
range, while I hunt, and to ensure my ability to defend
myself in my home if necessary. The AR-15 style firearm that I own possesses features which makes it ideal
for someone with my disease.
5. I plan on purchasing additional full-sized semiautomatic firearms with standard detachable magazines holding in excess of ten rounds after July 20,
2016, if allowed to do so by law.
6. The primary purpose for owning my firearms
is for hunting, recreational shooting, and self-defense
of my home and my family, I enjoy spending time with
my son at the shooting range.
7. I am a responsible firearms owner. I have
taken numerous safety and training courses. I keep my
firearms stored in locked safes in my home.
8. I believe the Second Amendment protects certain individuals’ rights to own and possess firearms
that are in common use for lawful purposes. I believe
that G. L. c. 140 § 121 & 131M and the Notice or Enforcement unconstitutionally infringe upon my Second

App. 128
Amendment rights. Further, because the Office of the
Attorney General “reserves the right to amend th[e]
guidance” in the Notice of Enforcement, I live in fear
that my possession of firearms will become criminalized.
I solemnly affirm under the penalties of perjury
that the contents of the foregoing paper are true to the
best of my knowledge, information, and belief.
/s/ Anthony Linden
Anthony Linden

12/12/17
Date

DECLARATION OF JASON WILLIAM SAWYER
I, Jason William Sawyer, under penalty of perjury,
declare and state, to the best of my knowledge, information and belief, as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration and am competent to testify to the matters
stated below.
2. I was honorably discharged from the Marine
Corps after serving five years of active duty service and
an additional three years of inactive reserves for a total enlistment of eight years. I achieved the rank of

App. 129
Corporal (E-4) during my service. While on active duty,
my primary weapon was an M-16A2. From time to
time, I was also issued other weapons, including an M9
service pistol. In the military, I received extensive
weapons training, including training with various firearms. I have also taken numerous firearms courses
since leaving the military. I am an NRA certified instructor as well as a Massachusetts State Police certified instructor.
3. Now, as a civilian, several of the firearms that
I own may be classified as “assault weapons.”
4. The primary purpose for owning my firearms
is for competitive shooting events. I’m a nationally
ranked competitive shooter, competing primarily in
the “Across the Course High Power” event. A typical
across the course high power match requires competitors to fire at 200, 300 and 600 yard distances from the
targets. For competitive shooting events, I use AR-15
platform rifles—firearms that are banned by G. L. C.
140 § 121 & 131M or may be banned as a “copy or duplicate” under the tests set forth in the July 20, 2016
Notice of Enforcement. Accordingly, I lawfully own firearms which may be classified as a “copy or duplicate”
of an “assault weapon” under the tests set forth in the
July 20, 2016 Notice of Enforcement. I purchased
these firearms in Massachusetts after the enactment
of G. L. C. 140 § 121 & 131M, but before Defendant
Healey issued the Notice of Enforcement. Before the
Notice of Enforcement, I was never informed that
these purchases were or may have been illegal. Nor did
any law enforcement agency attempt to halt these

App. 130
transactions. Instead, these transactions were approved by Defendants. I relied upon this approval, and
I believed I was engaging in legal activity. I also own
several pistols that are designed for, and come standard with, detachable magazines which hold in excess
of ten rounds. I lawfully own several detachable magazines which hold in excess of ten rounds. Further, I
wish to purchase certain firearms that may be classified as a “copy or duplicate” of an “assault weapon,” but
I cannot do so because of the uncertainty of Defendants’ interpretations of the phrase “copies or duplicates.”
5. I also possess firearms for self-defense and defense of my home. Firearms that may be classified as
“assault weapons” possess features which make them
ideal not only for competitive shooting, but also for selfdefense in the home. Because they are lightweight,
have relatively little recoil, and are available with an
adjustable stock, they are the easiest firearm to shoot
accurately.
6. I live in Melrose, Massachusetts. I have lived
in Massachusetts since late 2000 or early 2001. I attended Northeastern University on the GI Bill. I currently work in the software industry as a presales
engineer.
7. I am a responsible, law-abiding firearms
owner. Through my military experience, competitive
shooting practice, and numerous training courses, I am
well-versed on how to safely and properly own and use

App. 131
firearms. Moreover, I keep my firearms stored in a
locked safe in my home.
8. Because the Office of the Attorney General “reserves the right to amend th[e] guidance” in the Notice
of Enforcement, I live in fear that my possession of firearms will become criminalized. I believe that G. L. C.
140 § 121 & 131M and the July 20, 2016 Notice of Enforcement violate my civil rights.
I solemnly affirm under the penalties of perjury
that the contents of the foregoing paper are true to the
best of my knowledge, information, and belief.
/s/ Jason William Sawyer
Jason William Sawyer

12-12-17
Date

DECLARATION OF
PAUL NELSON CHAMBERLAIN
I, Paul Nelson Chamberlain, under penalty of perjury, declare and state, to the best of my knowledge,
information and belief, as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration and am competent to testify to the matters
stated below.
2. I live in East Weymouth, Massachusetts. Except for two years I spent in New Hampshire, I am a
lifelong resident of the Commonwealth of Massachusetts.

App. 132
3. I work as a safety manager and have done
so for the past 17 years. As a safety manager, my responsibilities include analyzing, understanding, and
ensuring compliance with various complex Environmental Protection Agency (EPA) and Occupational
Safety and Health Administrative (OSHA) rules and
regulations.
4. Even with my experience interpreting complex regulations, I cannot determine whether certain
firearms I may wish to purchase are prohibited by G.
L. C. 140 § 121 & 131M and the July 20, 2016 Notice of
Enforcement because the Notice of Enforcement is
vague and because of the uncertainty of Defendants’
interpretations of the phrase “copies or duplicates.”
5. Although I do not currently possess firearms
that are banned by G. L. C. 140 § 121 & 131M and the
July 20, 2016 Notice of Enforcement, I wish to do so,
and I would do so but for the prohibition. I am a responsible, law-abiding citizen, and I would purchase
these firearms for, among other things, self-defense in
my home. I do, however, lawfully own several detachable magazines which hold in excess of ten rounds. I
secure my firearms and magazines in a safe in my
home.
/s/ Paul Nelson Chamberlain
Paul Nelson Chamberlain

12/12/17
Date

App. 133
DECLARATION OF JAMES WALLACE
I, James Wallace, under penalty of perjury, declare
and state, to the best of my knowledge, information
and belief, as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration and am competent to testify to the matters
stated below.
2. I am the Executive Director of Gun Owners’
Action League, Inc. (“GOAL”) and have been in this position since 2005. I have worked at GOAL in other positions since 2000. Before working with GOAL, I
served in the United States Army.
3. GOAL is a nonprofit corporation that is dedicated to promoting safe and responsible firearms ownership, marksmanship competition, and hunter safety
throughout Massachusetts. For over 40 years, GOAL
has helped protect and preserve Massachusetts citizens’ Second Amendment rights. It is the leading advocate in Massachusetts for its more than 15,000
members, consisting of current and future gun owners,
hunters, and conservationists as well as firearm and
marksmanship clubs. GOAL also offers firearms safety
classes.
4. To aid in its firearms safety classes, GOAL
possesses firearms which may be classified as a “copy
or duplicate” of an “assault weapon” under the tests set
forth in the July 20, 2016 Notice of Enforcement.
GOAL also possesses several pistols that are designed

App. 134
for, and come standard with, detachable magazines
which hold in excess of ten rounds. It also lawfully possesses multiple detachable magazines which hold in
excess of ten rounds.
5. GOAL possesses a number of firearms-related
licenses, including a federal firearms license and a
Massachusetts License to Sell Ammunition. GOAL
lawfully owns, and before July 20, 2016 sold, firearms
which may be classified as a “copy or duplicate” of an
“assault weapon” under the tests set forth in the July
20, 2016 Notice of Enforcement. GOAL transferred
these firearms in Massachusetts after the enactment
of G. L. C. 140 § 121 & 131M, but before Defendant
Healey issued the Notice of Enforcement. Before Attorney General Healey issued the Notice of Enforcement,
GOAL was never informed that its transfers were or
may have been illegal. At no time was any action taken
against it by any law enforcement agency to halt or
prevent these transactions; Defendants instead approved them. GOAL relied upon this approval and believed it was engaging in legal activity.
6. GOAL and its membership are harmed by the
combination of the Notice of Enforcement and the
Challenged Laws because they cannot acquire the
most popular semiautomatic rifles and standard capacity magazines sold today. This has an appreciable
effect on their meaningful ability to defend themselves
in the home, and constitutes a manifest violation of
their Second Amendment rights. Additionally, the Notice of Enforcement has the further effect of retroactively criminalizing what had been accepted, lawful

App. 135
behavior, placing both GOAL and its membership in an
untenable legal position, for which the alleged “safe
harbor” provision in the Notice of Enforcement provides no meaningful relief.
/s/ James Wallace
James Wallace

12/13/17
Date

DECLARATION OF ON EDWARD O’LEARY
I, Edward O’Leary, under penalty of perjury, declare and state, to the best of my knowledge, information and belief, as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration and am competent to testify to the matters
stated below.
2. I live in East Bridgewater, Massachusetts,
where I have owned On Target Training since 1998. I
am a lifelong resident of the Commonwealth of Massachusetts, and I served as a police officer for 32 years,
retiring in 2012. I was also an adjunct professor in
criminal justice, constitutional law, evidence, and other
subjects at Massasoit Community College and Anna
Maria College. I am also an NRA certified firearms instructor.
3. On Target Training is a family-owned retail
gun store and training facility. I am the sole owner, and
my wife and daughter are employees. On Target Training is a federal firearm licensed dealer. It is also

App. 136
licensed in Massachusetts to perform services as a
gunsmith, to sell, rent or lease firearms, rifles, shotguns or machine guns, and to sell ammunition.
4. In addition to selling ammunition, holsters,
safety glasses, ear protection, and cleaning supplies,
On Target Training engages in the sale of firearms. We
sell handguns, shotguns, and rifles. Until the effective
date of the Notice of Enforcement, On Target Training
sold firearms that may be banned under the tests set
forth in the Notice of Enforcement. On Target Training
intends to and, but for the credible threat of prosecution under the Notice of Enforcement and G. L. C. 140
§ 121 & 131M, would continue to sell these constitutionally protected firearms and magazines. Before
Attorney General Healey issued the Notice of Enforcement, On Target was never informed that its transfers
were or may have been illegal. At no time was any action taken against it by any law enforcement agency to
halt or prevent these transactions; Defendants instead
approved them. On Target relied upon this approval
and believed it was engaging in legal activity.
5. My company suffers ongoing economic harm
because it can no longer sell these constitutionally protected firearms and magazines. On Target Training is
losing money. On Target Training suffers further harm
because of the vagueness of the Notice of Enforcement,
which prevents me from knowing what firearms I can
lawfully sell. Accordingly, there are a number of rifles
I would sell but cannot because I either cannot sell
them or I cannot be certain if I can lawfully sell them
and fear prosecution if I attempt to sell them. Rifle

App. 137
sales have almost completely ceased. Sales of large capacity magazines are also down about 50% since the
enactment of the Notice of Enforcement, and ammunition sales are also down significantly since the enactment of the Notice of Enforcement.
6. I also fear that my transactions involving firearms that may be banned under the tests set forth in
the Notice of Enforcement may be retroactively criminalized, even though they were commonly understood
to be lawful and accepted at the time, and even though
the State of Massachusetts recorded and approved of
each such transaction. The Notice of Enforcement has
cast aside decades of common practice and presumptively legal conduct, and declared that dealers like me
had conducted hundreds if not thousands of transactions that were illegal under Massachusetts law at the
time they were made. Attorney General Healey’s refusal to state that transfers that occurred in the past
were legal at the time they occurred has clarified the
State’s position on this. Her statement that “[t]he
Guidance will not be applied to future possession, ownership or transfer of Assault weapons by dealers, provided that the dealer has written evidence that the
weapons were transferred to the dealer in the Commonwealth prior to July 20, 2016, and provided further
that a transfer made after July 20, 2016, if any, is
made to persons or businesses in states where such
weapons are legal” provides no guarantee that my
then-legal transfers are not now retroactively illegal.
If these transactions are deemed illegal, I could be in
violation of federal law and, at a minimum, could lose

App. 138
my federal firearms license and other firearms-related
licenses.
/s/ Edward O’Leary
Edward O’Leary

12/12/2017
Date

DECLARATION OF CHARLES RICKO
I, Charles Ricko, under penalty of perjury, declare
and state, to the best of my knowledge, information
and belief, as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration and am competent to testify to the matters
stated below.
2. I live in Charlemont, Massachusetts, where I
own Overwatch Outfitters and where I have served as
a volunteer police officer for the past 10 years.
3. Overwatch Outpost is a federal firearm licensed dealer. It is also licensed in Massachusetts to
perform services as a gunsmith, to sell, rent or lease
firearms, rifles, shotguns or machine guns, and to sell
ammunition. Overwatch Outpost is an “outfitter,”
meaning it caters to all of its customers’ outdoors
needs. In addition to general fishing and hunting
needs, Overwatch Outfitters engages in the sale of firearms. Approximately 70% of my revenue comes from
firearms sales. Overwatch Outfitters intends to and,
but for the credible threat of prosecution under the Notice of Enforcement and G. L. C. 140 § 121 & 131M,
would continue to sell these constitutionally protected

App. 139
firearms and magazines that are banned under the Notice of Enforcement and G. L. C. 140 § 121 & 131M. Before Attorney General Healey issued the Notice of
Enforcement, Overwatch Outpost was never informed
that its transfers were or may have been illegal. At no
time was any action taken against it by any law enforcement agency to halt or prevent these transactions;
Defendants instead approved them. Overwatch Outpost relied upon this approval believed it was engaging
in legal activity.
4. Until the effective date of the Notice of Enforcement, Overwatch Outfitters sold firearms that
may be banned under the tests set forth in the Notice
of Enforcement. I fear that my transactions involving
these firearms may retroactively be deemed illegal. I
understood these transactions to be legal at the time
they occurred—the State of Massachusetts recorded
and approved each such transaction. The Notice of Enforcement declared that dealers like me that had conducted hundreds if not thousands of presumptivelylegal and then-accepted transactions may have in fact
been violating Massachusetts law at the time these
transactions occurred. Attorney General Healey’s refusal to state that transfers that occurred in the past
were legal at the time they occurred has clarified the
State’s position on this. Her statement that “[t]he
Guidance will not be applied to future possession, ownership or transfer of Assault weapons by dealers, provided that the dealer has written evidence that the
weapons were transferred to the dealer in the Commonwealth prior to July 20, 2016, and provided further
that a transfer made after July 20, 2016, if any, is made

App. 140
to persons or businesses in states where such weapons
are legal” provides no guarantee that my then-legal
transfers are not now retroactively illegal. If these
transactions are deemed illegal, I could be in violation
of federal law, and, at a minimum, could lose my federal firearms license and other firearms-related licenses.
5. Additionally, my company suffers ongoing
economic harm because it can no longer sell these constitutionally protected firearms and magazines. Overwatch Outpost suffers further harm because of the
vagueness of the Notice of Enforcement, which prevents me from knowing what firearms I can lawfully
sell. Accordingly, there are a number of firearms I
would sell but cannot because I either cannot sell them
or I cannot be certain if I can lawfully sell them and
fear prosecution if I attempt to sell them.
/s/ Charles Ricko
Charles Ricko

December 12, 2017
Date

DECLARATION OF J. BUFORD BOONE III
I, J. Buford Boone III, under penalty of perjury, declare and state as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration, and am competent to testify to the matters
stated below.

App. 141
2. I am enclosing a copy of my expert report in
this matter as Attachment A, the contents of which are,
to the best of my knowledge and belief, true and accurate, with the exception that there is a typographical
error on page 3, paragraph 2, line 3 where “1988”
should actually read “1998”. I hereby adopt and incorporate that report as if set forth fully herein.
3. I am qualified to provide expert testimony regarding ballistics and defensive uses of firearms in this
matter. I am currently the owner and founder of Boone
Ballistics, LLC. I am a retired Supervisory Special
Agent (SSA) of the Federal Bureau of Investigation
(FBI), where I worked from 1988 to 2012. I was the primary SSA with oversight of the FBI Ballistic Research
Facility (BRF) from 1997 to 2012. The BRF has responsibility for testing and evaluating all ammunition, firearms, and body armor used operationally by the FBI.
At the BRF, I:
a.

performed or directed all functions of the
BRF, including overseeing all aspects of
the BRF’s research;

b.

was the primary source of ballistic information regarding ammunition, firearms,
and body armor for all FBI Agents;

c.

directed the creation of a procurement of
5.56mm NATO ammunition using piezoelectric conformal transducers for pressure testing;

d.

was the primary author of the FBI Body
Armor Test Protocol and was the primary

App. 142
author of specifications for ammunition
procurements (for both training and operational/"service” use) for the FBI;
e.

provided expertise to the Special Operations Community and helped the BRF
form a strong liaison with the Department of Defense. In fact, the Department
of Defense Law of War Chair, during my
time of oversight of the BRF, established
protocol that all new DOD small arms
munitions required testing and evaluation by the FBI BRF prior to legal authorization being granted for their use;

f.

represented, at the request of the Department of Defense, the United States in
Darligen, Switzerland in discussions of
wound ballistics;

g.

provided numerous live-fire terminal ballistic demonstrations to local, state and
federal law enforcement officers as well
as to all branches of the United States
Military;

h.

conducted international presentations on
wound ballistics, ammunition selection,
weapon selection, and body armor;

i.

briefed the Secretary of the Army and
provided, at his request, my professional
opinion of a 5.56mm NATO cartridge intended to replace the M855;

j.

functioned as the primary instructor of 40
Basic Law Enforcement Sniper/Observer

App. 143
schools (52 total: 6 before BRF assignment, 6 in retirement);
k.

earned the 2008 recipient of the National
Defense Industrial Association Joint Armaments Committee’s Gunnery Sergeant
Carlos Hathcock Award; and

l.

authored the following publications at
law enforcement or a governmental official’s request:
i.

Review of Accuracy 1st Training;

ii.

Weapon Selection – Revision III;

iii. Ammunition Selection 2007;
iv. TSWG MURG Briefing Accuracy Expectations;
v.

AIM III TSWG Briefing 3/16/2010;

vi. Wound Ballistics; and
vii. B2 Sniper Rifle Cleaning Method.
Prior to working in the BRF in 1997, I served as an FBI
Special Agent in New Haven, Connecticut, beginning
in 1988, where I became trained, qualified, and experienced as a Firearms Instructor in 1989. I was promoted
to the position of Principal Firearms Instructor for the
New Haven Division in 1992. I was promoted to Supervisory Firearms Instructor at the FBI Academy in
Quantico in 1996. Before working for the FBI, I was a
police officer with the Tuscaloosa, Alabama, Police Department. My detailed CV is included in Attachment
A. I am intimately familiar with the matters of my

App. 144
testimony, which is based upon external sources as
well as my own experience. My opinions were not developed for purposes of any expert testimony.
4. I was qualified as an expert witness in ballistics and terminal effects of small arms projectiles and
provided in-court testimony in the Western District of
Virginia [U.S. v. Armet Armored Vehicles, No. 4:12-cr0021] on September 28, 2017. I have provided expert
testimony in only one other case, Kolbe v. O’Malley, No.
1:13-cv-02841 (D. Md.) on January 2, 2014. My qualifications as an expert witness were not challenged in
that case.
5. Semiautomatic rifles mischaracterized and
defined by Massachusetts as “assault weapons”, particularly those based on the AR-15 platform, are well
suited for defensive shooting—shooting use in defense
of self, others, and home. Further, standard capacity
magazines (those for which the firearm was designed)
are appropriate and potentially necessary for successful defense of oneself or home.
6. Put simply, semiautomatic rifles, including rifles based on the popular AR-15 platform, are among
the best firearms for defensive shooting. Effective defensive shooting requires stopping the human aggressor as quickly as possible, and certain attributes of
semiautomatic rifles make them the ideal firearm for
defensive shooting. When properly selected, the ammunition for which AR-15 semiautomatic rifles typically
are chambered (.223 caliber Remington or 5.56 NATO,
which are very similar) is more effective and reliable

App. 145
at stopping human attackers than the best ammunition of handgun calibers typically used for defensive or
law enforcement purposes. The penetration range of
the aforementioned .223/5.56mm ammunition, as
shown in testing conducted by the FBI and other agencies, is 12–18”. This is the range which the FBI has determined is the most desirable for effectiveness.
7. Semiautomatic rifles of the AR-15 variety are
among the easiest firearms to shoot accurately and are
appropriate for close-quarter encounters. These rifles
generally have the following additional characteristics
which make them particularly suitable for defensive
purposes:
a.

They are relatively lightweight;

b.

They are available with a telescoping/adjustable stock;

c.

They have a vertical pistol grip;

d.

They are semi-automatic and can be fired
with one hand;

e.

They are chambered for cartridges that
can be effective while having relatively
mild recoil; and

f.

They utilize magazines with a standard
capacity of 20 or 30 rounds.

8. Certain optional features available for semiautomatic rifles further enhance their suitability for
defensive shooting. For instance, a telescoping/adjustable stock allows for a more compact overall size,
thereby enhancing the user’s ability to maneuver in

App. 146
the tight spaces of a home (though this feature does
not contribute meaningfully to the concealability of the
rifle as the adjustment range is typically only about
three inches, which is enough to make a critical difference in maneuverability without significantly enhancing concealability). This feature also enables the
firearm to be quickly adjusted to fit people of different
statures. The vertical pistol grip design is easier to operate with one hand than traditional pistol grips. This
can be of particular benefit when the user needs to use
one hand to hold a flashlight or call 911. By contrast,
pump, lever and bolt action firearms typically require
two hands to function if more than one shot is required.
Finally, the most common chambering used in AR-15
semiautomatic rifles is effective when the proper projectile is used, and its relatively mild recoil renders it
easily mastered by persons of slight stature.
9. To conclude that the semiautomatic rifle is
well-suited for defensive shooting, one need look no
further than the fact that the AR-15 rifle is the most
common rifle in use by American law enforcement (including the FBI), who may discharge their firearms for
defensive purposes only.
10. Handguns, by contrast, are less effective firearms than semiautomatic rifles in defensive shooting
situations for two reasons. First, handguns typically
used for defensive purposes offer far less terminal effectiveness. Second, handguns are more sensitive to
shooter technique and therefore are much more difficult to fire accurately than a semiautomatic rifle.

App. 147
11. Semiautomatic rifles are superior to shotguns for defensive shooting for three reasons. First, effective shotgun ammunition has significantly more
recoil than a 5.56 mm semiautomatic rifle and is therefore more difficult to fire repeat shots accurately. It is
a common misapprehension that the “spread” of shotgun pellets1 make accuracy less critical when using a
shotgun. This is not the case, as the most common defensive shotgun rounds, for instance a 00 buckshot
used in a 2 3/4” 12 gauge shotgun, commonly spread
beyond the scoring area of the FBI target, which is
based on the size of a human torso, even when fired
from a distance of only 21 feet. This means that the
increase in hit probability is accompanied by the likelihood that some projectiles will miss. The increased
probability of projectiles missing the intended target
also increases the risk to unintended targets (innocent
people). Second, shotguns typically have a capacity of
between two and eight rounds, most commonly five.
This inherently limits shotguns’ effectiveness in defensive shooting situations requiring more than two to
eight rounds. Third, effective shotgun ammunition’s
penetration range is unnecessarily deep, practically
guaranteeing pass-thru shots, and posing considerable
danger to others in the area.
12. A limit on a magazine’s capacity may hinder
defensive shooting, as evidenced by the fact that nearly
1

A shotgun can fire multiple projectiles with each pull of the
trigger. For instance, if 00 buckshot is used in a 2 3/4" 12 gauge
shotgun, multiple (between 8 and 12) .32" lead balls are expelled
with each shot.

App. 148
all law enforcement agencies, including the FBI, issue
their officers magazines capable of holding more than
10 rounds of ammunition. To successfully survive a violent encounter, the FBI teaches its agents to fire until
the threat is eliminated. There is no minimum or maximum amount of shots per subject. If a 30 round magazine is used and only one shot is required, the victim
has stopped his attacker. If, however, a 10 round magazine is used and 12 rounds are required to stop the
attacker(s), the victim could very likely be injured and
might not survive. The best evidence of the appropriateness of magazine capacity can be found by looking
at those issued by the FBI’s Defensive Systems Unit
(“DSU”), which administers the FBI’s ammunition and
firearms support for its operations personnel. The DSU
issues 30 round magazines. In fact, I am unaware of
any US law enforcement agency that issues AR-15
magazines of less than 20 round capacity. And, in my
experience, 20 round magazines are the exception; 30
round magazines are the norm. It can only be concluded that US law enforcement believes that 30 round
magazines are the most appropriate choice for defensive purposes when using an AR-15 rifle. Moreover,
standard magazines for the currently issued FBI
handgun (Glock 17 or 19) hold 17 or 15 rounds. The
previous standard issue FBI handgun was the Glock
22. Its magazines held 15 rounds. During my time at
the BRF, Glock manufactured a 10 round magazine
for the Glock 22 pistol, but, to my knowledge, the FBI
has never used the 10 round magazine. Nor am I aware
of any law enforcement agency that issues pistol

App. 149
magazines that are restricted below standard capacity
to some arbitrary limit like 10.
13. Firearms, by themselves, are rarely used to
cause injury. Though there are instances of a firearm
being used as an impact weapon, most injuries attributed to a firearm are more correctly attributed to a
projectile launched by that firearm. Assuming similar
launch velocity and barrel twist rate, a projectile
launched by an AR-15 rifle is no more or less injurious
than if launched by a bolt, pump, lever action or singleshot rifle. There is no scientific way to accurately characterize “wounds caused by an AR-15” as any more or
less injurious than those caused by any other, similarly
chambered, firearm.
14. Projectile design, in conjunction with the cartridge in which it is loaded, is the primary factor of effectiveness. All .223/5.56 cartridges are not equal. To
characterize the .223/5.56 as “high power” ignores the
fact that identical projectiles can be loaded to higher
velocity in other cartridges. The .223/5.56 is not legal
in some states for hunting whitetail deer while other
(“more powerful”) cartridges, such as the .243 and
above, are allowed.
15. With respect to the ability to quickly launch
projectiles, it should be remembered that a shotgun,
chambered for 3” 12ga, is capable of firing 41 supersonic projectiles of .24” diameter with each trigger pull.

App. 150
I declare under penalty of perjury that the foregoing is true and correct.
/s/ J. Buford Boone III
J. Buford Boone III

12/12/2017
Date

DECLARATION OF GARY KLECK
I, Gary Kleck, under penalty of perjury, declare
and state as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration, and am competent to testify to the matters
stated below.
2. I am attaching a copy of my expert report in
this matter as Attachment A, the contents of which are,
to the best of my knowledge and belief, true and accurate. I hereby adopt and incorporate that report as if
set forth fully herein.
3. I am qualified to provide expert testimony regarding criminology, specifically the impacts of gun
control, in this matter. I have a Ph.D. in sociology and
am a Professor Emeritus of Criminology and Criminal
Justice at Florida State University. During my years
as a professor, I have extensively researched and written about the subject of gun control and am a nationally-recognized authority on this subject. I have
published and presented extensively on the issues of
guns, violence, and gun control. I have closely examined news media accounts of every large-scale mass

App. 151
shooting (more than six victims killed or injured) committed in the United States from 1987 through July
2013 in which it was known that a large-capacity magazine with the capacity to hold more than 10 rounds (a
“large capacity magazine”) was used, with a focus on
whether large capacity magazine use by the killers affected the number of victims shot. I have testified before Congress and state legislatures on gun control
issues, and worked as a consultant to the National Research Council, National Academy of Sciences Panel on
the Understanding and Prevention of Violence, as a
member of the U.S. Sentencing Commission’s DrugsViolence Task Force, and as a member of the Institute
of Medicine and National Research Council Committee
on Priorities for a Public Health Research Agenda to
Reduce the Threat of Firearm-Related Violence. My
full background can be reviewed in the attached Curriculum Vitae, which is included in Attachment A. I am
intimately familiar with the matters of my testimony,
which is based upon external sources as well as my
own experience. My opinions were not developed for
purposes of any expert testimony.
4. I have participated as an expert witness regarding gun control and provided deposition testimony
in the Northern District of Illinois [Illinois Assoc. of
Firearms Retailers v. Chicago, No., 1:10-cv-04184] on
October 28, 2011; the District of Columbia [Parker v.
District of Columbia, No., 03-cv-00213], on July 2,
2013; the District of Colorado [Cook v. Hickenlooper,
No. 13-cv-01300] in March and April 2013; the Chancery Division of the Circuit Court of Cook County, Illinois [Wilson v. Cook County, No. 07 CH 4848] on
September 16, 2013; the District of Maryland [Kolbe v.

App. 152
O’Malley, No. 1:13-cv-02841] on January 2, 2014; the
Northern District of Illinois [Friedman v. City of Highland Park, No. 1:13-cv-9073] in May or June 2014; the
Eastern District of California [Tracy Rifle and Pistol,
LLC v. Harris, No. 2:14-cv-02626] on November 2,
2016; and the Southern District of California [Flanagan v. Becerra, No. 16-6164] on July 25, 2017.
5. A ban on large capacity magazines (“Magazine
Ban”) will not reduce the number of homicides and violent crimes committed in Massachusetts. My research
has found no link between a limit on magazine capacity and the number of homicides or violent crimes, and
no such link can be found in the literature.
6. Nor will such a ban cause any significant reduction in the number of gun-violence victims. Criminals rarely actually discharge their firearm. Instead,
the gun is used most often only to threaten the victim.
See Gary Kleck and Karen McElrath, The Effects of
Weaponry On Human Violence, SOCIAL FORCES,
69(3): 669-92 (1991) (a true and accurate copy of which
is attached as Attachment B). In fact, a study from Jersey City, New Jersey found that offenders did not fire
a single shot in over two-thirds of crimes in which the
offender was armed with a handgun. See Reedy, D.C. &
Koper, C.S., Impact of handgun types on gun assault
outcomes: A comparison of gun assaults involving semiautomatic pistols and revolvers. Injury Prevention, 9,
151-55 (2003) (a true and accurate copy of which is attached as Attachment C).
7. When criminals do fire their weapons, they
usually fire very few rounds. Of all violent crimes in

App. 153
which handguns were fired, the offender fired more
than 10 rounds only 2.5–3.0% of the time. Id. The average number of rounds fired was 3.23–3.68 in incidents involving semi-automatic firearms and 2.30–
2.58 in incidents involving revolvers. In a sample of
Philadelphia gun homicides, the average number of
rounds fired was 2.7 for attacks committed with semiautomatic pistols and 2.1 for those with revolvers. See
McGonigal, M.D., Cole, J., Schwab, C.W., Kauder, D.R.,
Rotondo, M.F., and Allgood, P.B., Urban firearm deaths:
a five-year perspective, The Journal of Trauma,
35:532–37 (1993) (a true and accurate copy of which is
attached as Attachment D). It is clear that for the vast
majority of instances in which an attacker fires his
weapon, the unavailability of large capacity magazines
would be inconsequential to the number of shots fired
and also to the number of victims.
8. The Magazine Ban does, however, impair a
victim’s ability to defend themselves in situations requiring more than 10 rounds of ammunition. Situations requiring the defensive use of a firearm occur
with some frequency, as a study I conducted for the Nationwide Defense Survey determined that in 1993
there were approximately 2.5 million incidents in
which victims used guns for self-protection. The research further indicated that 46% of these defensive
gun situations involved women and that a disproportionate share of African-American or Hispanic individuals were in a situation requiring the defensive use a
firearm. The Magazine Ban has the potential to impair
their abilities to defend themselves or their loved

App. 154
ones—if more than 10 rounds of ammunition are required to stop an attacker, the Magazine Ban can be
the critical difference in surviving or not surviving a
self-defense situation.
9. Similarly, a ban on large capacity magazines
will not have any significant effect on the number of
victims killed or injured in mass shootings. As an initial matter, mass shootings where a magazine capable
of holding more than 10 rounds of ammunition was
used are very rare. I recently conducted a study where
I identified, as comprehensively as possible, all mass
shootings that occurred in the United States in the 20year period from 1994 through 2013. See Gary Kleck,
Large-Capacity Magazines and the Casualty Counts in
Mass Shootings: The Plausibility of Linkages, Justice
Research and Policy, 17(1) 28-47 (2016) (a true and accurate copy is attached as Attachment E). I found 23
such shootings. In all 23, the shooters’ use of a large
capacity magazine was rendered essentially irrelevant
because the shooters either: (a) had multiple guns, (b)
had multiple magazines, or (c) reloaded their guns
without interference from others. Therefore, the shooters did not need a large capacity magazine to fire large
numbers of rounds and kill or injure as many victims
as they did. Of the 23 incidents, shooters had multiple
guns in 17 (74%) of them. Among the six incidents in
which shooters possessed only a single gun, the shooter
was known to also possess multiple magazines. Thus,
all of these mass shooters would have been able to fire
more than 10 rounds of ammunition even if they had
not possessed a large capacity magazine. Additionally,

App. 155
I have previously studied news media accounts of 15
widely-reported mass shootings that occurred in the
U.S. between 1984 and 1993 and found that the shooters had more than one gun in 13 of the 15 incidents.
See Gary Kleck, Targeting Guns (NY: Aldine de Gruyter, 1997, p. 144. In sum, the historical evidence tells
us that Massachusetts’ Magazine Ban will not impact
the number of shots a mass shooter is able to fire and
therefore will not affect the number of victims killed or
injured in mass shootings.
10. Perhaps most importantly, historical evidence shows that the Challenged Laws (Mass G. L. C.
140 §§ 121, 31M) will have virtually no effect of any
kind in Massachusetts. Homicides committed using a
rifle of any kind (much less an “assault weapon” as that
term is arbitrarily defined under Massachusetts law)
are extremely rare in Massachusetts and nationally.
FBI Uniform Crime Reporting data indicates that in
2005, one murder was committed with a rifle of any
kind in Massachusetts. In 2006, this number was two
(the same year, twice as many people were murdered
with “hands and feet”). In 2007, the FBI again reported
that only one murder was committed with any rifle; in
2008 only two persons; 2009 only two persons. In 2010,
2011, and 2012, no individuals were murdered with
any rifle in Massachusetts. In 2013, two individuals
were murdered with a rifle in Massachusetts, but in
2014 that number again decreased to zero. In 2015, one
individual was murdered with a rifle. In sum, a total of
eleven individuals were killed with a rifle of any kind
from 2005 through 2015 in Massachusetts. Further, it

App. 156
is not even clear that these rifles are banned by the
Challenged Laws. And even if all of these killings were
committed with the subset of rifle mischaracterized as
assault rifles, it is clear that these weapons do not
claim more than a tiny share of Massachusetts homicides. In sum, the Challenged Laws aim to fix a small
(perhaps non-existent) problem by hindering the selfdefense capabilities and endangering the lives of every
law-abiding Massachusetts citizen.
I declare under penalty of perjury that the foregoing is true and correct.
/s/ Gary Kleck
Gary Kleck

12-11-17
Date

DECLARATION OF GARY ROBERTS, D.D.S.
I, Gary Roberts, under penalty of perjury, declare
and state as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration, and am competent to testify to the matters
stated below.
2. I am attaching a copy of my expert report in
this matter as Attachment A, the contents of which are,
to the best of my knowledge and belief, true and accurate. I hereby adopt and incorporate that report as if
set forth fully herein.

App. 157
3. I am qualified to provide expert testimony regarding wound ballistics and defensive uses of firearms in this matter. I am currently on staff in the
Department of Surgery at Stanford University Medical
Center, a level one trauma center, where I perform hospital dentistry and surgery, and am a licensed dentist
in the state of California. At the hospital, among other
duties, I treat various traumatic injuries, including
gunshot wounds. I also own a private dental practice
where I treat a variety of odontogenic and orofacial illnesses, as well as trauma related injuries, including reconstruction from gunshot wounds. While treating
patients over the past 30 years, I have participated in
the care of individuals who have suffered gunshot
wounds from handguns, shotguns, rifles, and automatic weapons.
4. I was a U.S. Navy Reserve Officer from 1986–
2008 (with active duty from 1988–1992). I graduated
from the University of the Pacific dental school in 1988
and I completed my residency at U.S. Navy Hospital
Oakland in 1989. In residency, I did rotations in anesthesia, emergency medicine, internal medicine, otolaryngology, as well as various dental specialties—
concentrating on oral surgery, oral medicine, and diagnosis. I also received training in advanced trauma life
support and combat casualty care. After I graduated
from residency, I deployed overseas as a Battalion Dental Surgeon, performing dentistry and oral surgery;
this included triaging and treatment of gunshot
wounds.

App. 158
5. During my military healthcare training, I became the U.S. Navy’s Subject Matter Expert in wound
ballistics and terminal ballistics. Terminal ballistics is
the study of how a moving projectile behaves from the
time it hits a target until it comes to rest. Wound ballistics is a subsection of terminal ballistics that focuses
on the anatomic and physiological trauma caused by
projectiles from the time they strike living tissue until
they stop. I studied at the Army Wound Ballistics Research Laboratory at the Letterman Army Institute of
Research while on active military duty. Thereafter I became one of the first members of the International
Wound Ballistics Association. Over the course of my career, I have performed military, law enforcement, and
privately funded wound ballistic testing and analysis,
including being assigned to the U.S. Joint Service
Wound Ballistic Integrated Product Team, serving as a
consultant to the Joint FBIUSMC munitions testing
program, as well as the DOD CTTSO-TSWG MURG
program. Over the years, I have been a technical advisor to the Association of Firearms and Toolmark Examiners and to a variety of federal, state and
municipal law enforcement agencies. I graduated from
Police Academy and served as a Reserve Police Officer
in the San Francisco Bay area. I am currently in a law
enforcement training role where I provide consultations, lectures, and training materials on terminal ballistics and body armor to various law enforcement
agencies around the country. My detailed CV is included in Attachment A. I am intimately familiar with
the matters of my testimony, which is based upon external sources as well as my own experience. My

App. 159
opinions were not developed for purposes of any expert
testimony.
6. I have been participated as an expert witness
in terminal and wound ballistics in the Western District of New York [New York State Rifle and Pistol Ass’n
v. Cuomo, No. 13-CV-291S]; in the Northern District of
Illinois [Friedman v. City of Highland Park, No. 1:13cv-9073]; in the District of Maryland [Kolbe v. O’Malley, No. 1:13-cv-02841]; and in the Chancery Division
of the Circuit Court of Cook County, Illinois [Wilson v.
Cook County, No. 07 CH 4848].
7. Semiautomatic rifles mischaracterized and
defined by Massachusetts as “assault weapons”, particularly those based on the AR-15 platform, are well
suited for use in defense of self and home. Further, a
limit on a magazine’s capacity may hinder defensive
shooting effectiveness.
8. Based on my experience, training and research, semiautomatic rifles are among the best firearms for defensive shooting purposes for several
reasons. First, semi-automatic rifles, like those based
on the AR-15 platform, are the most ergonomic, safe,
readily available, and effective firearm for civilian defensive shooting. Semiautomatic rifles like the AR15
offer superior accuracy, less recoil, greater effective
range, faster reloading, reduced downrange hazard,
better ergonomics, and a larger ammunition capacity
than many other types of firearms, such as handguns
and shotguns. In addition, they are generally easier to
operate one-handed in case of injury compared to other

App. 160
shoulder fired weapons. It is also important to note
that more American’s have been trained to safely use
AR15 type rifles than other weapon, as there are over
25 million American veterans who have been taught
how to properly use an AR15 type rifle through their
military training, not to mention in excess of 1 million
American LE officers who have qualified on the AR15
over the last several decades. In addition, there are numerous civilian target shooters and hunters who routinely use AR15’s and know how to safely operate
them.
9. The FBI determined that the desired penetration depth into human tissue for defensive ammunition is 12 to 18 inches. Under-penetration or overpenetration reduces the ammunition’s effectiveness at
stopping a dangerous attacker. Appropriately selected
center-fire ammunition fired from a semiautomatic rifle penetrates human tissue between 12 and 18 inches.
Therefore, it penetrates human tissue to the desired
depth and can cause wounds that are more from semiautomatic rifles (.223 caliber Remington or 5.56 NATO,
which are very similar) is more likely to incapacitate
an attacker than ammunition fired from most handguns or birdshot from shotguns.
10. Properly selected ammunition fired from
AR15 type semiautomatic rifles (.223 caliber Remington or the very similar 5.56 mm NATO) is more effective and reliable at stopping human attackers than
typical handgun ammunition. Ammunition fired from
semiautomatic rifles can reliably and rapidly stop hostile individuals who pose an immediate, life

App. 161
threatening danger and prevent them from continuing
their violent actions than with handguns.
11. Because .223/5.56mm ammunition fired from
an accurate and ergonomic semiautomatic rifle like the
AR15 has a high potential to hit the desired target and
is less likely to over-penetrate the target, using semiautomatic rifles can prove safer than using other types
of firearms. Accurate and effective ammunition can reduce the need for multiple shots, decreasing the chance
of shots missing the intended hostile opponent and
striking innocent bystanders. Also, as proven by numerous tests, including those by the FBI and BATFE,
.223/5.56mm ammunition fired from a semiautomatic
rifle is less likely to over-penetrate human tissue or intermediate barriers and then pose a hazard to innocent
bystanders compared to ammunition fired from many
other types of firearms, such as handguns and those
commonly used for hunting.
12. I have seen and/or treated patients with gunshot wounds from rifles (including those banned under
the Challenged Laws), handguns, and shotguns. Projectiles fired by common hunting weapons, frequently
create more tissue damage that that caused by the
Massachusetts banned Enumerated Firearms. Likewise, ammunition fired from many handguns has a
greater potential of over-penetrating than .223/5.56
mm ammunition from a semiautomatic rifle like an
AR15.
13. It is often times more time consuming and
complex for healthcare providers to repair multiple

App. 162
gunshot wounds. Use of an accurate semiautomatic rifle in a defensive encounter can result in the need to
fire less shots. Handguns are less effective at stopping
attackers and so more gunshots are often needed to
end an encounter. Additionally, shotguns release multiple projectiles with each pull of the trigger, increasing
the likelihood of multiple wounds. Therefore, the use of
consistent, reliable, and effective defensive ammunition (for example, .223/5.56mm fired from a semiautomatic rifle) may reduce the number of gunshot wounds,
thereby potentially limiting the amount of surgical intervention needed to control hemorrhage and repair
injuries. Reducing the number of rounds expended in
a defensive shooting encounter also reduces the risk
that an innocent bystander is unintentionally hit by a
stray bullet.
14. To conclude that semiautomatic rifles are
well-suited for defensive shooting, one need look no
further than the fact that the AR15 is the most commonly used and recommended rifles by law enforcement personnel, who may lawfully discharge their
firearms for defensive purposes only. In fact, over one
million law enforcement personnel have qualified on
the AR-15. It follows that private citizens who wish to
own a firearm for self- and home-defense should use a
semiautomatic rifle—most likely the same firearm and
ammunition chosen by police in their community. This
is because the degree of force required to stop a violent
felon does not change whether confronted by law enforcement officers or a private citizen. The violent
felon’s anatomy, physiology, and incapacitation

App. 163
potential does not change depending on the intended
victim’s profession.
15. A limit on magazine capacity may hinder defensive shooting. Oftentimes, defensive shooting requires more than 10 rounds of ammunition, even for
trained law enforcement officers. The most recently released New York Police Department (NYPD) “Annual
Firearms Discharge Report” data from 2015 documents that in 35% of NYPD Intentional Discharge-Adversarial Conflict cases, officers needed to fire more
than 5 shots to stop the threat. (A true and accurate
copy of the Annual Firearms Discharge Report is attached hereto as Attachment B). In 17% of the incidents, officers needed more than 10 shots to end the
violent encounter, including one case where 84 shots
were required. It stands to reason that civilians who,
unlike NYPD police officers, likely have no body armor,
no radio, no partner, no cover units, and no duty belt
with extra magazines, yet who are targets of opportunity being confronted by the same violent felons as
the police, need at least as many rounds of ammunition
in their magazines as trained police officers. Individuals with disabilities may have difficulty easily changing magazines, so having a magazine with standard
capacity greater than 10 rounds may be crucial to their
survival in a lethal force defensive encounter. Furthermore, I am unaware of any person who has had to use
lethal force to defend their life in a gunfight who
wishes they had less ammunition during the encounter.

App. 164
16. Additionally, the most commonly-used magazines by civilians hold more than 10 rounds of ammunition. According to data from the BATFE, the majority
of pistols (approximately 62%) currently manufactured each year in the U.S. are designed to use magazines with a standard capacity (the number of
cartridges the firearm was designed to operate with)
greater than 10 rounds. Numerous tests by law enforcement organizations have documented that the
most reliable magazines are those the weapon was
originally designed to use; both high capacity and reduced capacity magazines have frequently demonstrated more malfunctions in various types of firearms.
The U.S. military has not adopted a handgun with a
standard magazine capacity less than 10 rounds since
1911. Likewise, all U.S. military rifles that have been
adopted since 1937 have a magazine capacity of 15 or
more rounds. By capriciously limiting magazine capacity to 10 rounds or less, the government denies citizens
the benefits of modern technology and forces them to
use defensive tools from a bygone era.
I declare under penalty of perjury that the foregoing is true and correct.
/s/ Gary Roberts, D.D.S.
Gary Roberts, D.D.S.

12/12/17
Date

App. 165
DECLARATION OF GUY ROSSI
I, Guy Rossi, under penalty of perjury, declare and
state as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration, and am competent to testify to the matters
stated below.
2. I am attaching a copy of my expert report in
this matter as Attachment A, the contents of which are,
to the best of my knowledge and belief, true and accurate. I hereby adopt and incorporate that report as if
set forth fully herein.
3. I am qualified to provide expert testimony regarding self-defense in this matter. My specific areas
of expertise include use of force and firearms and defensive tactics in defensive shooting situations. I have
dedicated my life to law enforcement and training my
fellow law enforcement officers. I worked for 21 years,
starting in 1977, as a uniformed police officer. I began
my career as a deputy sheriff, village, town, and city
police officer in the Greater Rochester, New York area.
During my time as a police officer, I responded to all
manner of service calls, including criminal and drug
investigations. In 1991, I was promoted to Sergeant for
the Rochester Police Department. This promotion carried the responsibility of the direct supervision of the
afternoon and midnight shifts in high-crime precincts.
Specifically, my duties involved being the first responding supervisor to any call involving violence, public
danger or civil disorder. Frequently due to the high

App. 166
demand for police service, I was often placed in a role
of backup officer as well as first responder. Additionally, I was responsible for supervising investigators
and their caseloads.
4. I have been actively involved in departmental
law enforcement training since 1979, much of this
training has involved defensive tactics including defensive shooting. Also, from 1992 to my retirement
from uniformed service in 1998, I was assigned to the
Professional Development Section (training) as the
Field Training and Evaluation Administrator for the
Rochester Police Department, overseeing recruit training for the entire agency of 700 officers. I developed
curriculum that was approved by the New York State
Division of Criminal Justice Services that served as
the basis of instruction for instructors in the areas of
field training, officer safety, defensive tactics and firearms. I continue to instruct and consult at our academy and for the State of New York Division of Criminal
Justice Services. I also instruct at national and international law enforcement conferences on use of force
and law enforcement training.
5. My opinions are based on a continuing lifelong career that immersed me in every aspect of police
training from recruit, instructor training and development, academy instructor, curriculum developer,
program coordinator, policy analyst, use of force curriculum development, instructor certifier and accreditation manager. My opinions are also based on my
experience as a New York State Department of Criminal Justice Services Master Instructor in teaching

App. 167
NYSPL Article 35.00 (Defense of Justification) regarding Use of Force to police recruits, in-service officers
and instructors for thirty-five years as well as the former Program Coordinator of Curriculum Development
& Defensive Tactics for the Public Safety Training Facility of Monroe Community College. It is also based on
my experience of having trained hundreds of recruits,
law enforcement in-service officers, defensive tactics
instructors, defensive tactics instructor-trainers, Monadnock Police Baton users, instructors and instructor-trainers locally and on a national as well as
international scale.
6. I have participated as an expert witness regarding defense tactics in defensive shooting situations and provided deposition testimony in the
Southern District of California [Flanagan v. Becerra,
No. 16-6164] in 2017; in the District of Maryland
[Kolbe v. O’Malley, No. 1:13-cv-02841] on January 6,
2014; in the District Court of Connecticut [Skew v. Malloy, No. 3:13-cv-739] in 2013; and in the Western District of New York [New York State Rifle and Pistol Assn.
v. Cuomo, No., 1:13-cv-00291] on January 14, 2014.
7. Police do not have the practical ability to rescue all crime victims, so it is essential that all lawabiding citizens be able to protect themselves. Put
simply, higher capacity magazines allow individuals to
better protect themselves. It is of paramount importance that individuals have quick and ready access
to ammunition in quantities sufficient to provide a
meaningful opportunity to defend themselves and
their loved ones. Large capacity magazines reduce

App. 168
the time-consuming need to reload in situations requiring more than 10 rounds of ammunition to stop
an attacker. Reloading is especially time-consuming if
the victim is handicapped, disabled or injured. Massachusetts G.L. c. 140 § 121 (“Magazine Ban”) arbitrarily
limits law-abiding citizens’ ability to defend themselves, defend others, and defend their homes effectively to situations that require 10 shots or less. This
is an unconscionable restriction on their right to selfdefense.
8. As an initial matter, defensive shooting situations requiring more than 10 shots are fairly common.
The 2015 New York City Police Department’s Annual
Firearms Discharge Report (“AFDR”) provides detailed
information on all incidents in which NYPD officers
discharged their weapons in 2015, (A true and accurate
copy of the AFDR is attached as Attachment B). In that
year, there were 33 incidents where a police officer intentionally discharged her firearm in an encounter of
adversarial conflict. In 17% of these incidents, the
NYPD officer(s) involved fired more than 10 rounds, If
highly trained and experienced police officers required
the use of at least 11 rounds in 17% of their close-range
encounters to subdue an aggressive assailant, it stands
to reason that an untrained civilian gun owner under
duress (and certainly far less experienced and trained
than a police officer) would need at least that many
rounds at least as often to stop an unexpected, imminent assault by one or more armed assailants within
her home. The Magazine Ban’s effects are not merely
philosophical but have life or death consequences for
Massachusetts residents.

App. 169
9. Reloading a semiautomatic firearm with a
detachable magazine is a 12-step process that is
time-consuming under ideal circumstances. Defensive
shooting situations are intensely stressful, and so reloading is a significantly more time-consuming process. It is a known fact that under the “stress flood” of
a life or death encounter the blood within one’s body is
re-routed to the larger muscles so as to allow a “flee or
fight” response. This physiological reaction to extreme
stress causes significant reloading difficulty during an
attack due to loss of fine motor control in the fingers.
Completing any of the 12 steps necessary to reload a
magazine, such as trying to push a magazine release
or align a magazine with the magazine, with fingers
that are shaking and weakened due to blood loss is
very difficult for even a seasoned veteran soldier or police officer who expects this phenomena. These crucial
tasks are far more difficult for a civilian who has never
been trained that such changes will occur, trained during realistic scenario-based training, or who is experiencing a life-threatening attack for the first time.
Reloading a semiautomatic weapon takes at least several seconds without consideration of other factors
such as distractions, noise, multiple assailants, lighting conditions, nervousness and fatigue. See Management of Aggressive Behavior Instructor Manual,
MOAB Training International (a true and correct copy
of which is attached as Attachment C).
10. Very few, if any, instances in which the use of
a firearm is necessary for self-defense afford the time
necessary to reload. In the well-known Tueller Drill for
police training, it is emphasized that an attacker who

App. 170
is 21 feet away can close the entire distance between
himself and the victim in only 1.5 seconds. It is physically impossible to reload a firearm in under 1.5 seconds, especially when under duress. If the defensive
shooting situation requires more than 10 rounds, the
Magazine Ban has ended any chance the law-abiding
victim had at stopping the violent attacker.
11. Beyond being time-consuming, reloading a
weapon is physically and mentally consuming. Reloading a firearm requires two hands (one to hold the firearm and one to load the magazine). Therefore,
requiring victims to reload their firearm limits their
ability to escape, fend off the attacker, use a phone to
call 911, or give physical aid or direction to others. Also,
reloading a firearm requires focus and therefore distracts the victim from the assailant and her surroundings as well as from any other necessary decision
making processes. This is important because brainwave research of Olympic shooters shows that the
greater a shooter’s distraction, the greater the possibility of a missed shot. See Bill Lewinski, Stress Reactions of Lethal Forces Encounters, THE POLICE
MARKSMAN, May/June 2002, at 27 (a true and accurate copy of which is attached as Attachment D).; N.
Konttinen, D.M. Landers, & H. Lyytinen, Aiming Routines and Their Electrocortical Concomitants Among
Competitive Rifle Shooters, 10 SCANDANAVIAN J.
MED. & SCI. IN SPORT 169 (2000) (a true and accurate copy of which is attached as Attachment E).
12. For obvious reasons, reloading is especially
time-consuming and mentally and physically distracting

App. 171
if the victim is handicapped, disabled or injured. Victims
are often injured or otherwise rendered handicapped
during an attack. For instance, in my extensive experience with force-on-force simulation training, it was a
very common occurrence (30-40% occurrence rate) for
police officers engaged in a gunfight to be struck in the
hand by the attacker. It is not difficult to imagine any
number of other injuries that may occur during an attack requiring defensive shooting. The Magazine Ban
is particularly devastating for those who are already
(or become) physically disadvantaged.
13. The bottom line is that the Magazine Ban
hinders law-abiding citizens’ ability to defend themselves, and it may cost lives. The legitimate and
compelling need for a large capacity magazine for selfdefense is underscored by the fact that police officers
and retired law enforcement officers are exempt from
the restrictions on magazine capacity and on loading
more than ten rounds in a magazine. If a police officer,
who generally may only discharge a firearm in self-defense, needs large capacity magazines, then of course
the law-abiding citizens of Massachusetts do too.
I declare under penalty of perjury that the foregoing is true and correct.
/s/ Guy Rossi
Guy Rossi

12/11/17
Date

App. 172
DECLARATION OF JAMES CURCURUTO
I, James Curcuruto, under penalty of perjury, declare and state as follows:
1. I am over the age of 18, have personal
knowledge of the facts and events referred to in this
declaration, and am competent to testify to the matters
stated below.
2. I am attaching a copy of my expert report in
this matter as Attachment A, the contents of which are,
to the best of my knowledge and belief, true and accurate. I hereby adopt and incorporate that report as if
set forth fully herein.
3. I am qualified to provide expert testimony regarding firearms industry data, in particular the commonality of modem sporting rifles and magazines
capable of holding more than 10 rounds of ammunition, in this matter. I am currently working as the Director of Research and Market Development at
National Shooting Sports Foundation. In this position
I have been tasked with additional responsibilities related to participant recruitment and retention. A majority of my previous job responsibilities remain
unchanged. From November 2009 through October
2017, I was the Director of Industry Research & Analysis for the National Shooting Sports Foundation Inc.
(“NSSF”), which is the firearms industry trade association. In my current position, I am still responsible for
most of the research activities at NSSF, which includes
researching and compiling accurate, reliable market
data regarding consumer preferences and market

App. 173
trends in the firearms and ammunition industry. This
information is provided to NSSF’s members, consisting
of approximately 10,000 manufacturers, distributors,
firearm retailers, shooting ranges, sportsmen’s organizations, and publishers. Many members rely on the
data we provide to help them make informed, strategic
business decisions. Further, under my direction, the
NSSF has released dozens of informational reports
and studies regarding this information. Data from
these releases has been referenced many times in
online and print newspaper and magazine articles,
used in corporate reports and briefings, and mentioned
in other media. Through my research and experiences,
I have unique knowledge and expertise on the popularity and commonality of certain firearms, including
those banned in Massachusetts under the Challenged
Laws. I am familiar with the matters of my testimony,
which is based upon external sources as well as my
own experience. My opinions were not developed for
purposes of any expert testimony.
4. I have participated as an expert witness regarding the firearms industry and provided deposition
testimony in the Northern District of Illinois [Friedman v. City of Highland Park, No. 1:13-cv-9073] on
May 27, 2014; in the District of Maryland [Kolbe v.
O’Malley, No. 1:13-cv-028411 on January 24, 2014; and
in the Chancery Division of the Circuit Court of Cook
County, Illinois [Wilson v. Cook County, No. 07 CH
4848] on November 7, 2013.
5. Data clearly shows that modern sporting rifles
(mischaracterized and defined by Massachusetts as

App. 174
“assault weapons”), as well as magazines capable of
holding more than 10 rounds of ammunition, are commonly possessed for lawful purposes.
6. Modern sporting rifles, particularly AR- and
AK-platform rifles, are some of the most popular and
commonly owned firearms in America. They are owned
or used by tens of millions of persons in the U.S. each
year for a variety of lawful purposes, including recreational and competitive target shooting, home defense,
hunting, and collecting. Figures from the Bureau of Alcohol, Tobacco, Firearms and Explosives’ (“ATF”) Annual Firearms Manufacturers and Exports Reports
(“AFMER”) show that between 1990 and 2015, U.S.
manufacturers produced approximately 9,309,000 ARplatform rifles for sale in the U.S. commercial marketplace. (A true and accurate copy of the AFMER report
is attached as Attachment B, at p. 1). During these
same years, figures from the U.S. International Trade
Commission (“ITC”) show that approximately
4,430,000 AR- and AK-platform rifles were imported
into the U.S. for sale in the commercial marketplace.
See Attachment B, at p. 1. Additionally, because ARand AK-47 platform rifles have been sold to civilians in
the U.S. since the late 1950s, it is reasonable to conclude that many more of these rifles were manufactured in or imported to the U.S. before 1990.
7. It is also clear that modern sporting rifles are
growing in popularity. Of the approximately
13,739,000 AR- and AK-platform rifles manufactured
in or imported to the U.S. between 1990 and 2015, more
than 1,500,000 of them were manufactured in or

App. 175
imported to the U.S. in 2015 alone. Attachment B, at p.
1. By way of comparison, in 2015, the number of modem sporting rifles manufactured in or imported to the
U.S. was nearly double the number of the most commonly sold vehicle in the U.S. (the Ford F series pickup trucks (including F-150, F-250, F-350, F-450 and F550), of which a total of 780,354 were sold). See
http://fordauthority.com/fmc/ford-motor-companysalesnumbers/ford-sales-numbers/ford-f-series-sales-numbers/.
It is indisputable that modem sporting rifles are commonly possessed.
8. As of 2013, more than 4,800,000 people, most
of whom are married with some college education and
a household income greater than $75,000, own at least
one modern sporting rifle. See 2013 Modern Sporting
Rifle Comprehensive Consumer Report published by
NSSF (a true and accurate copy of which is attached
as Attachment C), at p. 9. This same survey indicates
that self-defense is a critical concern for many citizens
who purchase a modern sporting rifle and is one of the
primary reasons for their purchase. Attachment C, at
p. 34. Further illustrating their commonality is the fact
that modem sporting rifles are the most frequentlysold long gun in America—not shotguns or traditionally styled rifles. According to a 2017 survey of 324
firearm retailers across the U.S., in 2016, modem sporting rifles accounted for 17.9% of all firearm sales while
shotguns and traditionally styled rifles accounted for
only 11.5% and 11.3% of all firearm sales, respectively.
See Firearms Retailer Survey Report 2017 Edition
(“2017 Survey), published by NSSF (a true and

App. 176
accurate copy of which is attached as Attachment D),
at p. 12. In 2016, modern sporting rifles accounted for
approximately 40% of all long gun sales. Attachment
D, at p. 12. Again in 2016, approximately 93% of the
2017 Survey’s respondents sell new modern sporting
rifles. Attachment D, at p. 5.
9. The commonality of modern sporting rifles extends beyond ownership – they are even more commonly used by citizens for a variety of lawful purposes.
For instance, according to the Sports Shooting Participation in the U.S. in 2016 report, published by the
NSSF, approximately 14,000,000 people participated
in target shooting with a modern sporting rifle in 2016,
a 57% increase from 2009. (A true and accurate copy of
the Sports Shooting Participation in the U.S. in 2016
report is attached as Attachment E, at p. 11).
10. It is also indisputable that magazines capable of holding more than 10 rounds of ammunition are
commonly possessed. Millions of people across the
country possess magazines capable of holding more
than 10 rounds of ammunition. Between 1990 and
2015, Americans owned approximately 114,700,000 of
these magazines, accounting for approximately 50% of
all magazines owned during this time (approximately
230,000,000). See Data compiled and released by the
NSSF in 2017, a true and accurate copy of which is attached as Attachment F. It is reasonable to assume
that many more such magazines were purchased in the
U.S. prior to 1990 and that even more people possess a
magazine capable of holding more than 10 rounds of
ammunition. The standard capacity magazines for

App. 177
modern sporting rifles are capable of holding more
than 10 rounds of ammunition, see Attachment C, at p.
28, and many modern semi-automatic handguns come
equipped with standard capacity magazines holding
more than 10 rounds.
I declare under penalty of perjury that the foregoing is true and correct.
/s/ James Curcuruto
James Curcuruto

12/13/17
Date

